<html>
<title> - AMERICA COMPETES: SCIENCE AND THE U.S. ECONOMY</title>
<body><pre>[Senate Hearing 113-641]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-641
 
                           AMERICA COMPETES: 
                      SCIENCE AND THE U.S. ECONOMY

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 2013

                               __________


 Printed for the use of the Committee on Commerce, Science, and Transportation
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
 
 
                      U.S. GOVERNMENT PUBLISHING OFFICE
94-535                    WASHINGTON : 2015                      

______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7116011e311204020519141d015f121e1c5f">[email&#160;protected]</a>  
   
      
      
      
      SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
EDWARD MARKEY, Massachusetts         RON JOHNSON, Wisconsin
CORY BOOKER, New Jersey
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 6, 2013.................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Thune.......................................    33
Statement of Senator Cantwell....................................    67
Statement of Senator Klobuchar...................................    69
Statement of Senator Johnson.....................................    71
Statement of Senator Scott.......................................    73
Statement of Senator Blumenthal..................................    75
Statement of Senator Schatz......................................    77
Statement of Senator Markey......................................    79

                               Witnesses

Hon. Lamar Alexander, U.S. Senator from Tennessee................     1
    Prepared statement...........................................     5
    Open letter dated October 9, 2013 to Hon. John D. Rockefeller 
      IV and Hon. John Thune.....................................     6
Dr. Kelvin K. Droegemeier, Vice President for Research, Regents' 
  Professor of Meteorology and Weathernews Chair Emeritus, 
  University of Oklahoma, and Vice Chairman, National Science 
  Board..........................................................    35
    Prepared statement...........................................    37
Dr. Saul Perlmutter, Professor of Physics, University of 
  California, Berkeley; Senior Scientist, Lawrence Berkeley 
  National Laboratory............................................    42
    Prepared statement...........................................    43
Dr. Maria M. Klawe, President, Harvey Mudd College...............    51
    Prepared statement...........................................    52
Stephen S. Tang, Ph.D., MBA, President and CEO, University City 
  Science Center, Philadelphia, Pennsylvania.....................    57
    Prepared statement...........................................    60

                                Appendix

Response to written questions submitted to Dr. Kelvin K. 
  Droegemeier by:
    Hon. John D. Rockefeller IV..................................    85
    Hon. Mark Warner.............................................    89
    Hon. Roger F. Wicker.........................................    94
    Hon. Deb Fischer.............................................    95
Response to written questions submitted to Dr. Saul Perlmutter 
  by:
    Hon. John D. Rockefeller IV..................................    98
    Hon. Mark Warner.............................................    98
    Hon. Deb Fischer.............................................   100
Response to written questions submitted to Dr. Maria M. Klawe by:
    Hon. John D. Rockefeller IV..................................   100
    Hon. Amy Klobuchar...........................................   101
    Hon. Mark Warner.............................................   102
    Hon. Deb Fischer.............................................   103
Response to written questions submitted to Dr. Stephen S. Tang 
  by:
    Hon. John D. Rockefeller IV..................................   104
    Hon. Mark Warner.............................................   105
    Hon. Deb Fischer.............................................   107


                           AMERICA COMPETES: 
                      SCIENCE AND THE U.S. ECONOMY

                              ----------                              


                      WEDNESDAY, NOVEMBER 6, 2013

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:34 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Ladies and gentlemen, this hearing will come 
to order. And the vast attendance, let it fool you not, people 
will be coming in. That I'm on time is something of a miracle.
    [Laughter.]
    The Chairman. Much less other members.
    I have no way of expressing how happy I am to welcome 
Senator Lamar Alexander.
    I'm making, I just made the point to the Honorable Senator 
Thune that you and my son's wife's father were roommates at law 
school; is that correct?
    Senator Alexander. That's correct.
    The Chairman. Was that Georgetown?
    Senator Alexander. NYU.
    The Chairman. That's what I said.
    And you, sir, have been a champion of this program from the 
very, very beginning. And I know that you have to leave right 
after your presentation, but we very much look forward to it. 
And so you're on.
    Senator Alexander. Well, thank you.
    The Chairman. Give us history.
    Senator Alexander. I thought I'd have the privilege of 
listening to you and Senator Thune before, but I'll be glad to 
go ahead.
    The Chairman. We'll go right after you.
    Senator Alexander. All right. Thanks very much.
    The Chairman. Thank you.

              STATEMENT OF HON. LAMAR ALEXANDER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Alexander. Thanks, Mr. Chairman, and Senator 
Ranking Member Thune, distinguished Senators. Thanks for 
letting me come by.
    I'll try to keep my remarks to five minutes. I think that's 
what has been suggested to me. But let me start with exactly 
what I'm asking you to consider doing, and that is to authorize 
the appropriations committees to finish the job that the 
Congress started in an overwhelming remarkable bipartisan way 
in 2007 to double the research budgets of our--to double the 
budgets of our major research institutions in the Federal 
Government. That's what I am here to support.
    And at the same time as you reauthorize America COMPETES, 
look for duplicate programs, look for waste; this is a time 
when we don't have any money to waste; and reauthorize the 
necessary programs that were authorized in 2007 and 2010. But 
the main goal is to finish the job stated in 2007 by 
legislation that was sponsored by the majority leader and by 
the minority leader and at one time, based on my memory, had 35 
Republican sponsors and 35 Democratic sponsors. We'd never seen 
anything quite like it.
    And then when the Senate changed hands and we went from a 
Republican to a Democratic Senate, the principle sponsors just 
switched positions and sponsors became Senator Reed and Senator 
McConnell. So that's the history of the American COMPETES 
legislation. Now.
    Let me see if I can be persuasive here by posing a 
question. Why do you suppose that the United States is able to 
produce 22 percent of all the money in the world and distribute 
it among just below 5 percent of all the people in the world? 
How did we get that fortunate?
    Well, there are many reasons, but basically our brains are 
the same as people around the world. We work hard, but we don't 
work that much harder than people in other countries. So how 
did this happen?
    Most people believe that, while there are many factors, 
that the overwhelming factor since World War II is our 
technological advantage. In other words, we have a high 
standard of living because of our technological advantage since 
World War II.
    It's because of stories like this, a small government 
agency called DARPA in the Defense Department, which was 
founded in 1958 at about the time of the Sputnik trouble and in 
which the U.S. Government invests small amounts of money in 
startup companies and then sends them out in the marketplace to 
see if they survive and often buys what they produce.
    DARPA has invented such things as the Internet, stealth, 
speech-recognition software, and GPS, just a few things over 
that long period of time. Or a cousin to DARPA, which was 
created in 2007, by the legislation we're talking about today, 
which is called ARPA-E, it's in the energy department, already 
it has given a few million dollars, 4 million dollars, to a 
startup company that has doubled the energy density of 
rechargeable Lithium batteries. In other words, that could 
make, that could cut in half the cost of a battery or cause an 
electric car to go twice as far.
    Or there's another invention, innovation going on in ARPA-
E, in which Senator, the Chairman will be especially 
interested; it will use electricity and CO<INF>2</INF> to make 
liquid fuel. If that works, and it hasn't worked yet in a 
commercially viable way, but if you can actually combine 
electricity and CO<INF>2</INF> in some way to produce liquid 
fuel that could be sold, why then you could burn all the coal 
we have in the United States because we already have a way to 
deal with pollution from sulphur, nitrogen, and mercury. We 
don't have a very good way to capture carbon, but if this 
works, we would in a commercially viable way.
    Then in the Office of Science, there has recently been an 
innovation that creates an artificial retinae and literally 
allows blind people to begin to see. It doesn't work for 
everybody. It's just beginning, but it's a remarkable 
beginning.
    And perhaps the most extensive story is the role of the 
Federal Government in unconventional gas. Our prosperity today 
depends a lot on cheap natural gas. And of course much of that 
came from our big market, from entrepreneurs, from capital, 
from private landownership, all those things; but also from 
support from the Federal Government in a hydraulic fracturing 
demonstration project and inventing three-dimensional mapping.
    So it's literally true what the scientists at Sandia 
Laboratory told me, that it's hard to think of a major 
development in the physical and biological sciences since World 
War II that didn't have some government-sponsored research 
behind it.
    Now the rest of the world has noticed that we produce 22 
percent of all the money in the world and just have a little 
less than 5 percent of the people. In 2006 while we were first 
starting America COMPETES, I was part of a Senators delegation 
to China. I was lucky to go because it was led by Senator 
Stevens, who flew the first cargo plane in 1944 into China and 
Senator Inouye, who is a congressional Medal of Honor winner, 
so they were well treated over there.
    And President Hu and Vice President Wu spent a lot of time 
with us. And what was interesting to me was instead of talking 
about Iraq, Iran, North Korea, all those subjects; they wanted 
to talk about American competitiveness and Chinese 
competitiveness. And President Hu walked down the Great Hall of 
China not long after that and announced that they would spend 4 
percent of their GDP for 15 years in order to try to catch up 
with the United States and with other countries in terms of 
standard of living. So they wanted to use, they wanted to 
create a brain-power advantage for their standard of living. 
The same brain-power advantage we already have.
    Now that's not how we have to do it in the United States. 
President Obama can't just summon all of us to the Great Hall 
of America and tell us what to do. We can't even tell ourselves 
what to do. We have a messy democratic process we have to 
follow, but we did that. And in 2005, I remember sitting in a 
budget hearing, the end of a long day, I was getting very 
discouraged because it reminded me of my days as Governor when 
I would sit there and watch all the Medicaid costs go up and it 
was taking money away from higher education and I knew that if 
I wanted to a pro-growth state, I had to improve the schools 
and the research and the higher education system.
    I've seen the same thing happen here in the Federal budget. 
All the money for entitlement is going up. We're squeezing out 
the investments in the research that has given us our high 
standard of living. So I walked down to the National Academy of 
Sciences that day, they were completing a meeting, and I said, 
``I believe if you all would tell us the ten things in priority 
order that we could do as a Congress that would make America 
more competitive, I believe we'd do it.'' Because what we 
usually lack around here is the lack of a specific idea.
    They assembled a distinguished group of 20, Norman 
Augustine headed it, and very quickly they produced something, 
a report called, ``Rising Above the Gathering Storm,'' which 
has gotten pretty famous. They recommended 20 things for us to 
do. We went to work through three committees including this 
one. It was very complicated. We had lots of Senators involved. 
We had many hearings. We got President Bush involved.
    Long and short, after 2 years we were at a point where we 
almost unanimously passed a plan, whose major feature was to 
authorize the doubling of research in our scientific 
enterprises over the next 7 years. As I said, it was sponsored 
by the majority and minority leader and it had 70 or 80 members 
of the Senate as cosponsors of the bill and it had been through 
three different committees to get it done.
    Well, we haven't quite lived up to what we said we would 
do, but we've done pretty well. About two-thirds of the 
recommendations from here are enacted into law. We are asking 
you to reauthorize those that work. And we've made some 
progress on funding the National Academy of--the National 
Science Foundation, the National Institute of Standards and 
Technology, the Office of Science in the Department of Energy, 
and the new little ARPA-E endeavor that I talked about, which 
is $264 million of funding this year.
    So what there is to do in this committee, I would 
respectfully suggest, is to authorize the appropriations 
committees to finish the job of doubling our funding for 
research so we can keep our high standard of living.
    Where does the money come from? These are tight times. 
Well, our budget is $3.6 trillion. Our research funding is 4 
percent of that, so $140 billion, which seems like a lot; but 
the Chinese level of funding for the next 15 years is 4 percent 
of their gross domestic product. If we were to do 4 percent of 
our gross domestic product, we'd have a research budget of $600 
billion, 4 times what it actually is.
    And we ought to, you know, governing is about setting 
priorities, there are plenty of things we do that are less 
important than this, if we want to keep our high standard of 
living. Now I know there are some on my side of the aisle who 
sometimes think that the authorizing committees are supposed to 
also be the appropriations committees. I don't. You know, if 
that's the case, then we ought to get rid of one or the other.
    So I think it's up to you, if I may say so, to authorize 
what our goals should be. And it's up to those of us on the 
appropriations committee to decide how much to spend each year.
    So I thank you for your time. I wish you well in the 
progress. I would like to rekindle the same enthusiasm that we 
had when we began this in 2006 and 2007. And in case that 
enthusiasm is slow coming, I can read you this one sentence 
from the group of distinguished Americans who revisited our 
competitive position in the world last year and issued this 
question and this answer.
    So where does America stand relative to its position of 5 
years ago when the Gathering Storm report was prepared? Answer: 
The unanimous view of the Committee members participating in 
this preparation of this report is that our Nation's outlook 
has not improved, but rather has worsened. There are a lot of 
other people in the world who have good brains. There are a lot 
of other people in the world who work hard. They see we've got 
22, 23 percent of all the money in the world each year for just 
5 percent of the people, and they want a bigger share. So if we 
want to keep our standard of living, I suggest that we finish 
the job.
    Thank you for your time.
    [The prepared statement of Senator Alexander follows:]

Prepared Statement of Hon. Lamar Alexander, U.S. Senator from Tennessee
    I want to thank the Chairman and Ranking Member for inviting me 
here today to speak on this important topic, America's competitiveness, 
and the law that helps to maintain America's competitiveness--The 
America COMPETES Act.
    America COMPETES Act was signed into law under President Bush in 
2007. This act authorized several important programs to maintain 
America's competitiveness.
    To understand America COMPETES, it's important to recognize that 
this was a major bipartisan effort, so much so, that the America 
COMPETES legislation was introduced by the Senate Majority and Minority 
leaders and had 30 Republican Senators, 38 Democratic Senators and 1 
Independent Senator as cosponsors.
    Few issues over the last decade have garnered this much bipartisan 
support; so let me explain why this does.
    In 2005, a Republican Congress, in response to concerns from the 
National Academies and business and education leaders ``that a 
weakening of science and technology in the United States would 
inevitably degrade its social and economic conditions and in particular 
erode the ability of its citizens to compete for high-quality jobs,'' 
sought to strengthen and ensure America's competitiveness.
    We started this process by asking the National Academies what are 
the 10 things that Congress can do to ensure America's competitiveness?
    The National Academies organized a committee of business, 
education, and science leaders led by former Lockheed Martin CEO Norman 
Augustine, which then responded to Congress with 4 recommendations and 
20 action items in the ``Rising Above the Gathering Storm'' report.
    We took this report, recommendations from the Council on 
Competitiveness, and President Bush's American Competitiveness 
Initiative and developed the America COMPETES Act, which was signed 
into law by President George W. Bush.
    The results have been successful:

  <bullet> A 2012 Government Accountability Office review of ARPA-E 
        found that it ``successfully funded projects that would not 
        have been funded solely by private investors, in keeping with 
        its goals''--These types of projects include better batteries 
        for energy storage and addressing the growing global shortage 
        of rare earth materials used in magnets that are used in 
        electronics.

  <bullet> Many of the Science, Technology, Engineering, and 
        Mathematics (STEM) programs are contributing to their stated 
        goals, such as integrating research with education, which has 
        resulted in ``more students deciding to go to graduate school 
        or to consider a career in research.''

  <bullet> Lastly, America COMPETES funds research at our national 
        labs, which are the crown jewel in the ``innovation 
        ecosystem.'' Just in the last decade there are several success 
        stories from our national labs such as:

    <ctr-circle> Tools for increased border security like millimeter 
            wave scanners at airports

    <ctr-circle> Energy efficiency technology that could save $5 
            billion in fuel costs for the long haul trucking industry

    <ctr-circle> Advancing medicine like FDA-approved drugs for cancer 
            and AIDS treatment and artificial retina technology--that 
            allowed a blind man to detect motion and differentiate 
            simple objects.

    Even with these successes the work is not over, which is why we 
must reauthorize America COMPETES.
    Just this month over 300 organizations, including universities from 
all 50 states along with businesses like Intel, IBM, Proctor & Gamble & 
Nissan USA, and chambers of commerce from across the country, sent a 
letter urging Congress to close our ``innovation deficit'' by passing a 
strong America COMPETES Act reauthorization bill.
    Updates and changes to the programs need to be made to continue to 
combat the ever-increasing global competition.
    But these changes can be made while also encompassing the 
principles suggested in the aforementioned letter--a bill that ``set[s] 
funding targets that call for real and sustained growth in funding for 
the National Science Foundation (NSF), National Institutes of Standards 
and Technology (NIST), Department of Energy Office of Science, and the 
Advanced Research Projects Agency-Energy (ARPA-E).''
    Even in our current times of fiscal constraints, we must continue 
to fund research and development.
    As Dr. Thom Mason, Director of Oak Ridge National Laboratory has 
said, ``It's hard to think of a major technological breakthrough in the 
physical or biological sciences since World War II that has not been 
helped by government-sponsored research.''

    The Chairman. Powerful and eloquent.
    Senator Alexander. And may I submit for the record two 
things, Mr. Chairman? One is the abbreviated copy of this 
original report. It's just a few pages. And that, not this, but 
a few--a summary of it. And the second is a letter from, well, 
more than--or from 200 university presidents and many 
organizations across the country who support the importance of 
this reauthorization of America COMPETES.
    The Chairman. Is Chuck Vest on that list? He should be.
    Senator Alexander. Well, Chuck Vest was a major----
    The Chairman. He was head of MIT.
    Senator Alexander.--force----
    The Chairman. Yes.
    Senator Alexander.--in terms of the early efforts along 
with Norm Augustine and a whole group of others. Chuck, he has 
been a very important part of all of this from the beginning.
    The Chairman. As have you, sir.
    [The information referred to follows:]

                                                    October 9, 2013

Hon. John D. Rockefeller IV,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. John Thune,
Ranking Member
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller and Ranking Member Thune:

    As over 200 university presidents have stated in an open letter to 
President Obama and the U.S. Congress ``[t]he combination of eroding 
Federal investments in research and higher education, additional cuts 
due to sequestration, and the enormous resources other nations are 
pouring into these areas is creating a new kind of deficit for the 
United States: an innovation deficit.'' We write now, as leading higher 
education, research, science and business organizations to urge you to 
send a clear signal that the U.S. Congress is serious about closing the 
innovation deficit by introducing and passing a strong America COMPETES 
Act reauthorization bill that authorizes increased funding for key U.S. 
science agencies.
    In both 2007 and 2010, the U.S. Congress passed COMPETES 
legislation with bipartisan support. With the passage of these bills, 
Congress established funding targets aimed at doubling funding for 
these key Federal research agencies within seven years with the goal of 
ensuring continued U.S. leadership in science and technology which 
provides the foundation for our global and economic competitiveness. 
These bills sent an important message to the world that our Nation and 
Congress were resolute about addressing concerns raised about the 
future health of the United States economy by the 2007 National 
Academies Report ``Rising Above the Gathering Storm.'' This report came 
in response to a request from a bipartisan group of Senators and House 
Members who asked what actions policy makers needed to take ``. . . to 
enhance the science and technology enterprise so that the United States 
can successfully compete, prosper, and be secure in the global 
community of the 21st century''.
    Despite the difficulty of achieving the doubling goal for research 
funding in the current fiscal environment, we strongly believe a core 
component of a renewed America COMPETES Act--and one that will be 
essential for our support--must be to set funding targets that call for 
real and sustained growth in funding for the National Science 
Foundation (NSF), National Institutes of Standards and Technology 
(NIST), Department of Energy Office of Science, and the Advanced 
Research Projects Agency--Energy (ARPA-E).
    We stand ready to work with you to make the case to the public and 
other Members of Congress that the Federal government must close the 
innovation deficit by making robust investments in science and 
education if we are to remain the world's innovation leader and 
continue to reap the economic and national security benefits of such 
investments.
    Anything short of real and sustained growth in Federal science 
investments will take our country backward as other nations surge 
forward in their efforts to mimic America's success.
            Sincerely,

The Following Endorsing Organizations (as of October 9, 2013):

Aerospace Industries Association
Alaska SeaLife Center
Albany Area Chamber of Commerce
American Association for the Advancement of Science
American Astronomical Society
American Chemical Society
American Educational Research Association
American Geophysical Union
American Geosciences Institute
American Institute of Biological Sciences
American Institute of Physics
American Mathematical Society
American Physical Society
American Physiological Society
American Political Science Association
American Psychological Association
American Society for Engineering Education
American Society for Microbiology
American Society of Agronomy
American Society of Civil Engineers
American Society of Plant Biologists
American Sociological Association
American Statistical Association
Annis Water Resources Institute, Grand Valley State University
Arizona State University
Arizona Technology Council
ASME
Association for Psychological Science
Association for the Sciences of Limnology and Oceanography
Association for Women Geoscientists
Association for Women in Science
Association of American Geographers
Association of American Universities
Association of Environmental & Engineering Geologists
Association of Independent Research Institutes
Association of Population Centers
Association of Public and Land-grant Universities
Association of Research Libraries
ASTRA, the Alliance for Science & Technology Research in America
Auburn University
Battelle
Bay Area Science and Innovation Consortium--BASIC
Bigelow Laboratory for Ocean Sciences
Binghamton University, the State University of New York
Boise State
Boston University
Brown University
Business-Higher Education Forum
California State University, Fullerton
Carnegie Mellon University
Case Western Reserve University
Center for Coastal Marine Sciences, California Polytechnic State 
    University, San Luis Obispo
Center for Marine Science, University of North Carolina, Wilmington
Center for Policy on Emerging Technologies (C-PET)
Champaign County Economic Development Corporation
Chesapeake Biological Laboratory--University of Maryland Center for 
    Environmental Science
CleanTECH San Diego
Clemson University
Coalition for National Science Funding
Cognitive Science Society
Columbia University
Columbus Chamber of Commerce
CompTIA
Computing Research Association
Consortium for Ocean Leadership
Consortium of Social Science Associations
Consortium of Universities for the Advancement of Hydrologic Sciences, 
    Inc.
Council for Energy Research and Education Leaders
Council of Environmental Deans and Directors
Council of Graduate Schools
Council on Competitiveness
Council on Undergraduate Research
Cray, Inc.
Crop Science Society of America
Dauphin Island Sea Lab
Duke University
Ecological Society of America
Electrical Geodesics, Inc. (EGI)
The Electrochemical Society
Emory University
Energy Sciences Coalition
Federation of American Societies for Experimental Biology
Federation of Associations in Behavioral & Brain Sciences
Federation of Materials Societies
Florida Gulf Coast University Vester Marine Field Station
Florida Institute of Oceanography
Florida State University
Fox/Atkins Development LLC
Franz Theodore Stone Laboratory, The Ohio State University
Friday Harbor Laboratories, University of Washington
Fusion Power Associates
Geological Society of America
Georgia Institute of Technology
Georgia Research Alliance, Inc.
Georgia State University
Greater Bloomington Chamber of Commerce
Greater Boston Chamber of Commerce
Greater Durham Chamber of Commerce
Greater Merced Chamber of Commerce
Greater Pittsburgh Chamber of Commerce
Greater Providence Chamber of Commerce
Greater Raleigh Chamber of Commerce
Grice Marine Lab, College of Charleston
Harvard University
Hatfield Marine Science Center, Oregon State University
Hawaii Institute of Marine Biology, University of Hawaii
Hubbs-Sea World Research Institute
Human Factors and Ergonomics Society
Humboldt State University Marine Laboratory
IEEE-USA
Indiana University
Information Technology Industry Council
Institute of Marine and Coastal Sciences at Rutgers University
Institute of Marine Sciences, The University of North Carolina at 
    Chapel Hill
Intel Corporation
International Business Machines Corporation (IBM)
International Society for Developmental Psychology
Iowa State University
Johns Hopkins University
Kachemak Bay Marine Lab, University of Alaska Fairbanks
Kent State University
Kewalo Marine Laboratory, University of Hawaii at Manoa
Krell Institute
Large Lakes Observatory, University of Minnesota Duluth
Linguistic Society of America
Marine Biological Laboratory, Woods Hole, MA
Marine Sciences Center at the University of New England
Massachusetts Institute of Technology
Materials Research Society
Mathematical Association of America
Michigan State University
Michigan Technological University
Microsoft
Mississippi State University
Missouri University of Science and Technology
Moss Landing Marine Laboratories
Mote Marine Laboratory
Mount Desert Island Biological Laboratory
National Association of Colleges and Employers
National Association of Geoscience Teachers
National Association of Marine Laboratories
National Cave and Karst Research Institute
National Communication Association
National Council for Science and the Environment
National Ecological Observatory Network, Inc.
National Science Teachers Association
Natural Science Collections Alliance
New Mexico State University
NextEd
North American Commission on Stratigraphic Nomenclature (NACSN)
North Carolina State University
North Carolina State University, Center for Marine Sciences and 
    Technology
North Dakota State University
Northeastern University
Northern Illinois University
The Ohio State University
The Optical Society
Orange County Business Council
ORAU (Oak Ridge Associated Universities)
Oregon Entrepreneurs Network
Oregon Nanoscience and Microtechnologies Institute (ONAMI)
Oregon State University
Pace University
Paleontological Society
PARC, a Xerox Company
The Pennsylvania State University
Population Association of America
Portland Business Alliance
Portland State University
Prince William Sound Science Center
Princeton University
Procter & Gamble Company
Psychonomic Society
Purdue University
QB3
Rensselaer Polytechnic Institute
Rice University
Rochester Institute of Technology
Rutgers, The State University of New Jersey
Rutgers University Marine Field Station
Sacramento Metropolitan Chamber of Commerce
San Francisco State University, Romberg Tiburon Center for 
    Environmental Studies
Savannah State University
The Science Coalition
Seahorse Key Marine Laboratory, University of Florida
Seattle Metropolitan Chamber of Commerce
Seismological Society of America
Semiconductor Industry Association (SIA)
Semiconductor Research Corporation
Shoals Marine Laboratory
Silicon Valley Leadership Group
Skidaway Institute of Oceanography
Society for Industrial and Applied Mathematics
Society for Industrial and Organizational Psychology
Society for Neuroscience
Society for Personality and Social Psychology
Society of Economic Geologists
Society of Experimental Social Psychology
Society of Independent Professional Earth Scientists
Soil Science Society of America
South Dakota School of Mines & Technology
South Dakota State University
Southeastern Universities Research Association
Southern Arizona Leadership Council
SPIE, the international society for optics and photonics
Springfield Area Chamber of Commerce
SRI International
SSTI (State Science and Technology Institute)
Stanford University
The State University of New York
Stony Brook University
SupraSensor Technologies
Task Force on American Innovation
Technology Councils of North America (TECNA)
TechVoice
TechX
Texas A&M University
Texas Instruments
TRIDEC
Tucson Metro Chamber
Tufts University
Tulane University
UNAVCO
University at Buffalo
University of Alabama at Birmingham
University of Alaska Anchorage
University of Alaska, Fairbanks
University of Alaska, Southeast
University at Albany, State University of New York
University Corporation for Atmospheric Research
University of Arizona
University of Arkansas
University of California, Berkeley
University of California, Davis
University of California, Davis Bodega Marine Laboratory
University of California, Irvine
University of California, Los Angeles
University of California, Merced
University of California, Riverside
University of California, San Diego
University of California San Francisco
University of California, Santa Barbara
University of California, Santa Cruz
University of California System
University of Central Florida
University of Cincinnati
University of Colorado, Boulder
University of Connecticut
University of Delaware
University of Florida
University of Hawaii
University of Idaho
University of Illinois
University of Illinois at Chicago
University of Illinois at Urbana-Champaign
University of Iowa
University of Kansas
University of Kentucky
University of Maine
University of Maryland
University of Massachusetts Boston
University of Michigan
University of Minnesota
University of Missouri
University of Montana
University of Nebraska
University of Nevada, Las Vegas
University of Nevada, Reno
University of New Hampshire
University of New Hampshire Jackson Estuarine Laboratory
University of New Mexico
The University of North Carolina at Chapel Hill
University of North Carolina Wilmington
University of Notre Dame
University of Oklahoma
University of Oregon
University of Pennsylvania
University of Pittsburgh
University of Rochester
University of South Carolina
University of South Dakota
University of South Florida
University of Southern California
University of Tennessee
University of Tennessee, Knoxville
The University of Texas System
The University of Toledo
University of Vermont
University of Virginia
University of Washington
University of Wisconsin-Madison
University of Wisconsin-Milwaukee, School of Freshwater Sciences, Great 
    Lakes WATER Institute
University of Wyoming
Utah State University
Vaisala, Inc.
Valley Vision, Sacramento
Vanderbilt University
Van Fleet & Associates
Virginia Commonwealth University
Washington State University
Washington University in St. Louis
Wayne State University
West Virginia University
Western Michigan University
Whitney Lab for Marine Bioscience
Willamette Innovators Network
Women in Technology Tennessee
Woods Hole Oceanographic Institution
Wrigley Institute for Environmental Studies, University of Southern 
    California
Yale University

cc: Members of the Senate Committee on Commerce, Science, and 
    Transportation

Identical letters sent to:

        Members of the House Committee on Science, Space and Technology
        Members of the Senate Committee on Energy and Natural Resources
        Members of the Senate Committee on Health, Education, Labor, 
        and Pensions
                                 ______
                                 
                                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 

    Senator Alexander. Thank you.
    The Chairman. Thank you very much.
    We were instructed that there will be no questions. And----
    Senator Alexander. Well, you----
    The Chairman. Well, your presentation was so intimidating, 
I don't think you would have gotten any. Thank you, Senator 
Alexander, very much.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. I'll go back to the regular order here. We're 
here today to discuss one of the government's most visionary 
functions, the funding of basic scientific research. The 
question is, do we have the guts and the political will to so 
do? Everyone in the room may already be aware of this, but it's 
worth repeating that the Federal Government funds nearly one-
third of all research and development in the United States, and 
that includes 60 percent of all academic research.
    Federal funding of basic research, those studies that give 
us the building blocks for new technologies and industries is 
part of a pipeline that supports the U.S. economy and our 
global competitiveness.
    Now we know the results of basic research are inherently 
unpredictable. It's very hard to determine what investments 
will create the next economic miracle. But while the private 
sector sometimes avoids high-risk research that may only 
provide a return on investment over a very long period of time, 
the--or may provide little or no return, the government has, 
therefore, stepped into the breach.
    These Federal investments have allowed the best ideas to 
develop our knowledge of the world and to create billion-dollar 
industries. These investments led to GPS, as the Senator 
indicated; biotechnology; 3-D printing; and the Internet. They 
have supported multibillion-dollar companies that are global 
household names. They also continually support the creation of 
new businesses across the country, which the Science Coalition 
tracked in their latest report, Sparking Economic Growth, which 
is this, it's a little bit smaller than what Senator Alexander 
held up. I encourage you to read it.
    These investments continue to help train our science, 
technology, engineering, and mathematics workforce. And without 
these investments, we won't have the next generation of 
researchers; we won't have the next biotechnology industry; we 
won't have the next Internet. What we will have is a stagnant 
economy.
    Looking at the debate that we're having in Congress about 
funding the government, well, that's where we're headed. The 
reckless shutdown has eroded confidence in the United States as 
a steadfast supporter of science. Researchers at our world's 
leading labs were told to go home, including several Nobel 
Laureates and grants were delayed when 99 percent of the 
National Science Foundation was furloughed. Stunning.
    The shutdown was sudden, and it was harmful, yes; but the 
ongoing sequester is slowly but surely wearing away at the 
foundation of U.S. scientific research. The sequester got a 
little bit lost in the recent debates, et cetera, but the 
sequester is the long-term enemy. It's inexorable unless it 
gets eliminated.
    Sequestration's indiscriminate cuts are costing us very 
dearly. The National Science Foundation took a $356 million cut 
in the past Fiscal Year. And that number will continue to go 
down again under the continuing resolution. That means fewer 
grants, less support for young researchers, and even scientists 
moving their work abroad. It's only going to get worse if we 
don't fix the sequester and continue to invest in our world-
class scientists. It will just continue to get worse.
    Our competitors know that basic research is worth the 
investment. And while we constrain ourselves; they are spending 
more, and they are catching up. That's why instead of 
retreating in the face of competition, we passed the America 
COMPETES Act in 2007, and the reauthorization in 2010, with the 
direction to double the funding of the National Science 
Foundation, major research accounts at the National Institute 
of Standards and Technology, and the Department of Energy's 
Office of Science.
    I will again push for the reauthorization of this important 
piece of legislation. It may be the most important question we 
face in this committee. I yield to the distinguished Ranking 
Member.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, for holding the 
hearing today to evaluate scientific research and development 
and STEM education initiatives under the America COMPETES Act 
authorizations. And I, like you, was pleased to welcome Senator 
Alexander to today's hearing.
    It was a good opportunity to discuss the impact that R&D 
funding has on each of our states and on the U.S. economy 
overall. I believe it's important to remember our current 
budget realities and the need to set Federal funding priorities 
in scientific research and continue to improve coordination.
    And I know that Senator Alexander has worked closely 
alongside, you, Mr. Chairman, and former Ranking Member Kay 
Bailey Hutchison on the America COMPETES Act of 2007 and 2010. 
And we appreciate, again, his participation today to provide us 
with a history of those legislative efforts.
    The America COMPETES Acts of 2007 and 2010 have served as 
the authorizing vehicles for the National Science Foundation 
and the National Institute of Standard and Technology under our 
committee's jurisdiction, as well as for the Department of 
Energy, Office of Science.
    The NSF is the primary source of Federal funds, funding in 
fields such as mathematics and computer science. Researchers in 
my home State of South Dakota, as well as other states 
represented by members of the Committee, benefit from NSF's 
Experimental Program to Simulate Competitive Research, EPSCoR, 
a program that is aimed at avoiding undue concentration of 
research in certain States and improving R&D competitiveness 
and STEM education throughout the United States.
    Another agency of committee jurisdiction, NIST, carries out 
its mission of promoting U.S. innovation in industrial 
competitiveness by supporting research in fields such as 
engineering and information technology at NIST Laboratories in 
collaboration with private sector industry.
    The Committee has looked to NIST this year with particular 
interest on the issue of cybersecurity, passing a bipartisan 
bill earlier this year that would authorize NIST to facilitate 
the development of a voluntary set of standards and best 
practices to reduce cyber risk to critical infrastructure.
    And, as we will examine more closely next week when 
Secretary Pritzker is before us, NIST is also seeking to bridge 
the gap between cutting edge research and advanced 
manufacturing.
    DOE's Office of Science is the lead Federal agency 
supporting fundamental scientific research for energy and the 
largest Federal supporter of basic research in the physical 
sciences. DOE, along with NSF, has supported cutting-edge 
physics research at the world class Sanford Underground 
Research Facility in Lead, South Dakota.
    At SURF, as we refer to it, and as Dr. Perlmutter 
appreciates more than most, physics researchers are leading the 
Large Underground Xenon or LUX experiment a mile underground in 
the former Homestake Gold Mine in an effort to detect the 
existence of dark matter. Just last week researchers announced 
results from the experiment's first run, indicating that it is 
the most sensitive and capable dark matter detector in the 
world and making SURF scientists more likely to discover dark 
matter than anyone else.
    The LUX experiments and other experiments at SURF search 
for answers to some of our most fundamental science questions 
and present a significant opportunity for U.S. leadership in 
the area of physical sciences as prioritized by the earlier 
America COMPETES Acts.
    Federal support for basic research reflects a consensus 
that such research is the foundation for many innovations. Many 
have argued that closer cooperation among industry, government, 
and academia could further stimulate innovation, lead to new 
products and processes, and expand markets for U.S. businesses.
    Along these lines, while I appreciate the importance of 
foundational science and basic research, I also look forward to 
hearing from our witnesses today about ways to improve 
technology transfer and commercialization of federally funded 
research, as well as some of the successful discoveries 
stemming from Federal research dollars.
    Finally, I look forward to hearing from our witnesses about 
their ideas on how to improve STEM education, as well as their 
views on the challenges that affect our global competitiveness 
in the STEM professional fields.
    Mr. Chairman, thanks again for this hearing.
    I want to thank those that are going to be on our panels. 
And we look forward to hearing their insights. Thank you.
    The Chairman. Thank you, sir.
    So the second panel will come forward, please. That would 
be Dr. Kelvin Droegemeier. And he is Vice Chair--well, I'll 
introduce you--no. Have a seat. I'll introduce you just before 
you speak, OK?
    Dr. Droegemeier is Vice Chairman of the National Science 
Board and Vice President for Research, and a Regents' Professor 
of Meteorology at the University of Oklahoma.
    And if you are ready, sir, we will turn it over to you.

            STATEMENT OF DR. KELVIN K. DROEGEMEIER,

       VICE PRESIDENT FOR RESEARCH, REGENTS' PROFESSOR OF

          METEOROLOGY AND WEATHERNEWS CHAIR EMERITUS,

           UNIVERSITY OF OKLAHOMA, AND VICE CHAIRMAN,

                     NATIONAL SCIENCE BOARD

    Dr. Droegemeier. Thank you, Mr. Chairman.
    Good afternoon, distinguished members of the Committee.
    Ranking Member Thune, it's my great privilege to testify 
before you today.
    As you said, I am a member of the faculty at the University 
of Oklahoma and also the Vice Chairman of the National Science 
Board. And I will be testifying in capacity as Vice Chairman 
today.
    I just want to make three very brief points for you this 
afternoon. The first point is about basic research. And it's 
something that we perform as humans because of our innate 
desire to really understand the depths of the world in which we 
live. And it's really the DNA from which new innovations and 
technologies are created to fuel our economy.
    Basic research has created thousands of discoveries. And 
very much like DNA, it can be assembled, it can be put on hold 
for a while, it can be restructured, and it can be brought back 
and reworked to create a variety of literally thousands, 
literally tens of thousands of technologies from which we will 
derive direct benefit. Without basic research, we have no 
foundation upon which to build.
    My second point concerns something that Senator Alexander 
mentioned a moment ago, and that is that returns on basic 
research are often unpredictable and are often times very 
uncertain, and they take sometimes years to materialize. As a 
consequence, the Federal Government has a very important 
central role in supporting that research because it really is 
too risky for private companies that are looking to make their 
next quarter statement or the next half-year statement.
    And President Roosevelt's science advisor, Vannevar Bush, 
when he suggested the creation of the National Science 
Foundation understood this point, that the Federal Government 
really has to be out there on the bleeding edge of funding very 
creative endeavors, that may, in fact, as the Chairman 
mentioned a moment ago, really have no immediate practical 
benefits for society.
    The role of the National Science Foundation is quite unique 
because it is the only Federal agency that funds basic research 
across all disciplines of science and engineering, including 
the social, behavioral, and economic sciences. It also funds 
research infrastructure. It funds education and training of the 
next generation of scientists and engineers. And very 
importantly it supports activities that broaden the 
participation of traditionally underrepresented groups and it 
promotes partnerships in a variety of ways.
    Continuing that point, I want to point out that the impacts 
of basic research on our economy sometimes may be difficult to 
pin down, but they're unmistakable. And I tell you, Senator 
Alexander did such a beautiful job of describing that. And 
there are so many situations where we can point to these 
tremendous things that make our lives more efficient and make 
our Nation more secure.
    But there's one other point I want to bring out that I 
think is sometimes overlooked, and that is, basic research 
allows to us to prepare for the unexpected. 9/11 is a great 
example. Basic research really takes a very methodical approach 
to studying things, reproducing experiments to make sure the 
results are right. But when something like 9/11 happens, we 
don't have the luxury of time. We have to draw from our quiver 
of capabilities, pull them together very quickly, and start 
saving lives, protecting the war fighter, and protecting our 
country. That is what basic research allows us to do is be 
prepared for the unknown.
    My final point concerns the word competition. We talk about 
the American Competitive Act and the initiative. And what does 
it mean to be competitive? I'm from Oklahoma. We play a lot of 
football down there. We like to be competitive. And I can tell 
you in sports, if you want to win, you have to be competitive. 
You can't possibly win if you're not competitive.
    So in order for this Nation to be globally competitive, we 
have to be effective in our basic research. Many, many studies 
show, as Senator Alexander eloquently said, that we're losing 
our global competitiveness. And in fact, that was really why 
the other COMPETES Act was created.
    And I will end by just saying, and Senator Rockefeller, I 
know you understand EPSCoR quite well, and Senator Thune, as 
well; but we know how to be competitive in this Nation. And 
EPSCoR is a great example. It's called the Experimental Program 
to Stimulate Competitive Research. It began about 33 years ago. 
And its sole focus is to help states that are traditionally not 
competitive, for Federal funding and particularly at NSF, to 
develop their infrastructure, their capabilities so they can be 
competitive.
    And many of the states that have received EPSCoR funding 
have increased their competitiveness by nearly 50 percent, and 
that means they're becoming more competitive, they're 
contributing more to the science enterprise in this Nation. And 
we have lots of examples that I could cite to show you the very 
tremendous value of the EPSCoR program. And so I just want to 
say that we, as a nation, know to compete and there's perfect 
proof for that in EPSCoR.
    And finally, as Senator Alexander noted, this is a very 
challenging time for Federal budgets and for basic research, 
but truly if we lose sight of supporting this fundamental 
foundational activity that truly can trace back to all of the 
important activities and devices and resources that improve our 
quality of life, make our Nation safe, make us effective as a 
society; if we lose that foundation, then we have nothing truly 
upon which to build.
    So ultimately basic research allows us to control our 
destiny. And as the greatest nation on Earth, that's extremely 
important. On behalf of the National Science Board, I want to 
thank you for your incredibly strong and generous support of 
basic science, and for the National Science Foundation. We all 
look forward to continuing to work with you in this very 
productive relationship in our service to our Nation.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Droegemeier follows:]

  Prepared Statement of Dr. Kelvin K. Droegemeier, Vice President for 
   Research, Regents' Professor of Meteorology and Weathernews Chair 
Emeritus, University of Oklahoma; Vice Chairman, National Science Board
    I thank Chairman Rockefeller, Ranking Member Thune, and Members of 
the Committee for the privilege of testifying on the important role 
played by science and engineering research and education in our 
Nation's competitiveness. My name is Kelvin Droegemeier and I am Vice 
President for Research, Regents' Professor of Meteorology, and 
Weathernews Chair Emeritus at the University of Oklahoma. I also am a 
member of the National Science Board (NSB, Board), which establishes 
policy for the National Science Foundation (NSF) and serves as an 
independent body of advisors to both the President and Congress on 
matters related to science and engineering research and education. I am 
testifying today in my role as NSB Vice Chairman.
    On behalf of the Board, I thank the Members of this committee for 
their long-standing commitment to fostering national prosperity, 
economic security, quality education, and international competitiveness 
through support for basic research in science, technology, engineering 
and mathematics (STEM).
    An important component of this commitment has been the America 
COMPETES Act.
    Enacted in 2007 and reauthorized in 2010, the Act provided a 
framework for catalyzing research in areas of national priority and for 
coordinating Federal STEM education efforts. At NSF, the Act enabled 
continued investment in our Nation's scientific infrastructure, 
innovation in STEM education, and development of a portfolio of 
research investments that respond to current national challenges while 
laying the foundation for a robust scientific and technological 
enterprise into the mid-21st century. It also promoted excellence in 
scholarship via training in the responsible conduct of research, and 
the mentoring of post-doctoral researchers.
1. NSF and the Importance of Basic Research
    The idea for NSF arose in the wake of the Second World War. 
President Roosevelt, recognizing that wartime cooperation between the 
Federal Government and scientific community had contributed to the U.S. 
victory, asked his de facto science advisor, engineer Dr. Vannevar 
Bush, to develop a report describing how the Government could promote 
scientific progress in the postwar period. That report, Science--The 
Endless Frontier, called for the creation of NSF and stressed the 
essential role of the Federal Government in cultivating the Nation's 
``scientific talent'' and in funding basic research.
    Basic research, which represents structured inquiry motivated by 
the innate human desire to understand the fundamental behavior of the 
world in which we live, is the DNA from which new innovations and 
technologies arise to fuel our Nation's economy. That DNA, representing 
thousands of discoveries across all disciplines, can be assembled, 
refined, set aside for a time until other advances call upon it, and 
re-used in an almost infinite number of ways to produce outcomes that 
have profoundly positive benefits for society. Bush argued that 
investments in basic research were essential to American national 
security and competitiveness, and that same wise notion was the 
foundation of the COMPETES Act and is the principal reason NSF is 
featured prominently within it.
    NSF funds the highest quality projects having the potential to 
advance, if not transform, the frontiers of knowledge and advance 
societal goals. Two criteria, ``Intellectual Merit'' and ``Broader 
Impacts,'' shape the NSF merit review process, which is viewed as the 
gold standard worldwide. NSB recently re-examined these criteria to 
ensure that NSF maximizes the public's return on investment.
2. The U.S. Research and Innovation Ecosystem and NSF's Role in it
    Basic research, applied research, and development in the U.S. are 
dominated by development activities--78 percent of which are funded by 
the private sector. Private industry also is the largest source of 
funding for applied research. In this context, the Federal Government, 
and NSF in particular, play a critical, complementary role by 
supporting basic research, the majority of which is performed at our 
Nation's colleges and universities. Private industry relies on the new 
knowledge created by basic research to develop new and innovative 
products and services.
    Because the returns on investments in basic research are 
unpredictable and may take years, if not decades, to materialize, the 
private sector understandably invests relatively little money in it. 
Consequently, as noted by Vannevar Bush, the Federal Government has an 
essential role in supporting basic research. NSF's role in particular 
is unique because it is the only agency that funds basic research and 
education across all STEM disciplines (excluding clinical medical 
research) and (presently) at all levels of STEM education.
3. Samples of Economic and Societal Returns on Investment in Basic 
        Research
    For over 60 years, with the support of Congress, NSF has been 
funding basic research, enabling our Nation to become the undisputed 
world leader in science and technology. As noted previously, linking 
basic research outcomes to innovated products and services can be 
difficult because the path from the former to the latter is often 
indistinct, sometimes evolving over long periods of time and 
integrating elements from multiple disciplines and technologies. 
However, examples large and small abound and are important for 
demonstrating the value of basic research to, and the thoughtful 
investment of tax dollars toward achieving, national competitiveness. A 
few are provided below.

  <bullet> NSF-funded mathematicians have re-applied algorithms that 
        predict earthquake aftershocks and created a crime prediction 
        model. After police implemented the crime prediction model in 
        Los Angeles' Foothill precinct (300,000 residents), crime 
        decreased 12 percent relative to surrounding areas.

  <bullet> Almost 20,000 kidney transplants are conducted each year in 
        the U.S. Based on their knowledge of game theory and market 
        dynamics, NSF-funded economists developed an algorithm that 
        facilitates kidney matching for patients who have willing but 
        biologically incompatible donors. The number of transplants 
        performed through paired exchanges has risen dramatically: from 
        2 in 2000 to 443 in 2012.

  <bullet> Coronary artery disease, the major cause of heart attacks, 
        annually afflicts more than 700,000 Americans and costs the 
        Nation nearly $110 billion to treat annually. NSF-funded 
        researchers developed mathematical tools to better understand 
        and control interactions between arterial walls and blood flow. 
        Subsequently, scientists improved stents to help open narrowed 
        arteries and later formed a biotechnology company that is 
        publicly traded on NASDAQ and currently has a value of nearly 
        $950 million.

  <bullet> As part of its start-up funding, Qualcomm received a Small 
        Business Innovation Research award from NSF. Over 21,000 
        employees and 170 locations later, this company has forever 
        changed the face of digital wireless telecommunications 
        products and services. Qualcomm is now worth more than $100 
        billion.

    One often overlooked aspect of basic research is that it helps our 
Nation be prepared for the unexpected. When confronted with entirely 
new challenges, time often does not exist to conduct the thoughtful, 
intensive studies associated with basic research. Consequently, having 
research outcomes in hand is essential. Nowhere is this more evident 
than in current and rapidly evolving national security challenges, 
where results from previous basic research in image processing, 
electro-chemical sensing, and data mining have led to the rapid 
creation of field-deployed technologies for enhancing security in 
airports, better ensuring the safety of the war fighter, and fighting 
new generation cyber attacks.
    These and thousands of other examples--which show how basic 
research in science and engineering leads to practical benefits via 
innovation--directly impact the ability of the U.S. to be competitive 
in a global society: competitive economically, competitive in 
education, competitive technologically, and also secure. Consequently, 
by virtue of its unique mission, NSF funding of basic research 
continues to be central to U.S. competitiveness.
    Another important and easily overlooked aspect of basic research is 
the talent pool needed to perform it in our Nation's colleges and 
universities, and to innovate with its outcomes in the private sector. 
STEM education is the sine qua non for this workforce and is a 
foundational component of NSF's portfolio. Without it, and without 
efforts to ensure a diverse workforce that draws upon and reflects the 
increasingly diverse structure of our Nation, the competitiveness of 
the U.S. will suffer immeasurably.
4. Toward a Globally Competitive Nation
    What does it mean to be competitive? In sports, business, and the 
military, one cannot win unless one is competitive. The U.S. must be 
globally competitive in order to be a world leader--in research, 
technology, advanced manufacturing, educational attainment, private 
sector innovation, public-private partnerships, economic prosperity, 
and quality of life. Unfortunately, numerous metrics and studies show 
that the U.S. is rapidly losing its competitiveness.
    According to a 2012 report <SUP>i</SUP> by the U.S. Department of 
Commerce, the strengthening economies of several countries around the 
world are posing a competitive challenge for the U.S. The ability of 
the U.S. to create jobs has slipped, and it has made little progress in 
competitiveness during the past 2 decades, now ranking fourth in the 
world in innovation-based competitiveness. The preparation of U.S. 
students in math and science is notably problematic, with 17 
Organization for Economic Co-operation and Development (OECD) countries 
ranked above the U.S. Numerous equally sobering statistics exist and 
are readily available. NSF is vitally important in restoring U.S. 
competitiveness by building competitive capacity in many ways.
---------------------------------------------------------------------------
    \i\ U.S. Department of Commerce, 2012: The Competitiveness and 
Innovation Capacity of the United States. Available at http://
www.commerce.gov/sites/default/files/documents/2012/january/
competes_010511_0.pdf
---------------------------------------------------------------------------
    First, as noted previously and via a wide array of programs across 
all disciplines, NSF funds basic research at the frontiers of discovery 
and thus creates new knowledge--the DNA of innovation. Many of NSF's 
activities focus on areas of national priority and thus lie at the 
heart of national competitiveness. These include, at the present time, 
advanced manufacturing, robotics and cyber-physical systems, 
interdisciplinary research to enrich our understanding of the brain's 
neural networks, nanotechnology, STEM education, global change 
research, and cybersecurity research and development.
    Second, NSF funds the construction of modern research 
infrastructure that is critical to maintaining U.S. technological 
competitiveness. Through its Major Research Equipment and Facilities 
Construction (MREFC) account, NSF provides our Nation's scientists and 
engineers with the powerful, large, complex tools necessary to perform 
world-class research. This includes--but is not limited to--telescopes, 
supercomputing facilities, ships, airplanes, and large arrays of 
observing systems for long-term sampling of the planet below ground, at 
the surface and in the atmosphere. Other programs, such as Major 
Research Instrumentation (MRI), provide funding to colleges and 
universities to both develop and acquire large pieces of equipment for 
research and education, with the responsibility for long-term 
sustainability borne by the receiving institution.
    Third, NSF facilitates the education and training of the next 
generation of scientists and engineers (graduate and undergraduate 
students as well as post-doctoral researchers) by funding grants to 
support their research and training. Flagship programs such as the NSF 
Graduate Research Fellowship, which has produced several Nobel 
Laureates over the past 6 decades, are seminal to U.S. competitiveness 
and STEM workforce development. The longstanding NSF CAREER program, 
which funds early-career faculty, is critical for ensuring that the 
most outstanding new academic researchers get off to a strong start and 
begin making seminal contributions as soon as possible.
    Fourth, NSF supports numerous programs to broaden the participation 
of traditionally underrepresented populations in STEM fields. This is 
an extremely important challenge for U.S. competitiveness in light of 
rapidly shifting national demographics, as well as the substantial 
intellectual talent that goes untapped when underrepresented 
individuals either leave STEM fields or fail to select them to begin 
with. Although progress is being made, it is far slower than needed for 
the U.S. to amass a STEM talent pool to ensure future competitiveness.
    Fifth, NSF has undertaken efforts recently in partnership with the 
private sector, via its Innovation Corps (I-Corps) program, to play a 
direct role in the innovation process. Specifically, I-Corps is a set 
of activities and programs that prepare scientists and engineers to 
extend their focus beyond the laboratory and broadens the impact of 
select, NSF-funded, basic-research projects. Although knowledge gained 
from NSF-supported basic research frequently advances a particular 
field of science or engineering, some results also show immediate 
potential for broader applicability and impact in the commercial world. 
Such results may be translated through I-Corps into technologies with 
near-term benefits for the economy and society. Combining experience 
and guidance from established entrepreneurs with a targeted curriculum, 
I-Corps teaches grantees to identify valuable product opportunities 
that can emerge from academic research, and offers entrepreneurship 
training to student participants.
    And finally, NSF's Small Business Innovation Research (SBIR) 
program, as another example, provides seed money for high risk, high 
reward private sector ventures. NSF recently conferred an SBIR award 
that has the potential to lead to widespread recycling of the 
wastewater produced in the process of natural gas extraction known as 
``fracking.''
5. The Experimental Program to Stimulate Competitive Research (EPSCoR): 
        A National Role Model for Capacity-Building and Enhancing 
        Competitiveness
    NSF is mandated by statute to ensure that all geographic regions in 
the U.S. contribute to science and engineering research and education 
via NSF support, and as a consequence play a meaningful role in U.S. 
competitiveness. A program foundational to achieving this goal is the 
Experimental Program to Stimulate Competitive Research (EPSCoR), which 
provides research capacity-building funding, based upon competitively-
reviewed proposals, to states (formally known as jurisdictions) which 
historically have received comparatively small percentages of NSF 
support. At the present time, 31 jurisdictions are eligible for NSF 
support, and other agencies, including the National Aeronautics and 
Space Administration (NASA) and Department of Energy (DOE), have EPSCoR 
programs.
    The current NSF budget for EPSCoR is approximately $160 million per 
year and is directed to a variety of programs designed specifically to 
build research capacity. The flagship program, known as Research 
Infrastructure Improvement (RII, Track-1), provides up to $20 million 
for 5 years to support areas of strategic research importance for 
jurisdictions based upon their state science and technology plans, most 
commonly in alignment with national research priorities. Multi-
jurisdictional activities are becoming more common as a means for 
leveraging capability for addressing larger, more complex challenges. 
Additional leveraging occurs via mandated cost sharing from the 
jurisdictions themselves.
    Since the program's inception in 1980, competitiveness of EPSCoR 
jurisdictions (which entered the program in four cohorts) has increased 
by as much as 41 percent. Topics addressed range from bioinformatics 
and climate adaptation to nanotechnology and STEM education. EPSCoR 
funding also builds capacity in cyberinfrastructure in ways 
strategically aligned with national research and education priorities.
    In addition to building capacity for basic research, EPSCoR plays 
an important role in economic development. As one of many examples, in 
my own state of Oklahoma, EPSCoR funding helped support one of the 
first NSF Science and Technology Centers in 1989, which I directed at 
the University of Oklahoma. This center pioneered a new science of 
computer-based prediction of thunderstorms, leading to the founding of 
a private weather technology company that now employs more than 80 
people. Outcomes from this research are being transitioned into 
operations within the U.S. National Weather Service and hold promise 
for increasing the lead time for tornado warnings from 15 minutes to 
over an hour.
    Additionally in Oklahoma, nanotechnology research funded by NSF 
EPSCoR played a role in the creation of a private engineering company 
that established the national standard (National Institute for 
Standards and Technology--NIST) for purity of single-walled carbon 
nanotubes--an essential element in hundreds of products. More than 20 
nanotechnology companies are now located in Oklahoma, catalyzed in part 
by the EPSCoR investment. Additionally, more than 12,000 K-12 students, 
1,800 teachers, 7,000 university students, 2,000 university faculty, 
and 59 businesses in Oklahoma have been served directly by EPSCoR 
education and outreach programs during the past five years.
    Similar examples can be found for other EPSCoR jurisdictions. In 
Montana, substantial growth in academic research programs is credited 
with increasing the number of high technology companies from 17 to 175. 
In Idaho, it is estimated that every Federal dollar invested in EPSCoR 
programs has yielded $18 to the local economy. In Louisiana, nearly 22 
percent of students supported by EPSCoR have come from underrepresented 
groups. And in Wyoming, research investments by EPSCoR helped position 
the state to host a major supercomputing center for the National Center 
for Atmospheric Research, which is catalyzing new research, education 
and technology development activities across the entire region.
6. Summary and Closing Thoughts
    More than 60 years after its establishment, NSF remains a crucial 
component in the engine of U.S. innovation, competitiveness, and 
security. The agency's work is more vital than ever because science now 
has bearing on almost every aspect of our lives, from national security 
and global economic competitiveness to our health, quality of life and 
future workforce needs. NSF-sponsored research continues to open new 
frontiers by balancing NSF's longstanding ``grass roots'' vision of 
science with an agency-wide commitment to fund research addressing 
national priorities.
    NSF's work in STEM education remains vital to ensuring that 
America's students, workers, and scientists remain competitive in the 
globally connected world. Although the context in which NSF operates 
today differs markedly from the post-World War II and Cold War worlds 
out of which it arose, the necessity of Government support for basic 
scientific research, for research infrastructure, and for educating the 
next generation of researchers remains as true today as in 1950. Then 
as now, basic research catalyzes the scientific and technological 
ecosystem. Then, as now, neither industry nor academia alone could make 
sufficient investments in basic science to sustain national 
competitiveness and security.
    This is a difficult time for Federal budgets and for individuals in 
the academic, nonprofit and public sectors who rely on Federal support. 
Investments in science and technology compete with a host of other 
legitimate funding priorities. As other countries emulate our success 
by building their innovation infrastructures, we must be vigilant in 
sustaining our own innovative capacity. NSF remains committed to making 
the hard decisions needed to ensure that its portfolio obtains the 
greatest return on investment and maximizes the benefits of taxpayer 
support.
    On behalf of the National Science Board, I thank you for your 
support of the National Science Foundation. We look forward to 
continuing our productive working relationship with you in service to 
the Nation.

    The Chairman. Thank you, sir.
    Might I just suggest to staff that are present that it 
would be really kind of nice if we had more members here.
    [Laughter.]
    The Chairman. And therefore, please go to work on that. I 
can't command one side, but I can command the other side.
    [Laughter.]
    Senator Coats. And I was just getting ready to leave.
    The Chairman. I know. I caught you, Dan.
    Senator Coats. I----
    The Chairman. I caught you.
    Senator Coats.--feel very guilty, but----
    The Chairman. Yes.
    Senator Coats.--I do have a----
    The Chairman. Well, you're a special person, so----
    [Laughter.]
    The Chairman. But I did embarrass him, didn't I? Just a 
bit.
    All right. Now Dr. Saul Perlmutter, who is a Professor of 
Physics at the University of California at Berkeley, a Senior 
Scientist at the Lawrence Berkeley National Laboratory, and a 
2011 Nobel Laureate in physics.
    Welcome, sir, we're honored by your presence.

    STATEMENT OF DR. SAUL PERLMUTTER, PROFESSOR OF PHYSICS, 
UNIVERSITY OF CALIFORNIA, BERKELEY; SENIOR SCIENTIST, LAWRENCE 
                  BERKELEY NATIONAL LABORATORY

    Dr. Perlmutter. Thank you.
    All right, Chairman Rockefeller, Ranking Member Thune, and 
distinguished members of the Committee, thank you for inviting 
me today.
    I thought it might be helpful to begin with a few words 
about the science I've been involved in since it provides a 
good example for many of the issues that this committee is 
addressing. Initially we set out to measure how much gravity 
was slowing the expansion of the universe. And after 10 years 
of hard work, we made a surprising discovery, the expansion of 
the university isn't slowing down at all, it's actually 
speeding up, the universe is expanding faster and faster and we 
have no idea why.
    This mystery has grabbed the attention of scientists around 
the world, attracted new students to science, and triggered a 
tidal wave of scientific creativity with new theories, new 
technological inventions, and new computing methods, and of 
course it also ended up winning a Nobel Prize.
    Is the accelerating expansion of the universe due to some 
previously unknown energy, we call it dark energy, that 
dominates the stuff of the universe; or alternatively, maybe we 
need to revise Einstein's theory of general relativity, his 
theory of gravity? This is clearly exciting science, but why 
should the government support such basic research? What's in it 
for the taxpayer?
    First, it's exactly these sorts of exciting questions that 
attract the next generation to study science, engineering, and 
mathematics and then to go on to careers that use these skills 
in business and government and in academia.
    Second, the challenges of basic science, which appeal to 
the--to a universal human curiosity, end up somehow almost 
magically being the source of our remarkable technological 
capabilities and then our economic strength.
    For example, I mentioned the close connection between our 
surprising discovery and Einstein's theory of general 
relativity. What could be more arcane, less practical sounding 
than Einstein's theory? It deals with behavior of clocks 
traveling near the speed of light. And yet if you've ever tried 
to find your location with the iPhone in your pocket, you've 
relied on Einstein's theory. Without this basic science, the 
GPS locator on your flight into Reagan National Airport would 
miss the runway.
    So I have no idea today what an understanding of the 
accelerating universe and dark energy will allow us to do, but 
Einstein could never have guessed that his theory would power 
this technology or the million-dollar GPS industry.
    Third, the dividends from fundamental science benefit 
society at large and cannot be directed in advance to fulfill a 
particular commercial need. So, as was just mentioned, this is 
not a job for private investors. These investments are exactly 
the kind that the government is needed for.
    Finally, my own work would never have happened without past 
investments by the U.S. Government. My early research was 
kicked off with NSF support. It never could have lasted those 
10 years without the unique capabilities of a national 
laboratory and the patient support of the Department of Energy, 
which funds that lab. And in the end it depended on the space-
based capabilities of NASA and its Hubble Space Telescope.
    Our project then succeeded because there was a stable and 
robust network of agencies supporting fundamental research, an 
ecosystem of innovation. This is why the U.S. has dominated the 
Nobel Prizes and built a flourishing technologically-advanced 
economy.
    How do we ensure the health of this fundamental science 
ecosystem so that it will drive the economic success for the 
next generation? How do we make it possible for a young 
scientist starting out today with a project like mine to make 
her Nobel Prize-winning discovery?
    I'm concerned that if I were that scientist starting my 
project today, it wouldn't have happened. The trend lines in 
the U.S. for all fields of sciences are disturbing. Already our 
lack of investment in particle physics has moved its center of 
gravity to Europe. It's beginning to happen in my field of dark 
energy, as well, a field in which the Nation currently leads 
the world.
    For the first time I have seen post-doctoral students 
choose positions abroad rather than the U.S. because they saw 
the future there. We live in times of breathtaking scientific 
opportunities, but America must stay in the game. We must 
invest again in the sciences and the basic sciences with the 
enthusiasm that we did before if we are going to stay 
competitive with Europe, China and Japan and the rest of the 
world, who are now redoubling their effort to build the 
scientific infrastructure they saw make us so successful.
    Such basic science is the root to another prosperous 
century and a community of science and scientists that are 
ready to handle the challenges of that century.
    Thank you.
    [The prepared statement of Dr. Perlmutter follows:]

   Prepared Statement of Dr. Saul Perlmutter, Professor of Physics, 
University of California, Berkeley; Senior Scientist, Lawrence Berkeley 
                          National Laboratory
    Chairman Rockefeller, Ranking Member Thune and distinguished 
Members of the Committee, thank you for the opportunity to testify 
before you today about the importance of science to our Nation and to 
the world. I am honored by the invitation and hope that my testimony 
may be helpful to you and your staff as you draft important legislation 
and make critical funding decisions that help to ensure the United 
States of America's scientific leadership. I believe that without 
scientific leadership, we will lose our leadership in technology and 
innovation. Without technological leadership, our economic and national 
security will be fundamentally weakened.
    My name is Saul Perlmutter and I am a senior scientist at the 
Department of Energy Office of Science's Lawrence Berkeley National 
Laboratory and a Professor of Physics at the University of California, 
Berkeley. I am testifying today as a private citizen and not on behalf 
of Berkeley Lab or the University. My testimony today will explore 
these important issues:

  1.  Why curiosity-driven science is important and why we should care.

  2.  Why the whole of the United States' science enterprise--
        consisting of an interdependent ecosystem of agencies, 
        universities, national laboratories and industry--is greater 
        than the sum of its parts.

  3.  Why waning Federal support for curiosity-driven science is 
        stagnating our science enterprise and weakening the Nation's 
        innovation foundation--immediately threatening our 
        international economic competitiveness and the prospects of a 
        more peaceful and productive world.
Why curiosity-driven science is important
    In 2011, I was awarded, along with two other scientists, the Nobel 
Prize in Physics for the discovery that the universe is expanding at an 
accelerating rate. This discovery came as a huge surprise to me, to my 
team and to the entire physics world. We had anticipated one of two 
outcomes: either the expansion would be slowing down, but still 
expanding forever; or that the universe was slowing so much that 
someday it would come to a halt, and then, collapse in on itself--both 
options due to the force of gravity.
    Since our discovery in 1998, thousands of theories have been 
published that attempt to explain this extraordinary phenomenon. The 
most widely discussed idea is that an unknown energy fills all empty 
space and counteracts gravity's pull enough to fuel the universe's 
accelerating expansion. Scientists and the scientific media have dubbed 
this unknown entity ``dark energy''--``dark'' only to signify that we 
don't know what it is--and estimate that it makes up almost three 
quarters of the ``stuff'' of the universe. This is a remarkable 
prospect that begs further exploration--what is this stuff that makes 
up the majority of our universe.
    Although the concept of ``dark energy'' is mindboggling, it would 
be even more earthshattering if the accelerating expansion is caused 
instead by a flaw in the laws of gravity, which were originally set 
down by Newton, and perfected by Einstein in his Theory of General 
Relativity. Gravity and its properties are considered well understood--
down to many digits of certainty. Scientific and engineering 
understanding of gravity made the industrial revolution possible and 
ushered in the modern era. What if our current understanding is simply 
the first step in a much bigger and more complex theory?
    Either way, scientists are energized to explore this cosmic 
mystery. These are questions that we must tackle. Curiosity drove our 
initial research and experiments--today, curiosity drives us to ask new 
questions and design new experiments to explore this cosmic riddle.
    Why should the Federal Government fund this type of curiosity-
driven research? It's not just because it is exciting, although it is. 
It's not just because this is exactly the type of science that attracts 
young people to science and engineering careers, although it is that 
too. It is primarily because, by broadening our base of knowledge and 
deepening our understanding of the world, we will provide our children 
with brighter, more peaceful futures, with more rewarding jobs, and 
longer lives. In a nutshell, scientific knowledge gives us the power to 
secure a better future.
    I have no idea what the discovery of an accelerating universe will 
mean to the health of our economy and our ability to build a better and 
more peaceful world. Certainly, building experiments and tools, as we 
did, to measure our universe with greater and greater fidelity and 
efficiency has led to new and productive technologies, such as more 
sensitive CCD detectors that are now being used in health care. These 
spin-off technologies produce jobs and create economic activity. But, 
even more importantly, no one can credibly claim to know what wide-
ranging benefits the discovery will ultimately have on society.
    Pursuit of curiosity-driven science is not a luxury--it is the 
foundation of how real progress and societal advancement is made. Grand 
challenges that face our Nation and world require more than 
incremental, marginal solutions. Short-term, near-horizon research and 
development, also referred to as applied research, will not by itself 
lead to transformational advances. Applied research is certainly 
critical for moving solutions forward, but transformational leaps in 
technologies and in answers to tough problems don't happen without new 
discoveries that come from curiosity-driven science.
    So although I don't know how my team's scientific accomplishments 
will affect society broadly, I do know that big discoveries make us 
stronger and more capable. I do know that the laser would not have been 
invented if your goal were to build a laser printer or perform laser 
surgery. The need for global positioning systems would not have spawned 
Einstein's Theory of General Relativity--a theory so apparently 
esoteric that it addresses questions such as ``what happens to clocks 
traveling through space at speeds approaching the speed of light.'' I 
do know that quantum mechanics, the theory of how matter and energy 
behave at the atomic and subatomic levels, would not have been 
developed if you were building a medical imaging device or the iPhone. 
But, without the curiosity-driven science that led to the theory of 
quantum physics, we would not have MRIs, electron microscopes or the 
transistor, an invention underpinning the information technology world 
in which we now live.
    I am certain that the discovery in 1998 of the accelerating 
expansion of the universe has and will make us a stronger nation and 
help to build a better and more peaceful world. But a discovery like 
this was not an easy task.
    Our research began as a three-year project. Our energy level was 
high and our expectations were even higher. Ten long years later we 
finally presented the results that showed our universe was expanding at 
an accelerating rate. Our results and those of another research team 
sent the worldwide physics community reeling. We knew that it was a 
tough problem. We knew we had to invent brand new technologies that 
would help find the standard candles, a certain type of exploding star, 
a supernova, needed to make our measurements and plot our points. We 
knew this sort of experiment and analysis had never been done before. 
We didn't know it would take us as long as it did.
    Fortunately we did not have the pressures placed on companies by 
vigilant investors eager for short-term returns. My team and I were 
researchers at a Department of Energy Office of Science national 
laboratory. There we were given the time, space and resources required 
to accomplish our mission and were supported by a commitment to world-
class, leading-edge science.
    Although it is a surprise to most people, DOE's Office of Science 
is the Nation's largest funder of the physical sciences--including the 
field of physics. The national laboratory provided me a supportive and 
uniquely well-suited place to conduct my research. The Office of 
Science, supported by the Federal Government, with a strong and 
unwavering commitment to world-leading science, has the patience, 
resources and institutions needed to consistently deliver 
groundbreaking scientific and technological advances--the type of 
advances that win Nobel Prizes and create new knowledge that leapfrogs 
current understanding.
Why the whole of the United States scientific enterprise is greater 
        than the sum of its parts
    My research is primarily supported by the DOE Office of Science, 
but from the beginnings of my graduate and postdoctoral education and 
training through today, I am most certainly a product of the Federal 
Government's investment in a wide range of agencies, research programs, 
universities and facilities. As an early career scientist, I received 
funding from the National Science Foundation for research at the Center 
for Particle Astrophysics at Berkeley. This early funding helped to 
hone my skills as a researcher, prepared me for a successful science 
career, and initiated my research. Likewise, funding from NASA has 
supported work throughout my tenure as a scientist by providing 
valuable time on the Hubble Space Telescope and NASA grants for 
research. Collaborations with universities, industry, and other 
national laboratories have been a constant and critical part of my 
research career. In other words, it may not take a village, but it does 
take an ecosystem to advance scientific and innovation progress.
    As illustrated by my career, the Nation's science and innovation 
enterprise is underpinned by this complex ecosystem of people, ideas 
and tools. This scientific infrastructure, until recently, has been 
unmatched and has been the envy of the world. It grew out of a post-
World War II commitment made by the Federal Government to support basic 
scientific research conducted at U.S. universities and national 
laboratories.
    Our nation has never had a comprehensive science strategy. From 
time to time we marshal our scientific resources and talents to focus 
intently on certain large problems and opportunities, such as the 
Manhattan Project, the Race to Space and the Human Genome Project. But 
by and large, the development of our innovation enterprise has been an 
organic one, fueled by an entrepreneurial American spirit that embraces 
progress and always seeks to improve society by new knowledge and 
understanding.
    People like Ernest Orlando Lawrence, the inventor of the cyclotron 
and the founder of Lawrence Berkeley National Laboratory, begged, 
borrowed, and otherwise obtained the resources needed to move science 
forward. In Lawrence's case he established a laboratory in 1931 on the 
campus of the University of California, Berkeley, that today is an 
international leader in basic science and energy technology 
development. Individuals like Lawrence, Fermi, Oppenheimer, and others, 
pushed the boundaries of knowledge and physics to aid in the Allied 
effort to defeat Nazism--in the process building the infrastructure and 
intellectual capacity that would lead to the national laboratory 
system. Other scientific, policy and political leaders worked 
tirelessly to establish the National Science Foundation and set its 
course as one of the greatest scientific grant-making organizations in 
the world. Miraculously, or serendipitously, these scientific 
initiatives, now agencies, and others, such as NASA, DARPA, NIST and 
NIH, have developed collectively into a powerhouse ecosystem of 
innovation. The results have been spectacular. A basic, but telling, 
metric is that of all the Nobel Prizes awarded in the sciences, 
medicine and economics, 48 percent of the winners have been from the 
United States.
    As in a natural ecosystem, each component of our research and 
development enterprise has a role to play--contributing to its vitality 
and sustainability. For example, it is widely accepted that health 
research conducted by the NIH is very important. Each of us has a 
personal story about how advances in medicine and health care have 
touched our lives, our families and our friends. However, without 
discoveries in the physical sciences--such as in physics and 
chemistry--many of the breakthroughs and leapfrog advances in health 
care will not take place. Better understanding of materials and 
organisms at the most fundamental atomic and molecular levels leads to 
new discoveries that find their way into new medicines and treatments. 
Unfortunately, this linkage and the symbiotic nature of our scientific 
enterprise is not obvious and certainly not mainstream knowledge. So, 
please indulge me as I take a moment to describe the roles of various 
participants in the Nation's innovation ecosystem. This description is 
not all-inclusive, but hopefully will provide a better sense of its 
nature and structure.
Universities
    From the very beginning of our national history, universities have 
been centers of scientific inquiry and technology advancement. 
Referring to the 1862 founding of West Virginia University, a local 
paper wrote, ``a place more eligible for the quiet and successful 
pursuit of science . . . is nowhere to be found.'' E.O. Lawrence, 
inventor of the cyclotron and founder of Berkeley Lab, graduated from 
the University of South Dakota in 1922--his grounding in the sciences 
there laid the foundation for remarkable contributions to science and 
society. Universities educate and train future scientists and 
engineers, like Lawrence, and host research in an open and encouraging 
environment.
    Universities are the great scientific hot houses that provide 
fertile ground for scientific collaboration and exploration. Science is 
typically an intimate endeavor at universities with principal 
investigators working side by side with their team of students and 
postdoctoral colleagues, conducting cutting edge research with new 
ideas and great enthusiasm. It is an environment of opportunity and 
passion that is very hard to replicate and generally unique to the 
university setting. The NSF, NIH, DOE's Office of Science and other 
grant making agencies fund the best and brightest at our universities 
to conduct the most compelling research--research that neither 
industry, nor any other institution would have the means or will to 
fund.
National Laboratories
    DOE's national laboratories, spawned from the Manhattan project and 
subsequently home to large teams of scientists and scientific 
resources, build and maintain unique, large-scale and world-leading 
research tools that are utilized broadly by university and industrial 
researchers. These tools, such as the Advanced Light Source at Berkeley 
Lab, the Spallation Neutron Source at Oak Ridge, and the Center for 
Nanoscale Materials at Argonne--over 30 facilities in total throughout 
the DOE complex--provide tens of thousands of American researchers 
access to critical scientific capabilities that help them to maintain 
the Nation's scientific leadership. These researchers come from both 
academia and industry; are funded by a host of Federal agencies, 
philanthropic organizations and companies; and come from every state in 
the union.
    National laboratories, from their inception, have assembled and 
nurtured multi-disciplinary teams of scientific experts to meet Federal 
needs and address national R&D priorities and challenges of scale. With 
a more focused and flexible organizational system than universities, 
national laboratories can more easily adjust to concentrate 
intellectual and capital resources on Federal mission needs and 
scientific advancement.
    As mentioned previously, my research requires a broad team of 
astrophysicists, engineers, students, postdocs and others to accomplish 
its goals. These collaborations often include researchers from dozens 
of universities, other national laboratories and industry partners. Our 
accomplishments would not have been possible without this team approach 
and a national laboratory as the organizing and supporting institution.
Industry
    Unfortunately, the days of the big industrial basic science 
laboratory are over. As the Department of Commerce's January 2012 
report on ``The Competitiveness and Innovative Capacity of the United 
States'' expounded upon, investments in basic, curiosity-driven science 
don't pay out directly for commercial investors, whereas the returns 
for society are eventually large. Even so, industry still plays a 
different but important role in the innovation ecosystem.
    Industry delivers technological advances to the marketplace and to 
society by making strategic, early investments in new technology. 
Businesses rely on scientific and engineering talent produced by 
universities and trained at national laboratories to meet their 
workforce needs and remain globally competitive. Through in-house 
applied research and by harnessing scientific advances and technology 
developed at universities and national laboratories, industry drives 
commerce and innovation. And, finally, researchers from industry 
utilize the unique scientific tools of the national laboratories to 
move technologies to the marketplace.
Why economic and national security are threatened by waning support for 
        science
    As a Nobel Laureate, I am constantly invited to events to launch 
new scientific initiatives and inaugurate or review new research 
programs. Unfortunately, the majority of these invitations are coming 
from other countries--China, South Korea, Germany, France, Saudi 
Arabia, Switzerland, etc.--not from the U.S. Although my experience is 
certainly anecdotal, the implications are backed up by real data. The 
data clearly shows how other nations are increasing their investments 
in basic science, unlike in the U.S. where support for and forward 
movement on basic science appears to be stagnating. Data supporting 
this may be found at http://www.nsf.gov/statistics/seind12/c0/c0i.htm 
and attached to this testimony.
    My field of physics and astrophysics offers a cautionary tale about 
the effects of scientific stagnation on innovation leadership. With the 
demise of U.S. plans to build the Superconducting Super Collider in the 
1993, and the corresponding rise of European leadership to build the 
Large Hadron Collider at CERN, the center of gravity for particle 
physics at the energy frontier moved from America to Europe. Now, 
instead of doing their research on American soil, U.S. science 
students, postdocs and early career scientists who study the Higgs 
boson and other high-energy particles are cutting their teeth in 
Europe.
    Fortunately, in some physics fields, such as my field of study, 
astrophysics and cosmology--the study of the cosmos--the United States 
still maintains scientific leadership. But, that leadership, too, is 
threatened. Since shortly after the discovery of dark energy, my 
colleagues and I, and other research teams around the country, have 
proposed follow-up experiments, both large and small, in space and 
ground-based, to study dark energy with greater precision. Even with 
high rankings from agencies and the scientific community for each of 
these proposed experiments, interagency gridlock and now ``no new 
starts'' have left them in a state of almost suspended animation. 
Meanwhile the European Space Agency is moving ahead with plans to 
launch their own dark energy space mission, called Euclid, as early as 
2020--seizing leadership in dark energy research. Research thrives on 
competition; we need to compete, not forfeit.
    Some will argue that during periods of constrained budgets all 
Federal investments must be curtailed, cut back and reduced. 
Admittedly, there are always opportunities to find efficiencies and 
reduce costs. But, scrimping on science and holding up scientific 
progress, for whatever reason, is penny wise and pound foolish. Even in 
tough economic times and tight budgets it is possible to spend money 
wisely and make the investments necessary to reap a brighter future. 
The economic argument, though perhaps not immediately obvious to some, 
is singularly compelling. Yet, there is a broader and perhaps more 
important argument to be examined. Scientific advancement has made the 
world a better place--living standards are rising across the planet, 
fewer people are hungry and life spans are increasing. Science paves 
the way for a more peaceful and productive existence.
    Yet, when trouble arises somewhere around the world or at home, 
whether natural or manmade, we must be prepared. Our response to 
natural and manmade disasters of the future will require sophisticated 
technologies yet invented. Threats may include comets or asteroids 
crashing to earth, volcanoes darkening the planet's skies and, of 
course, the scourge of war. Today our Nation has a strong base of 
innovation and technological leadership because we have funded and 
nurtured the best curiosity-driven science portfolio the world has ever 
known. If we don't continue to nurture curiosity-driven science, will 
we have the capacity to meet the threats of the future--say in twenty 
or thirty years? If we lose our scientific leadership, we weaken our 
true national security. It is that simple.
    Even if faced with tough budgets, science cannot stand still. By 
its very nature it is new and ever changing, and requires consistent 
and continuous forward movement. ``No new starts'' means not doing 
science. It means losing the U.S.'s role as a light and leader for the 
world. It means not attracting and educating the next generation of 
scientists. It means not being ready for future challenges. Science is 
the act of discovery. It is not science if it sits still.
Conclusion
    With the current fixation on short time lines and near horizons, I 
doubt that my team's Nobel Prize winning research would be funded 
today. How many young scientists with Nobel Prize quality ideas and 
ambitions are not being funded today in the United States? How many are 
now doing or will do their research in other countries, winning for 
them the gold of the Prize, but also the economic potential of their 
discoveries? America set the bar high in its support of science and 
technology development. Other countries, admirably, are ramping up 
their innovation engines and in many ways are attempting to emulate our 
successes. Although we should applaud these efforts, we cannot afford 
to be complacent and let other countries pass us by. We must stay in 
the race and compete. Regardless of when and where the mystery of 
``dark energy'' is uncovered it will be a tremendous accomplishment for 
the world. Yet, from my perspective, as a United States scientist and 
teacher, I hope that we make these advances here, at home and thereby 
contribute to humanity's progress.
    In closing, the U.S. innovation ecosystem is one of our most 
precious assets--indeed, one of the world's most precious assets. The 
Federal Government has a fundamental responsibility to keep this 
ecosystem healthy because it gives the Nation a powerful competitive 
edge, providing solutions to major national challenges and fueling 
economic growth, and because it continues to make the world a better 
place. Universities and laboratories have a responsibility to conduct 
first-rate research on key scientific and technological problems with 
intellectual rigor and efficient use of resources. Working together, we 
strive to transfer the results of this research to markets and people 
around the world for the benefit of society as a whole.
    Thank you for the opportunity to testify at this important hearing. 
I am happy to answer any questions that you may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The latest OECD estimates on Gross Expenditures on R&D (GERD) 
confirm that the modest recovery initiated in 2010 continued into 2011.
    For the whole OECD area, total R&D expenditures grew in real terms 
by 1.3 percent in 2010, mainly driven by the higher education and 
government sectors, while business R&D only increased by 0.6 percent.
    OECD estimates indicate an overall real growth rate for GERD of 2.1 
percent in 2011 driven by a gradual recovery in business R&D (2.8 
percent) and sustained growth in research in the higher education 
sector (2.5 percent), despite a reduction in government R&D (-1.2 
percent).
    In the EU area, total GERD grew by 3.2 percent in 2011, driven by 
the business sector (4.2 percent), mainly Germany's (6.4 percent). In 
contrast, U.S. R&D fell by 0.5 percent in real terms, with growth in 
higher education offset by lower government and business R&D. After a 
2.5 percent drop in 2010, U.S. business R&D (BERD) declined by a 
further 0.4 percent in 2011.
    GERD in China continued to growth at a rapid pace (14.1 percent), 
mainly driven by business R&D which in 2011 reached more than half the 
level of U.S. BERD, and 81 percent of EU BERD.

Main Science and Technology Indicators (MSTI) 2013/1

Last update: 16 July 2013

Direct link to the MSTI dataset in OECD.stat

Short address for this page: www.oecd.org/sti/msti

    The Chairman. Thank you, sir, very, very much.
    Dr. Maria Klawe.
    Dr. Klawe. Klawe. Well done.
    [Laughter.]
    The Chairman. Well, I had a little phonetic help here.
    [Laughter.]
    Dr. Klawe. Thank you, gentlemen.
    The Chairman. You know what, I have to say who you are.
    Dr. Klawe. Oh.
    [Laughter.]
    The Chairman. Not only are you the President of Harvey Mudd 
College, in fact, you are the first woman to lead the college 
in its almost 60 years of history.
    So we welcome you.
    [Laughter.]

          STATEMENT OF DR. MARIA M. KLAWE, PRESIDENT, 
                      HARVEY MUDD COLLEGE

    Dr. Klawe. Thank you very much.
    Chairman Rockefeller, Ranking Member Senator Thune----
    How about now?
    The Chairman. Yes.
    Dr. Klawe. All right. I'm off to a great start.
    [Laughter.]
    Dr. Klawe. Chairman Rockefeller, Ranking Member Senator 
Thune, distinguished members of the Committee, it's really a 
pleasure to be here.
    I'll just mention that in addition to being the President 
of Harvey Mudd College, I'm also on the boards of a couple of 
technology companies, Microsoft and Broadcom. I'm a computer 
scientist, and so I'm going to bring a slightly different 
perspective than our first two witnesses.
    I'm the designated hitter for talking about STEM education, 
and in particular for talking about my particular passion, 
which is making all STEM disciplines nurturing and supportive 
to everyone independent of gender or race or whether they're 
football players or poets or lesbian, gay, or anything else.
    And one of the things that Harvey Mudd College does, as a 
tiny undergraduate institution, is try to be a lab for 
innovation in STEM education. Not just at the undergraduate 
level, which is what we are, but also in terms of innovating in 
partnership with middle school and high schools.
    I'm going to focus on talking about computer science 
because I think it's a particularly important discipline for a 
number of reasons. The first reason is that in terms of the 
economic demand, the U.S. economy needs more computer science 
grads than anything else. The second reason is that computer 
science is the only discipline in science and engineering where 
participation by women has declined over the last three decades 
instead of increased.
    Right now about 13 percent of the graduates receiving 
bachelor's degrees in computer science are female; 4.5 percent 
are African-American; and 6.3 percent are Hispanic. So computer 
science has one of the worst diversity records.
    It's also important because computer science affects every 
possible part of our society. It affects health care. It 
affects education, entertainment, and every area of industry. 
And so if we don't figure out how to get a larger part of our 
population to actually participate in this field, we will not 
be in great shape. But the other reason I want to talk about it 
is, this is actually not rocket science. It's not even physics. 
The death of computer science majors is easy to fix.
    I'm going to use the rest of my time to tell you how Harvey 
Mudd College changed our percentage of students majoring in 
computer science from 10 percent female to 40 percent in 4 
years, and how we've kept it there. We have between 35 and 45 
percent any given year. And we also have great participation 
from our African-American and our Hispanic students as well.
    I will also talk about how NSF funding helped make that 
happen and not only helped make it happen at Mudd, but is 
helping us disseminate our approaches not only to other 
colleges and universities, which is happening, but also to high 
schools and middle schools.
    So why don't women and African-Americans and Hispanic 
students want to major in computer science? Number one, they 
think it's boring. Number two, they think that the kinds of 
people who do it aren't cool. That computer scientists are guys 
with no social skills that they wouldn't want to hang out with. 
And number three, they think they wouldn't be good at computer 
science.
    Harvey Mudd College fixed the gender imbalance by fixing 
those three things. First of all, we changed our intro CS class 
to make it the most fun and least intimidating course ever 
while keeping the rigor. The class has been so successful that 
now more than half of the students in it are from the other 
Claremont colleges. And if you don't know about the Claremont 
colleges I will tell you that Harvey Mudd College is known to 
have the toughest courses among all the colleges, so usually 
Pomona and Claremont McKenna and Scripps students and Pitzer 
students don't take our courses. They love this intro course so 
much that they take it.
    We provided our female CS students with undergraduate 
research experiences, funded largely by NSF. We know that for 
both female students and underrepresented minority students, 
early access to research experiences helps keep students in the 
system. Finally, we took students to the Grace Hopper 
Celebration of Women in Computing. NSF funds a certain number 
of scholarships for undergraduates and graduate students to 
attend that conference every year. The conference is an amazing 
experience. Imagine 4,800 participants, of which perhaps a 
hundred are male, celebrating computer science and careers in 
computing. It's inspirational to young people.
    NSF is supporting our dissemination of these approaches to 
colleges, to middle school teachers, to high school teachers 
who are developing curriculum. We thank NSF and we thank you 
for the support of this committee in making this possible. We 
are changing the world. And with you, we can change it even 
faster.
    Thank you.
    [The prepared statement of Dr. Klawe follows:]

         Prepared Statement of Dr. Maria M. Klawe, President, 
                          Harvey Mudd College
    Chairman Rockefeller, Ranking Member Thune and members of the 
Committee, my name is Maria Klawe, and I am the President of Harvey 
Mudd College in Claremont, California. Harvey Mudd is a small, 
undergraduate-only college of 800 high achieving students. It is a 
premier science, engineering and mathematics college that prepares the 
Nation's brightest students to become ethical problem solvers who 
develop a clear understanding of the impact their work has on society.
    Thank you for inviting me to testify before you today on the 
subject of Federal support of basic scientific research and the 
societal benefits of such research. I will describe some of the 
challenges in STEM education today and solutions currently underway to 
address these challenges. Additionally, I will address the role that 
government funding and private funding play in supporting these 
solutions.
Challenges
    America's first challenge is K-12 math and science education. We do 
not have the level of math and science teaching that we need in grades 
K-12 to ensure there are enough students who are interested in STEM and 
capable of doing well in these subjects once they get to college. We 
need more engaging and rigorous curricula, teachers who have a strong 
background in their respective subject areas and more resources for 
STEM teachers on effective practices.
    The second challenge is that the few students who do go on to study 
STEM in college often choose to major in fields that are not well 
aligned with where job opportunities exist. Higher education in the 
U.S. produces more graduates in the life sciences (biology and 
chemistry) than the economy can employ. These two disciplines, and 
particularly biology--the most popular science major--tend to include 
limited study of mathematics, computer science and physics.
    So when we think about issues in STEM and where we need additional 
investment, we should focus on the disciplines where the number of 
graduates is much smaller than the job opportunities; where the economy 
needs more people--not just on which academic disciplines students 
today are interested in studying.
    The demand from industry today, in terms of the need for STEM 
graduates, is for software engineers. Even hardware companies like 
Intel, Broadcom and Qualcomm that have relied primarily on hardware 
engineers are shifting to hiring more software engineers. Until 
recently, they have hired one-third software engineers and two-thirds 
hardware engineers. They predict that these ratios will be reversed 
within five years.
    Here we have a clear disparity between the needs of industry and 
the number of computer science graduates we produce. We simply do not 
have enough students graduating high school with an interest in 
pursuing computer science. This is in large part due to the striking 
lack of women and students of color who choose to go into computer 
science. Nationwide, only 13 percent of computer science majors are 
female; 6.3 percent are Hispanic and 4.5 percent are black or African 
American (Computing Research Association, 2012 Taulbee Survey, 
www.cra.org/resources/taulbee). We cannot meet the needs of industry if 
we are drawing from less than half the population. We also cannot 
develop the best, most creative solutions when teams are homogenous. 
Diverse teams with different perspectives create the best solutions.
    Research shows that young women especially are reluctant to study 
computer science for three reasons: (1) Young women think computer 
science is boring; (2) Young women think that computer scientists are 
nerdy people with poor social skills; and (3) Young women think they 
won't be good at computer science. There are also a large number of 
white and Asian males who don't pursue computer science because of our 
Nation's negative stereotype of computer scientists.
Solutions
    There are many bright, dedicated people working on STEM reform in 
both K-12 and higher education, and I'd like to briefly describe some 
of the more successful efforts that are supported with both government 
and private funding and that deserve to be shared widely.
Redesigned Introductory Computer Science Class Attracts Diverse 
        Students
    Harvey Mudd College and other leading institutions have 
intentionally addressed the lack of interest in computer science by 
redesigning the introductory computer science course to make it much 
more compelling and enjoyable for a broad swath of people, including 
students of color and women, in particular.
    To spark interest, Harvey Mudd's computer science faculty changed 
its CS 5 course from a Java programming class into one that introduces 
students to a broader range of topics in computer science. We made the 
class all about finding creative solutions to fun problems in science 
and engineering using computational approaches. The course uses the 
Python language, which is easier to apply to Web development and 
problem solving. CS 5 is now our most popular first-semester course.
    To increase women's confidence, we separated the course into two 
sections, Gold and Black (our school colors), where Gold is for 
students with no prior computer science experience. This grouping has 
resulted in a confidence-boosting atmosphere, especially for beginners, 
who are disproportionately women and students of color. Students who 
are experienced programmers don't discourage less-experienced, but 
equally talented, classmates.
    This effort began in 2006, and within four years the percentage of 
female computer science majors at Harvey Mudd jumped from 10 percent to 
40 percent, the highest of any co-ed college we know. We now average 
between 40 to 45 percent.
    A National Science Foundation grant (CPATH-2) for $800,000 allowed 
us to disseminate our highly successful CS 5 curriculum and share our 
approaches with other institutions, many of which are now teaching the 
course in its entirety or adapting it with great results.
    To increase our female students' sense of belonging in the 
technology field, we also take a large cohort of first-year female 
students to the Grace Hopper Celebration of Women in Computing. 
Students are able to see the variety of jobs available within the 
discipline and meet successful role models at all career stages, as 
well as experience an effervescent and welcoming culture. The 
conference has proved to be a powerful tool in encouraging young women 
to take more computer science classes and ultimately major in computer 
science.
Undergraduate Research Opportunities
    Several studies have shown that early research experiences for 
undergraduate women and other underrepresented students increase 
retention in STEM fields and the likelihood they will attend graduate 
school. NSF funding has helped Harvey Mudd to increase the number of 
undergraduate research opportunities available to students, beginning 
in the summer after their first year. These research projects allow 
first-years to apply their knowledge, boost their confidence and deepen 
their interest in the discipline. Female students in particular embrace 
the opportunity to engage in 10 weeks of intensive, challenging summer 
research on projects such as artificial intelligence, robotics and 
educational video games. The experience has helped them discover they 
are not only able to do the work of a computer scientist but also enjoy 
it.
Innovative Engineering Education
    In engineering education, NSF funding has supported the development 
of more experiential, project-based learning, proven to be effective in 
improving learning outcomes.
    At Harvey Mudd, we have found that project-based learning, 
especially early on, also supports retention and diversity in the 
engineering program. We incorporate design instruction and experiential 
learning into our students' very first engineering courses. Our 
engineering design problems require students to work in small teams in 
order to apply techniques for solving design problems. The team setting 
builds confidence and allows for a diversity of talent to emerge. Once 
we get students into the upper courses--the traditional, theoretically 
based courses--they handle the theory better. We have found that the 
earlier we expose students to project-based learning, the clearer their 
learning experience is. Now they see complicated theoretical topics in 
a way our students, now alumni, couldn't see them even 10 years ago. 
There is a real slingshot effect; students come out of their first 
three to four semesters quite advanced. They are not afraid of the 
technology. They are not afraid of building and testing--having it 
break and doing it again.
    This approach to engineering education has raised retention rates 
and increased the number of women in the major. In the past 10 years, 
we've gone from 30 percent female engineering majors in the Class of 
2003 to 42 percent female majors in the Class of 2013. We are on track 
this year to have our first female majority of engineering majors in a 
graduating class; of engineering majors in the Class of 2014, 56 
percent are female.
    NSF funding has supported the sharing of our educational models 
through its support of the Mudd Design Workshops, a biennial program 
that brings together engineering educators, practitioners and 
researchers to discuss issues of innovation in design and engineering 
education. Engineering faculty share effective educational practices 
about the inclusion of design courses and elements into other 
institutions' engineering curricula.
NSF Grant for the Flipped Classroom Study
    Government funding supports research into STEM teaching and 
learning and the development of new, more effective learning 
technologies. For example, flipped classrooms are being implemented 
nationwide, much like the concept of massive open online courses 
(MOOCs). In a flipped or inverted classroom, lectures are delivered 
outside of class--via online videos or screencasts--and viewed by 
students during their free time. Classroom time is then used for 
instructor-mediated, hands-on learning. Many think that the flipped 
format has the potential to transform STEM education by increasing 
student time spent on what research has proven to be the most effective 
teaching techniques without sacrificing material coverage or 
educational scaffolding.
    Educators are beginning to invert their classrooms, but there is 
limited data on learning gains from controlled studies. Four Harvey 
Mudd College professors have been awarded a three-year, $199,544 NSF 
grant to rigorously examine the impact of inverting three STEM 
courses--in chemistry, engineering and mathematics--by measuring 
student learning gains. Several STEM fields were included in the study 
so that results could be applicable across fields and institutions.
K-12 Outreach
    Our nation's economic future depends upon improving the K-12 
pipeline into the STEM fields. We must expand the talent pool of 
interested and qualified students capable of pursuing STEM careers, 
crucial for U.S. economic competitiveness and growth, as well as for 
developing solutions to the pressing challenges-energy, climate, 
healthcare, security-facing our world. Yet many students never make it 
into the STEM pipeline, because of inadequate preparation in math and 
science in their K-12 systems.
    Federal research and development funding as well as private funding 
are playing a vital role in college outreach programs that seek to 
strengthen K-12 STEM education. NSF funding allows colleges and 
universities to share their expertise and develop new learning 
technologies to improve the quality of STEM teaching and learning in K-
12 classrooms across the country. These programs depend on government 
funding to support their efforts to transform K-12 STEM instruction.
MyCS--Bringing Computer Science to Middle Schools and High Schools
    The NSF funds an innovative computer science outreach program for 
middle schools and high schools that do not have the resources to offer 
such courses. Computer scientists at Harvey Mudd have developed a model 
program, funded by a $596,501 NSF grant, called ``MyCS: Middle Years 
Computer Science.'' The goal is to develop positive computational 
identities among middle-school students: encouraging their self-
efficacy, enjoyment and future engagement in computer science. MyCS is 
designed to pique the interest of early adolescent students, especially 
from groups underrepresented in computer science, and build a 
foundation of computer science vocabulary, algorithmic thinking and 
skills. The MyCS program works with several schools with predominately 
Latino-Latina and Pacific Islander populations. The classes expose 
these students to computer science while they are in the pivotal years 
of identity formation and excite them about computational creativity 
before they have been convinced that CS is something ``people like me'' 
don't do.
    The program includes professional development workshops for 
teachers--to provide the foundation for teaching MyCS--and academic-
year support for MyCS students and teachers, provided by Harvey Mudd 
students and faculty. It also includes assessments to record changes in 
students' and teachers' computational self-efficacy and the influence 
of MyCS on their future computational choices. The benefits: these 
communities will continue to develop computationally confident students 
even after the project concludes. Second, assessments will cull less 
effective variations and facets of MyCS, providing a ready-to-go 
curriculum that will succeed in further regional deployment and will be 
prepared for larger-scale vetting, national trials and broader 
adaptations.
What 10K Novice Teachers Can Learn from Teachers with 10K Hours of 
        Experience
    High school computer science teachers, especially beginners, face 
significant challenges in making the subject comprehensible for their 
young audiences. A broad NSF-sponsored computer science initiative 
seeks to create 10,000 new, well-qualified computer science teachers in 
10,000 high schools by 2017. As part of that initiative, Harvey Mudd CS 
professor Colleen Lewis recently received a three-year, $598,513 NSF 
grant to develop a library of online resources that will help beginning 
and developing high school computer science instructors teach 90 basic 
computer science concepts. Lewis' project will allow teachers to go 
online, find the concept they are struggling with and identify five to 
10 effective strategies. Her project, ``What 10K Novice Teachers Can 
Learn from Teachers with 10K Hours of Experience,'' seeks to develop 
better and additional computer science teachers, improve the overall 
quality of computer science instruction and increase access to computer 
science for students of color and those who are economically 
disadvantaged.
The Games Network: Games for Students, Games by Students
    An NSF grant has expanded a K-12 outreach program in which Harvey 
Mudd computer science students work with middle-school social studies 
teachers to develop educational video games. The program's goal is to 
shatter stereotypes about the computer science field by introducing 
younger students to the fun, creative side of software development. 
Sixth- and seventh-grade students test the games and provide feedback 
to the college-level students, who gain the opportunity to create games 
for an audience other than themselves. The grant also funds the 
creation of a guidebook to help other schools start similar projects.
Private Funding
    While federally-funded programs play a vital role in improving K-12 
STEM education, it will take multiple efforts and partnerships to 
implement better STEM learning opportunities for all of the Nation's K-
12 students. Private funding, both in conjunction with Federal funding 
and on its own, plays an essential role in supporting flexible programs 
that strengthen K-12 STEM education and increase students' ability to 
succeed in STEM careers.
Math for America
    Math for America, of which I am a board member, is a nonprofit 
organization that seeks to significantly improve math education in 
public schools by providing professional development and support for 
outstanding math and science teachers at the high school and middle 
school levels. For example, the Math for America Teaching Fellows 
Program recruits participants with a strong math background, who 
receive funding to complete a master's degree in education. Fellows 
commit to teaching math in public schools for at least four years and 
to participating in professional development and coaching programs. In 
exchange they receive an annual stipend of up to $20,000. Math for 
America was founded in New York by mathematician and philanthropist 
James Simons. Its expansion to other cities including Los Angeles, 
Boston, Salt Lake City, San Diego and Washington, D.C. is supported by 
matching funding from the NSF, which has been critical in extending its 
reach across the Nation.
Homework Hotline
    James Simons also supports Harvey Mudd College's Homework Hotline, 
an over-the-phone, mathematics and science tutoring service for 
students in grades 4-12. Launched in February 2010, the hotline was 
modeled after the successful Homework Hotline created at Rose-Hulman 
Institute of Technology in 1991. Harvey Mudd partnered with RHIT to 
bring the program to the College's local communities. RHIT and Harvey 
Mudd share a common mission to enhance academic performance, reinforce 
classroom concepts and promote interest in mathematics and science. 
RHIT shared its system with us, provided technical advice for its 
implementation and continues to be a valued collaborator. Harvey Mudd 
College Homework Hotline tutors helped 2,478 students last fall, a 21 
percent increase from the previous year in the number of 4th- through 
12th-graders successfully coached in STEM subjects through the free 
hotline.
Physics and Computer Science MOOCs for High Schools
    Many high schools, especially those serving populations 
underrepresented in STEM, are not able to offer AP physics or computer 
science classes because they lack resources or teachers trained in 
these subjects. With the help of the Bill and Melinda Gates Foundation, 
Harvey Mudd is developing two MOOCs (Massive Open Online Courses) for 
high school teachers who would like to teach AP physics or computer 
science but who don't have the expertise. These two MOOCs will provide 
teachers, who already have the pedagogy training, with lectures, hands-
on activities, and problem sets in computer science or AP physics. The 
MOOCs will draw on the best educational practices and proven strategies 
for learning these two topics. A team of faculty, students and an 
alumna of Harvey Mudd is creating the MOOCs and is set to deploy them 
this fall, first in local high schools and then regionally and 
nationally.
Community Outreach Programs: Science Bus, Pathways
    Harvey Mudd recently received a $150,000 grant from the Ralph M. 
Parsons Foundation to support community engagement, including outreach 
to K-12. The funding helps support programs such as Science Bus, a 
student-run outreach effort at Harvey Mudd based on a model developed 
at Stanford University. Science Bus coordinates student volunteers to 
visit local elementary schools and teach hands-on science lessons. 
Lessons include a science demonstration, an experiment and a 
discussion, with an overarching focus to build positive associations 
with science. The program's goal is to inspire more young women and 
men, especially from groups that are currently underrepresented, to 
pursue higher education and careers in science.
    Another such effort is Pathways, a Los Angeles-area mathematics 
outreach program based in the Department of Mathematics at Harvey Mudd. 
Professional mathematicians eager to share their love of mathematics 
with elementary, junior high and high school students visit LA-area 
schools whose populations are often predominantly underrepresented in 
STEM. The volunteers give 40-50 minute presentations designed to expose 
students to parts of mathematics that are often unseen outside of 
college, but that are nonetheless accessible and often incredibly eye-
opening. Similar outreach programs exist at many colleges and 
universities; they can play an important role in sparking interest in 
STEM and deserve greater support.
Conclusion
    Our primary challenge in STEM education today is to make K-12 
science, math and technology classes engaging and rigorous so that more 
students are both interested in and capable of pursuing degrees in 
STEM. We must also attract more undergraduate students--particularly 
women and students of color--to major in fields that are in demand in 
industry; thus spurring the economic growth and technological 
innovation upon which our country's economic success depends. Federal 
research and development funding, as well as private funding, are vital 
to our current and future efforts to strengthen the K-12 pipeline, 
increase the diversity of the STEM talent pool, and ultimately improve 
our Nation's capacity to tackle the challenges of an increasingly 
technological world.

    The Chairman. Well, thank you very much.
    I don't understand why computer science is not cool. I 
disagree with the premise.
    Dr. Klawe. No, no, no. It's not that it's not cool; it's 
very cool. It's the coolest field there is. The problem is that 
our young people, and young women in particular, don't think 
it's cool.
    The Chairman. I know, but I--why?
    Dr. Klawe. Because of the image of the----
    The Chairman. They think they can't----
    Dr. Klawe.--people who do it.
    The Chairman.--do it. They think they can't do it.
    Dr. Klawe. They think they can't do it, but they also think 
it's for guys. They think it's a boy thing.
    The Chairman. Wow.
    Dr. Klawe. There is tons of research on it, including done 
by myself.
    The Chairman. Maria and Amy, will you--are you willing to 
change that?
    Senator Cantwell. I'm well aware, and we'll have questions 
when we get to that. Thank you.
    Senator Klobuchar. Being that we're in computer states 
alike.
    The Chairman. All right. Well, that's both inspiring and 
depressing.
    [Laughter.]
    Dr. Klawe. It's not often that you get a twofer.
    [Laughter.]
    The Chairman. No, but I mean generally speaking, in my 
office, I mean, I think that if women ran the world, we'd be a 
lot better world.
    Dr. Klawe. Of course.
    [Laughter.]
    The Chairman. So women should be able to understand that 
computer science is OK.
    Dr. Klawe. And at Harvey Mudd they do.
    The Chairman. OK. There we go.
    And finally, Dr. Stephen Tang, President and CEO of the 
University City Science Center in Philadelphia.

      STATEMENT OF STEPHEN S. TANG, Ph.D., MBA, PRESIDENT

            AND CEO, UNIVERSITY CITY SCIENCE CENTER,

                   PHILADELPHIA, PENNSYLVANIA

    Dr. Tang. Thank you, Chairman Rockefeller and Ranking 
Member Thune.
    And good afternoon, everyone.
    I am Steve Tang. I'm the President and CEO of the 
University City Science Center in Philadelphia. And I'm honored 
to join my distinguished colleagues on today's panel.
    I'd like to start by confirming that the Science Center 
supports the reauthorization of the America COMPETES Act. Since 
2007, America COMPETES has provided critical investments in 
science, space, energy, STEM education, and innovation, all 
with the goal of increasing our Nation's global 
competitiveness. The Science Center also supports the Act's 
establishment of a regional innovation program to encourage 
regional innovation strategies for technology commercialization 
and tech-based economic development.
    And toward the end of my remarks, I'd like to share with 
you a few new ideas on how Congress can help encourage still 
more technology transfer that will ultimately lead to new 
companies, new jobs, and new economic growth.
    With a PhD in Chemical Engineering from Lehigh University, 
an MBA from the Wharton School, and a bachelor's degree from 
the College of William and Mary, I admit to being one of those 
socially inept males----
    [Laughter.]
    Dr. Tang. That Dr. Klawe was speaking about. But I also 
have an extensive background in science, business, and 
entrepreneurship. I have a firsthand understanding of the power 
and potential of technology commercialization, too. I also 
served as a member of the U.S. Department of Commerce's 
Innovation Advisory Board, which guided the 2012 study of the 
Nation's economic competitiveness in innovation capacity 
pursuant to the last reauthorization of America COMPETES.
    This report made several thoughtful recommendations, and 
the President has since issued a number of Executive Orders 
that have drawn attention to this subject; however, I believe 
that additional legislative action is needed to translate these 
ideas into concrete results.
    At the Science Center we cultivate and expand the 
possibilities that open up when research moves out of the lab 
and into the marketplace. We are the Nation's oldest and 
largest urban research park. And I'm proud to report that we 
are celebrating our 50th anniversary. As an independent 
nonprofit organization, we are a dynamic hub for innovation and 
entrepreneurship in Pennsylvania, New Jersey, and Delaware. We 
provide space, services, and support to academics and 
entrepreneurs working in diverse emerging technologies such as 
materials, information technology, life sciences, and clean 
tech.
    Over the past 50 years graduates from our incubators have 
created more than 15,000 direct jobs that remain in Greater 
Philadelphia today and contribute more than $9 billion to the 
region's economy annually.
    Our current startups are pursuing technological 
breakthroughs in fields such as food safety and cancer 
treatment. Many of these companies rely on targeted Federal 
funding from NSF and other agencies covered under America 
COMPETES. For example, one of our current residents, Graphene 
Frontiers, a spinout from the University of Pennsylvania, is 
developing a large-scale production process for graphene, a 
nano-material with an unbeatable combination of strength, 
flexibility, and conductivity that promises to revolutionize 
everything from scientific instruments to consumer electronics.
    Graphene Frontiers has received nearly a million dollars 
from NSF funds. We're also collaborating with the Children's 
Hospital of Philadelphia on the commercialization of an online 
interactive health, wellness, and prevention system. This 
project is funded in part by a million dollar grant from NSF's 
Accelerating Innovation Research program.
    At the Science Center we support technology 
commercialization in the broadest sense by acting as an 
innovation intermediary, or linchpin, if you will, that brings 
together academia, industry, and capital. Our QED Proof of 
Concept Program provides business support for academics working 
on life-science technologies with high commercial potential. 
The goal is to retire the business risk in these early stage 
projects so that they can attract follow-on investment. Twenty-
two colleges, universities, hospitals, and research 
institutions throughout the Greater Philadelphia area 
participate in QED.
    Of the 12 research projects that have completed the 
program, five have resulted in new licenses or companies based 
on those technologies. And what's more, these five projects 
have also attracted more than $9 billion in follow-on funding 
from the private sector.
    In our new Phase 1 Ventures Program, we'll help early stage 
companies apply for and obtain SBIR and STTR grants and then 
provide the companies with management support and access to 
outside expertise, as well as connections to private sector 
funding in order to help them grow.
    The Science Center's vast network of relationships and 
connections helps make us a leader in technology-based economic 
development, or TBED. Yet like other research parks and other 
nonprofit TBED organizations, we are unable to fulfill our 
potential as catalysts for tech transfer and commercialization 
simply because we're not eligible to apply for most grants from 
NSF or other Federal agencies. This lack of eligibility is due 
to the fact that we're not an academic institution. As a rule, 
access to most grant opportunities from NSF and other agencies 
are limited to degree-granting academic institutions.
    I certainly fully appreciate the current budget situation 
and understand that in many ways we're playing a zero-sum game. 
However, I believe there are more effective ways we can 
allocate and deploy existing research dollars to maximize the 
Nation's return on investment.
    So I appear before you today to advocate not only for the 
reauthorization of COMPETES, but for two other proposals. 
First, the Science Center supports an increase in allocation of 
existing Federal funding for translational research, 
commercialization, and tech transfer by universities and 
companies alike as a critical and logical compliment to the 
Nation's historic emphasis on basic research. And second, we 
support an expansion of the ability of TBED organizations like 
the Science Center, which are not degree-granting academic 
institutions, to apply for and secure Federal grants from NSF 
and other agencies.
    These moves would enable organizations like ours to 
ultimately help speed the acceleration of cutting-edge 
technologies from lab to the market. In addition, the Science 
Center supports measures such as H.R. 2981, the TRANSFER Act of 
2013, which would allocate existing funds to proof-of-concept 
activities that validate the commercial potential of early 
stage research.
    This legislation would require that agencies such as NIH, 
NSF, DOD, and DOE devote a small portion of the already-
scheduled increase in their STTR funding to earlier stage 
proof-of-concept and prototype development research. This 
reallocation of funding would further incentivize the 
commercialization of new technologies and the creation of small 
businesses.
    I thank you very much for your time, your attention, and 
your interest in this important topic. And I welcome your 
comments and questions.
    [The prepared statement of Dr. Tang follows:]

 Prepared Statement of Stephen S. Tang, Ph.D., MBA, President and CEO, 
       University City Science Center, Philadelphia, Pennsylvania
    Thank you, Chairman Rockefeller and Ranking Member Thune. And good 
afternoon, everyone.
    I'm Steve Tang, President and CEO of the University City Science 
Center in Philadelphia. It's an honor to join my distinguished 
colleagues on today's panel.
    I'd like to start by confirming that the Science Center supports 
the reauthorization of the America COMPETES Act. Since 2007, America 
COMPETES has provided critical investments in science, space, energy, 
STEM education, and innovation, all with the goal of increasing our 
Nation's global competitiveness.
    The Science Center also supports the Act's establishment of a 
``Regional Innovation Program'' to encourage regional innovation 
strategies for technology commercialization and tech-based economic 
development.
    And toward the end of my remarks, I'd like to share with you a few 
new ideas on how Congress can help encourage still more technology 
transfer that will ultimately lead to new companies, new jobs and new 
economic growth.
    With a PhD in chemical engineering from Lehigh and an MBA from 
Wharton, and with an extensive background in science, business and 
entrepreneurship, I have a first-hand understanding of the power and 
potential of technology commercialization.
    I also served as a member of the U.S. Commerce Department's 
Innovation Advisory Board, which guided the 2012 study of the Nation's 
economic competitiveness and innovation capacity, pursuant to the last 
reauthorization of America COMPETES. This report made several 
thoughtful recommendations, and the President has since issued a number 
of Executive Orders that have drawn attention to this subject. However, 
I believe that additional legislative action is needed to translate 
these ideas into concrete results.
    At the Science Center, we cultivate and expand the possibilities 
that open up when research moves out of the lab and into the 
marketplace. We are the Nation's oldest and largest urban research 
park, and I am proud to report that we are celebrating our 50th 
anniversary.
    As an independent nonprofit organization, we are a dynamic hub for 
innovation and entrepreneurship in Pennsylvania, New Jersey and 
Delaware. We provide space, services and support to academics and 
entrepreneurs working in diverse emerging technologies, such as 
materials, IT, life sciences and clean tech.
    Over the past 50 years, graduates of our incubators have created 
more than 15,000 direct jobs that remain in Greater Philadelphia today 
and contribute more than $9 billion to the regional economy annually.
    Our current start-ups are pursuing technological breakthroughs in 
fields such as food safety and cancer treatment. Many of these 
companies rely on targeted Federal funding from NSF and other agencies 
covered under America COMPETES.
    For example, one of our current residents, Graphene Frontiers, a 
spinout from the University of Pennsylvania, is developing a large-
scale production process for graphene, a nanomaterial with an 
unbeatable combination of strength, flexibility and conductivity that 
promises to revolutionize everything from scientific instruments to 
consumer electronics. Graphene Frontiers has received nearly $1 million 
in NSF grants.
    We're also collaborating with the Children's Hospital of 
Philadelphia on the commercialization of an online interactive health, 
wellness and prevention system. This project is funded in part by a $1 
million grant from NSF's Accelerating Innovation Research program.
    At the Science Center, we support technology commercialization in 
the broadest sense, by acting as an innovation intermediary--or 
linchpin--that brings together academia, industry and capital.
    Our QED Proof-of-Concept Program provides business support for 
academics working on life science technologies with high commercial 
potential. The goal is to retire the business risk in these early-stage 
projects, so that they can attract follow-on investment.
    Twenty two colleges, universities, hospitals and research 
institutions throughout Greater Philadelphia participate in QED. Of the 
12 research projects that have completed the program, five have 
resulted in new licenses or new companies based on their technologies. 
What's more, these five projects have so far attracted more than $9 
million in follow-on funding from the private sector.
    And our new Phase 1 Ventures Program helps early-stage companies 
apply for and obtain SBIR and STTR grants, and then provides the 
companies with management support and access to outside expertise, as 
well as connections to private sector funding, in order to help them 
grow.
    The Science Center's vast networks of relationships and connections 
help make us a leader in technology-based economic development, or 
TBED.
    Yet, like other research parks and other non-profit TBED 
organizations, we are unable to fulfill our potential as catalysts for 
tech transfer and commercialization, simply because we are not eligible 
to apply for most grants from NSF and other Federal agencies. This lack 
of eligibility is due to the fact that we are not an academic 
institution. As a rule, access to most grant opportunities at NSF and 
other agencies are limited to degree-granting academic institutions.
    I fully appreciate the current budget situation, and understand 
that we're playing a zero-sum game. However, I believe there are more 
effective ways we can allocate and deploy existing research dollars, to 
maximize the Nation's return on investment.
    So I appear before you today to advocate not only for the 
reauthorization of COMPETES, but also for two other proposals. First, 
the Science Center supports an increase in the allocation of existing 
Federal funding for translational research, commercialization, and tech 
transfer by universities and companies alike, as a critical, and 
logical, complement to the Nation's historic emphasis on basic 
research. Second, we support an expansion of the ability of TBED 
organizations like the Science Center, which are not degree-granting 
academic institutions, to apply for and secure Federal grants from NSF 
and other agencies.
    These moves would enable organizations like ours to ultimately help 
speed the acceleration of cutting-edge technologies from lab to market.
    In addition, the Science Center supports measures such as HR 2981, 
the TRANSFER Act of 2013, which would allocate existing funding to 
proof-of-concept activities that validate the commercial potential of 
early-stage research. This legislation would require that agencies such 
as NIH, NSF, DOD, and DOE devote a small portion of the already 
scheduled increase in their STTR funding to earlier stage proof-of-
concept and prototype development research. This re-allocation of 
funding would further incentivize the commercialization of new 
technologies and creation of small businesses.
    Thank you for your time, your attention, and your interest in this 
important topic! I welcome your comments and questions.

    The Chairman. Thank you very much, sir.
    I'm going to start out, maybe this is a little bit 
controversial, but it isn't to me, I think we have to face up 
to it in the Congress and as a nation; and that is the whole 
question of sequestration. Well before sequestration, The 
Science Coalition published this: Sparking Economic Growth, and 
it highlights companies created from federally-funded 
university research fueling American innovation and economic 
growth.
    We have copies for anybody who wants to have that. It is 
sort of a follow-up to a previous report and includes this 
quote: ``a daunting outlook for America if it were to continue 
on the perilous path it has been following in recent decades 
with regards to sustained competitiveness.''
    Sequestration has just made things worse. It sort of got in 
by accident. Yes, we voted it in, but it was not meant to stick 
around. I think on both sides of the aisle there's quite a lot 
of frustration with it particularly as it affects one's own 
university research and other types of things and in general. I 
mean, you know, in West Virginia food stamps are important and 
a lot of people will be getting far fewer food stamps. There 
are so many dimensions to it. It affects all aspects of our 
life.
    The Vice Chancellor for research at the University of 
Kansas referred to sequestration as a slowly growing cancer 
that threatens young scientists' careers.
    And I think, Dr. Klawe, that people dream and are inspired 
toward careers not always by literal things, but sort of by a 
sense of open space, open possibilities. Sequestration is 
something that closes that sense of open possibilities.
    The University of Maryland's chief research officer said 
that he's witnessing a brain-drain with top researchers looking 
to move abroad. And it used to be, I believe, that we welcomed 
budding scientists from overseas, from the Philippines, from 
Taiwan, from India, from various places, China, et cetera; and 
they would come and they would stay at our universities. They'd 
get their degrees, and they would stay. And what they do now is 
they get their degrees, and then they go home.
    I can't criticize that. I can't criticize that because they 
belong to nations that need them in other ways. On the other 
hand, I mourn it simply because of what we are losing, and it's 
not incidental. I think it's due to the lack of resources. They 
don't see a resource-based platform which gives them reason to 
hope.
    So question for all of you, each of you, do each of you 
agree with the concerns raised by these comments? That's a 
little bit direct, but that's the way I'm feeling. How would 
each of you describe the situation in this country in terms of 
our ability to train a scientific workforce to innovate and be 
competitive?
    Dr. Droegemeier, just----
    Dr. Droegemeier. Thank you, Mr. Chairman.
    Yes, indeed, I think you've hit the point very, very well. 
At NSF and in FY 2013 budget, NSF was able to mitigate some of 
the damage from sequestration, but that's not going to be 
possible going forward. And there's great deep concern about 
the impacts in terms of reducing numbers of grants which will 
fund our students to become next-generation scientists. It will 
have a huge impact on facilities, perhaps leading to the 
nonconstruction of facilities that are planned or maybe even in 
the shuttering of facilities that already exist.
    One thing I'm very concerned about is the participation 
broadening that is so important that we heard in terms of 
drawing women and underrepresented individuals in the 
workforce. Given what the demographics of our Nation will look 
like 20 or 30 years from now, we simply won't have the people 
to do the innovation, to do the research to keep us 
competitive.
    And the other thing I think that's quite concerning is the 
fact that sequestration, then with the government shutdown, as 
well, on top of already very problematic budgets and very, very 
tough success rates, low success rates in agencies, in Federal 
agencies; people are getting discouraged. We're seeing students 
say, you know, I really don't think I want science as a career.
    I look at my faculty mentors. I hear what they're saying. I 
watch their body language. So not only are we potentially 
losing the generation we already have, but the next generation 
coming in, they're quite discouraged.
    And as you said earlier, we had a hurdle to overcome when 
``Rising Above the Gathering Storm'' was written. It's not only 
gotten worse, it's a problem that is not symmetric in its 
dimension. It--you can reduce the funding very quickly and we 
can go down the hill very quickly, but climbing back up takes a 
much, much longer period of time. So it's not easily 
reversible. You can't just turn it around and get back as 
quickly as you lost ground to begin with.
    The Chairman. Dr. Perlmutter.
    Dr. Perlmutter. And I think I can echo that. And I would 
say that the cumulative effect of having not only sequestration 
but also a series of continuing resolutions and then of course 
recently the shutdown has created a rather extra problem for 
the sciences that you see in the very difficult time that any 
of the agencies have in making any new starts. So beginning any 
new programs becomes very, very difficult in an environment 
where they can't predict where they're going to be in an 
upcoming--you know, during the year, let alone over several 
years.
    And of course for the sciences, not doing new starts is 
particularly damaging. If you aren't starting new things in the 
sciences, you really aren't doing science.
    In the examples where I was describing today this work on 
dark energy, I can see it in both the big and in the small. 
In--there was a large, a very interesting satellite program 
that we've been working on, oh, since the year 2000, which had 
been approved and was, you know, would have gone ahead in any 
other environment; but it's been kicked down the road over and 
over again to the point that now Europe is moving forward with 
their own version of a satellite telescope to explore dark 
energy.
    And in fact, the post doc that I just mentioned was 
planning to be in Europe, so they would get to do their dark 
energy work there.
    Even smaller projects, projects such as the Dark Energy 
Spectrographic Instrument (DESI) are being negatively affected. 
A space project is still something that is very, very viable. 
It's called W-first. And it's something that we obviously 
should definitely do before we are beaten at our own project by 
the Europeans.
    On the small-scale projects like the ground-based project 
called DESI, it's a few tens of millions of dollars, and 
projects like that can't get going even though they're highly 
ranked, they're approved, and yet the lack of certainty for the 
agencies means that they can't actually commit to beginning 
anything new. And you know, these are just two examples--DESI 
and WFIRST--that I'm closely aware of because they're in my own 
immediate field, but talking to the scientists around me, it's 
the same problem everywhere.
    And of course, this just isn't doing science at the level 
that the United States, you know, is known for.
    The Chairman. Thank you, sir.
    Dr. Klawe. So----
    The Chairman. Doctor.
    Dr. Klawe.--one of the things I'm really excited about that 
the NSF has been pushing for several years now is broadening 
participation in computer science so that we do attract young 
women, African-Americans, Pacific Islanders, Native Americans, 
Hispanics and other underrepresented groups to computer 
science.
    As I watched what happened at NSF several months ago due to 
sequestration, I saw a two-week process unfold. Week one, the 
person who leads this particular program, in CS did a 
presentation at the White House and was told that wonderful 
results were coming out of the program and how exciting it was 
and so forth. Week two, her entire budget was cut--gone.
    They've done some juggling, and they've tried to put some 
of it back; but I mean, it's just so frustrating because I--
it's just like doing big science projects, if you're going to 
try and change the way that we teach computer science, the way 
that we attract young people to be interested in this field and 
then all of a sudden all of your, everything grinds to a halt, 
you just slide backward so quickly.
    So I agree with the comments that you read out. 
Sequestration is not just hurting our research, our basic 
research, it's hurting innovation, and it's also hurting our 
efforts to attract more young people into STEM disciplines 
where they are so deeply needed.
    The Chairman. I thank you.
    Dr. Tang.
    Dr. Tang. Mr. Chairman, there's no question sequestration 
has hurt and will continue to hurt the business of science. And 
I use those words intentionally. All businesses and business 
decisions always require minimal uncertainty in either revenue 
or expenses. And sequestration has caused many universities to 
reconsider their overall commitment, particularly to younger 
faculty members.
    We see this through our 31 shareholders, which are all 
universities and research institutions in Greater Philadelphia. 
The economy in Greater Philadelphia is largely driven by higher 
education and the hundred institutes of higher education there. 
And it's--so I would say it's a very fragile situation.
    And I would refer to Senator Alexander's opening comments 
about the commitment that as a nation China is making as a 
percentage of its GDP to the sciences and to innovation.
    We cannot afford fits and starts in the funding for 
research overall. And I think it ultimately disadvantages us.
    The Chairman. Thank you, sir.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. And Mr. Chairman, I 
want you to know that you are living proof that it's possible 
to be both brainy and cool.
    [Laughter.]
    Senator Thune. It can happen.
    The Chairman. I'm his friend.
    Senator Warner. Is that for the record?
    Senator Thune. That's for the record.
    Dr. Tang, could you elaborate on the potential for 
federally funded research to be conducted by consortia that 
consist of multiple research institutions, with or without 
industry participation, as opposed to single institutions that 
may compete with each other for the same Federal funding? What 
are the potential benefits of a consortium approach, if you are 
willing?
    Dr. Tang. Well, the advantages are numerous, Senator. Thank 
you for the question.
    We see in Greater Philadelphia the ability to connect 
resources between universities as one of the differentiating 
factors that the Science Center brings together through its 
shareholders.
    You mentioned with or without industry. I would strongly 
submit that it has to be with industry. The great inventions 
that need to come into the marketplace need to be validated by 
industry. This is one distinct difference in the way we look at 
applied research and translational research in that it requires 
market validation, not peer review to elevate good ideas. So 
there's always better strength when you connect the university 
resources to industry, and to each other.
    What we've found in our own experience is that often even 
within universities there's not great communication or 
collaboration, and so we have to be the catalyst that creates 
that link between them.
    We also think that our role as a nonprofit serving the 
interest of academia in industry is vitally important, as well. 
So that intermediary role helps catalyze much more innovation 
than you would have in the absence.
    Senator Thune. How can current research grant programs be 
structured to encourage and better leverage funding from 
multiple public and private sources, including state and local 
governments, corporations and foundations? You talked a little 
bit about the role that you play in that, but what are the 
current opportunities and roadblocks for those types of public-
private partnerships?
    Dr. Tang. Well, the science--thank you.
    The Science Center is--was formed 50 years ago as a public-
private partnership, and we continue as one today. And we've 
had great success in aligning the interests of the City, State, 
and Federal Government in funding our programs because we've 
been able to show the impact both at a local and a national 
level. So I think it's a very powerful formula for 
sustainability of programs. And it perhaps is an alternative to 
looking at just line items in a budget for single institutions 
and single--with single causes.
    So we're very much in favor of that by all----
    Senator Thune. And what roadblocks to that? I mean, what do 
you see? What are the things that stand in the way of that 
happening on a more regular basis?
    Dr. Tang. Well, there's the normal, I think, red tape at 
the City and the State and the Federal level; but I also think 
that the cultures between academia and industry are quite 
different. And so you need an organization that can interpret 
those differences and align them. And that's certainly one of 
our jobs.
    Senator Thune. I want to direct this, if I might, to Dr. 
Perlmutter. In this committee we routinely discuss the need for 
a U.S. global competitiveness in leadership and science. With 
DOE's Office of Science, with the National Science Foundation, 
and support from the State of South Dakota; the United States 
has established a world-leading underground research facility 
that I mentioned earlier, we referred to it as SURF in the 
former Homestake Gold Mine.
    And my question is, given the worldwide shortage of similar 
underground research space, can you describe what scientific 
frontiers could be explored by leveraging the unique 
opportunity to pull ahead of global competitors in the fields 
of high energy and nuclear physics?
    Dr. Perlmutter. It was very--actually, that--yes. It was 
quite exciting to see just even last week the announcement of 
the very first of these big steps forward in the SURF 
underground lab from the LUX experiment. This--for those who 
aren't following closely, along with this mystery of, what is 
most of the universe made up of in its energy content, this 
dark energy; there's also a longstanding mystery of what is 
most of the, you know, ordinary matter of the universe made of; 
and that's this dark matter question.
    And so now in your state, an experiment at the Sanford 
Underground Research Facility has pulled ahead of other 
experiments as the leading technique for studying dark matter. 
The larger issue is that SURF is an excellent example of the 
sort of facility that national resources can build for 
fundamental research that can be used for many, many different 
experiments and different purposes. And it's very difficult to 
do it in any other way than with national resources.
    Right now my understanding is that it's near that awkward 
stage of trying to figure out what's going to happen into the 
future because there isn't this long-term perspective in the 
agencies and that--and they don't know what their funding 
profiles are going to be that they can promise that they should 
be building up the capabilities of SURF.
    In principle you should be able to use it to be at the 
receiving end of the--of an accelerator experiment that starts 
over at Fermilab in Illinois, which would be a fascinating 
experiment to see run. It can also be a site to do other very 
fundamental physics experiments, as well, waiting to see, you 
know, if protons could decay. There's a whole portfolio of 
questions that you would have assumed that by now we would 
already be up and running and building if we were able to move 
more, you know, aggressively into the future with, you know, 
with our funding and our understanding of what it was that we 
want to do for fundamental science.
    Senator Thune. Thank you. And that's some really cool stuff 
that's going on out there.
    My time has expired. Thank you, Mr. Chairman. Thank you.
    The Chairman. We've got a lot of cool stuff going on.
    [Laughter.]
    Senator Thune. It's very cool.
    The Chairman. Senator Thune and I both come from highly 
urban----
    [Laughter.]
    The Chairman.--states with multiple universities and 
subsistence, so we compete a little bit sometimes.
    [Laughter.]
    The Chairman. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. And thank you 
for this important hearing and to bringing up these points 
about sequestration, because as a state that heavily depends on 
research with the north, you know, the Pacific Northwest Lab in 
Richland, Washington, and the University of Washington getting 
so much funding from NIH; we are definitely impacted. And just 
NIH alone, those jobs of research are about 8,000 jobs in the 
Puget Sound area, to say nothing about the jobs at the labs.
    So I think a few years ago the Chairman of Microsoft, Bill 
Gates, and the Cummins CEO advocated for a very large increase 
in ARPA-E as a way to say this is what we were missing as far 
as the opportunity to continue research there. And I certainly 
appreciate everything that's been said about STEM today.
    And so I guess I have a couple of questions for you, Dr. 
Klawe, about particularly--well, my understanding is that 
there's something, and this was a few years ago, a need in the 
U.S. for something like 300,000 computer scientists, in which 
we graduate something like 70,000 a year. So we're constantly 
falling behind, and thereby the immigration issue becomes an 
active debate.
    And so part of it is making up, as you are saying, with the 
female population. I once asked an Asian engineer why there 
were so many engineers, women engineers in China. And she said, 
well, because we have a national saying that women hold up half 
the sky. And she said, so we know that it's part of our 
responsibility. Here I'm not sure we have the same incentives. 
And certainly now today money is part of the issue.
    And so I guess two questions I have for you. One, do you 
think taking some of these resources of America COMPETES and 
directly increasing the number of slots at our major 
engineering facilities as a way to catch up to that number that 
we need on annual basis is a good idea? And then the second 
idea is, I just keep, as I go through my State, and we've met 
many people, there's a former NAACP Chairman, Carl Mack, who 
has an organization that is just SEEK, Summer Experience For 
Engineering For Kids, that's focused, again, on minority kids. 
That they're doing great things, getting younger kids more 
involved.
    When I went to high school, I ended up taking Latin and 
typing. Typing was the requirement. Latin was part of the 
language requirement. To me the most important language today 
is computer programming language.
    Should we look at incentives at the Federal level to 
encourage states to make something like C++ or Java as part of 
a 1-year curriculum requirement for high schools or incent high 
schools to do that so more and more people are exposed? Just as 
I was forced to take typing, get people exposed to what really 
is going to be the language of the 21st century.
    Dr. Klawe. I had to take Home Ec----
    Senator Cantwell. OK.
    [Laughter.]
    Dr. Klawe.--which I was really bad at. Any time I get near 
a sewing machine, it breaks.
    Computers on the other hand--so let me start by answering 
your first question, then I'll get to your second question. The 
answer is yes in both cases, but let me explain why.
    Every institution that I know of is overloaded by the 
number of students who want to study computer science right 
now. I'll give you an example at Harvey Mudd. We're a tiny 
place. We have 800 students in total. We used to graduate 
roughly 25 to 30 of our roughly 200 majors a year in computer 
science; now we have 80 of the 200 majors. And we also have a 
huge overload from the other colleges who all want to take our 
CS courses.
    So just to give you a sense, the number of faculty in our 
computer science department is ten. The number of faculty in 
our engineering department, which used to graduate 80 or 90 
majors, is 19. I cannot, as President, take an engineer over 
here and say, hi, wouldn't you like to be a computer science 
faculty now?
    There's just no way, other than increasing the size of the 
college, which is politically the most difficult thing--it's 
worse than sequestration, it's worse than anything that you can 
imagine. Well, we have just decided to do that because I've got 
no way to deal with it. There is just no way to deal with it at 
all.
    So could we use help from Federal and State levels to be 
able to fund additional positions? Absolutely. That would be 
huge. And you know, we're a tiny place, but the issue is the 
same at UCSD, the whole UC system. It's the same.
    Senator Cantwell. University of Washington. So----
    Dr. Klawe. University of Washington.
    I mean, we're all seeing it. And we basically can do one of 
two things. We can cut the number of slots so that we don't 
kill our faculty, and that's not meeting the needs of the 
nation; or we can let our course sizes grow to a thousand 
people in a classroom, which is not good either. So I think 
help from the Federal Government would be enormously 
appreciated.
    Now let me talk about efforts to provide more exposure to 
young people about how cool and, yes, Chairman Rockefeller, 
you're absolutely right, computer science is incredibly fun and 
cool and creative and anyone can do it.
    Right now there's an organization called Code.org that is 
working really hard to provide opportunities at both elementary 
school, middle school, and high school for students to learn 
how to code. And I'll also tell you that my favorite 
programming language is not C++ or Java, it's Python. Now it's 
not because my son met his girlfriend at a Python meet-up. It's 
because Python brings many things to the table that Java and 
C++ and other programming languages don't. One is, it's much 
more forgiving. It's much easier to learn. It's something that 
certainly a fifth grader can learn, whereas C++ and Java, as 
you know, are not.
    Senator Cantwell. Yes.
    Dr. Klawe. But two, it's actually used in industry. It's 
the favorite prototyping language of most software developers. 
They'll develop it first in Python and then they'll take the 
parts that need to run fast and they'll recode it in C++ or 
Java. Once you've learned Python, you can get a summer job, 
which is really important to many of our young people, 
particularly people from low-income backgrounds.
    So there are efforts out there. There are many initiatives. 
But the one thing that's not there in most places is a 
requirement to take some computer science either in middle 
school or in high school. And we need it. So yes, that would be 
a wonderful thing to have happen at the State level and any 
help from the Federal Government would be very, very welcome.
    Senator Cantwell. Thank you.
    The Chairman. That's it.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Mr. Chairman.
    Well, I'll start again here with Dr. Klawe. And I was, when 
Senator Cantwell and I were talking while you were talking 
about the lack of women in computer science, I was remembering 
back to my days in college in 1982 when I learned a very hard 
computer program. Because back then it wasn't easy, and you had 
to learn all the function keys so that I could type my senior 
essay. And I would walk a mile to the computer lab at Yale and 
type in this senior essay.
    And there was a group of guys that ran the computer lab, it 
was the only lab I could use, that ran it; and they would 
control it centrally, and they would play jokes with me and 
turn things upside down on my screen. So maybe it wasn't as 
welcoming for women back then in the area. But the best part of 
the story is I was one of the few students who learned it that 
wasn't in science, and so I typed umpteen senior essays for a 
dollar a page at the computer lab when I got mine done. So it 
was a marketable skill.
    But just on that topic of women, I know you were recently 
in Minneapolis for a conference on the topic, and I think our 
state is ahead of the curve, as you know we are the home of 
many major Fortune 500 companies including innovative companies 
like 3M and Medtronic and we have a very high number of women 
in the workplace.
    But what more can we do when we see in the American 
Association of University of Women, between 2000 and 2008 
reported there was a 79 percent decline in the number of 
incoming undergraduate women interested in majoring in computer 
science?
    Dr. Klawe. Yes.
    Senator Klobuchar. And I know you haven't seen that. And 
I'm comparing this. I'm looking at this not just from some 
feminist standpoint, because I think this is where a lot of the 
high-paying jobs or the future of these skills are going to be 
necessary for women to do well, but I'm also looking at it as 
job needs. Because my state is down to 5.1 percent 
unemployment. We have job openings. And I have many managers 
tell me, how do we get more women into either manufacturing, 
science, or into computer science?
    So if you could address that.
    Dr. Klawe. Thank you.
    And yes, the conference was not the only time I've been to 
Minneapolis. I've been there many times. I was on the Geometry 
Center Advisory Board for 5 years back in the 1980s. So let me 
talk about what it takes to get women into computer science. 
It's really not particularly difficult, but it does require 
consistent, coherent, persistent work on the part of both the 
people teaching and the people in the workplace who hire women.
    For whatever reason, and I have no idea of whether this is 
something that's biological or something that's just part of 
the culture of our society--I suspect it's the second though I 
really don't know--most women who are working in areas where 
women are underrepresented, so that means essentially all 
technology careers, suffer from something called----
    Senator Klobuchar. And in Congress.
    Dr. Klawe. And in Congress, yes.
    Suffer from something called the imposter syndrome. You 
don't, Senator, I'm sure, I hope, but I do. And it means that 
no matter how successful you are, you constantly feel like 
you're a failure. And one of the problems with this is it means 
that women--both as students majoring in an area like computer 
science or engineering or as young people or senior women in a 
tech career--are more likely to leave when something goes 
wrong.
    So we have a retention problem. And one of the things we do 
at Harvey Mudd College, and I do it every single year to the 
incoming classes, is I talk about the imposter syndrome. And I 
talk about the fact that, yes, we have a very rigorous 
curriculum and well, almost every kid who attends the college 
was the smartest kid in their school. But you're going to feel 
pretty much within the first week, many of you, that you don't 
belong here. So we talk about that, and we talk about providing 
support.
    We make sure that in our classrooms we don't have a couple 
of guys in our intro classes acting like they have been 
programming since they were three. And maybe they were 
programming since they were three. We handle that by having our 
instructors talk to these young men. They say, ``Joe, I love 
having you in my course, you're one of the best prepared 
students I've ever had, I love talking to you about everything 
you know; but if we could just do it in private because when we 
do it in public, it intimidates a lot of the other students. 
And we know that you don't mean to do that, all right?'' The 
problem goes away. It just goes away.
    We stream our classes. Our school colors are black and 
gold. We have CS5 Gold, which is for the students who have no 
prior computer science experience--that's the vast majority of 
our young women, but it's many of our young men, particularly 
our young men of color in that class as well. Then we have CS5 
Black, which is for the students who have a lot of prior 
experience.
    Senator Klobuchar. OK. I just have one quick other 
question----
    Dr. Klawe. Yep.
    Senator Klobuchar.--because I'm running out of time. I'll 
ask you, Mr. Droegemeier, if you could, Doctor, if you could 
tell me, given that our Federal Government's spending is a 
percentage of GDP and a percentage of the Federal Government 
has declined over the last few decades and other nations are 
surpassing us for R&D and science; is there some ideal target 
that you would like to see for Federal support of R&D as a 
percentage of GDP?
    Dr. Droegemeier. That's a great question, Senator.
    I think overall R&D is about 0.8 percent, 0.8 of 1 percent 
of GDP, and about, if you look at research, it's about 0.4 
percent. I think we would like to see that comfort level to be 
around 1.5 percent to 2 percent of GDP. I think historically it 
was, you know way back when, it was up around that level. And 
to get back there would be incredibly helpful.
    Senator Klobuchar. Very good. Well, that was specific and 
quick.
    And Senator Pryor and I are interested in the Python meet-
up, Dr. Klawe, so we will ask you that in some questions that 
will be submitted later about what that is. Thank you.
    [Laughter.]
    The Chairman. Thank you, Senator Klobuchar.
    And now Senator Johnson.

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman.
    This is a pretty interesting discussion. As long as we're 
kind of going back in history in terms of our experience, I 
know when I chose my career, I chose it based on whether I 
could get a job and what that job would pay. Now I ended up 
going through accounting, business school, and then--but I 
fully understood that people that did the harder work, but not 
necessarily the coolest classes or the easiest classes, but, 
you know, went into physics and the sciences, were going to 
make more money.
    So I guess from my standpoint with what should be 
incentivizing our kids to get into college would be to actually 
be able to have a career, make a good living, have a successful 
life. Somehow we have a disconnect on that now. What--why? 
What's happened?
    Dr. Perlmutter.
    Dr. Perlmutter. Well, I think it's actually, you know, it's 
a combination of effects that we're--that we have just been 
talking about. You know, the fact that right now it's much less 
clear what kind of career you would be lucky to have in, for 
example, in the basic sciences than it was when I was starting 
out. And in fact, even worse than it was, you know, 10 years 
before me. So I think we see that that's going on.
    But what's interesting is that I think what's motivating 
the people who were going through the very basic sciences is 
also just a possibility of a, the fun of exploration, the fact 
that they'll be able to try to, you know, invent the new things 
and create the new things and discover the new things. And that 
is also becoming a much more discouraging scene as we've been 
all discussing. It's----
    Senator Johnson. Do we have any problem filling our college 
of engineering with foreign students?
    Dr. Perlmutter. You can always find people from abroad 
today for----
    Senator Johnson. Well, what attracts them? What 
incentivizes them to come over here and fill up our 
engineering--colleges of engineering?
    Dr. Perlmutter. I think we still have the reputation of a 
very strong educational----
    Senator Johnson. Sure, I understand, but--why they want to 
come here, but why do they want to take engineering courses----
    Dr. Perlmutter. Oh.
    Senator Johnson.--as opposed to----
    Dr. Perlmutter. Yes.
    Senator Johnson.--fill-in-the-blank studies courses which 
so many of our students are doing? That, you know----
    Dr. Perlmutter. No, and I think in most of the world I 
think the way to, you know, a great career is still to become 
technologically capable. And then you could, you know, if you 
have that computer science degree, if you have an engineering 
degree, and, in fact, if you have a physics degree you can find 
top jobs back home if you have your American credential.
    Senator Johnson. OK.
    Dr. Perlmutter. It's--now it's just become much, much 
harder to do that if you stay in America.
    Senator Johnson. OK. I think the point I'm trying to make, 
as a fiscal conservative, I really believe the Federal 
Government has a role in basic research because there's no 
profit motive and we certainly have a history of that really 
benefiting our economy and really benefiting the world.
    But, you know, the Chairman brought up sequestration, he 
called it a slowly growing cancer. Now I would argue the slowly 
growing cancer in America is a growing culture of entitlement 
and dependency that is then resulted in a $17 trillion level of 
debt. And you know, you guys can do math, but let me tell you 
the ugly math that those of us that are highly concerned about 
this are dealing with.
    From 1970 to 1999, the average interest rate the Federal 
Government paid on its debt was 5.3 percent. A pretty 
reasonable interest rate, right, about what we'd pay for 
mortgages. The last 4 years because we've been printing money, 
the average interest rate has been 1.5 percent.
    Dr. Perlmutter. Right.
    Senator Johnson. Now let's do some math. If we revert to 
that 5.3 percent interest rate, which the CBO says we'll do in 
10 years, but it could spike if we're no longer the world's 
reserve currency, if we can no longer print money. You take 3.8 
percent differential times 17 trillion dollars worth of debt, 
that equals 650 billion dollars.
    So to a certain extent we are whistling by the graveyard 
here asking for additional funding paid for by what? Additional 
debt on the backs of our kids and grandkids?
    I mean, I'd love to be talking about spending money on 
basic research and this, that, and the other thing. Until we 
face that very hard truth about what we are really doing to our 
country, what we are really doing to our children's future when 
we're talking about educating our kids and giving them an 
opportunity. We are stealing the opportunity and future 
prosperity for our kids.
    So listen, I don't like sequestration. I did not vote for 
that bill. I thought it was a pretty mindless approach. But 
until we also start wrestling with the fact that two-thirds of 
our budget is off budget, is on an automatic pilot, is out of 
control; until we bring that under control, until we actually 
admit we have a problem and start properly defining it; these 
discussions, pretty interesting academic discussions, but, 
again, we are truly doing a service to our--disservice to our 
kids.
    And just, oh, by the way, as we entice them into taking on 
collectively a trillion dollars of student loan debt and 
offering degrees in fill-in-the-blank studies program, that I 
am sorry, employers are not valuing; we're making it easy for 
them to not take the hard choice and understand the fact that, 
you know, you are going to have to get a job. And you would be 
better off getting a job in an area that actually will reward 
you properly.
    So those are the incentives that I think we ought to be 
talking about. And I'm all for designing classes so they're fun 
and cool, but achievement really requires rigor and hard work, 
and that's the message we need to start really conveying to our 
young people.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Johnson.
    Senator Scott.

                 STATEMENT OF HON. TIM SCOTT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Scott. Thank you, sir.
    Thank you to the panelists for being here today and 
providing us with a lot of thoughts to think about. One of the 
things I'm thinking about immediately is how to pronounce your 
last names.
    Dr. Klawe. Klawe.
    [Laughter.]
    Senator Scott. Because there's not a single one of them I 
can pronounce without asking that question. I've heard 15 
different ways of pronouncing it and only 14 people have 
spoken. So that's part of my challenge.
    I will tell you that what Senator Johnson just talked 
about, I find quite relevant, which is the number of applicants 
that are applying to our universities from outside of the 
country and inside the country.
    And I'll tell you my nephew just graduated from Georgia 
Tech last year. And I believe the number was 70 percent of the 
applicants for their, I think it's their masters degree level 
courses come from outside of the United States; but their new 
online masters program, 78 percent of the applicants come from 
within the United States.
    So Dr. Klawe? Dr. Klawe?
    Dr. Klawe. Klawe.
    Senator Scott. Klawe, yes. So Senator Rockefeller was right 
indeed then, Dr. Klawe. Can you talk to me about some of the 
successes that would be necessary to create an online 
environment that would be conducive to seeing our colleges 
populated with students that come from America if we had more 
access to it?
    My nephew went to a math and science high school. And so 
his natural inclination led him to look at Georgia Tech as one 
of the destinations he wanted in--for college.
    I would love to hear, I know that Khan Academy seems to be 
a success story. I wonder how do we create that type of 
accessibility through online education. If you'd talk to that a 
little bit, I'd appreciate it.
    Dr. Klawe. Thank you.
    The first thing I want to say is that making something cool 
and fun doesn't mean that you're taking away the rigor, all 
right? They're not in opposition. So let me talk a little----
    Senator Scott. Well, my nephew finds it cool and fun to be 
up at 3 a.m. studying for the next day's exam. So----
    Dr. Klawe. I like it. That's what our students----
    Senator Scott.--I'm going to poke fun at him.
    Dr. Klawe.--do all the time.
    Senator Scott. Thank God he did it.
    Dr. Klawe. And I also just want to say that we're number 
one for return on investment according to pay scale, which 
compares lifetime earnings against the debt that you graduate 
with.
    So let me talk about online learning. Yes, Khan Academy has 
gotten a lot of press and yes, a lot of people use their 
website; but if you actually look at the result of what people 
are doing, it's not so much of watching the videos, they're 
actually doing the online exercises and taking the tests.
    And I think that the future that we will see in terms of 
online education is providing activities that combine 
personalized learning, a lot of interaction, communication 
amongst small groups, as well as watching lectures taught by 
some of the most inspirational, not just Nobel Laureates like 
this guy, but also some of the most inspirational students.
    So one of the things we are doing right now with funding 
from the Gates Foundation is to do a massive open online 
course, a MOOC, for AP Physics C and also for exploring 
computer science. Not so much so that we'll have gazillions of 
students taking them from high schools, but so that teachers 
who would like to be able to teach that course could use our 
materials.
    And we're going make sure that we have African-Americans 
and Hispanic students and females and males and Caucasians and 
Asians actually doing the demos in this course. So that we're 
also going to be showing off students from Pomona, which is 
just next door to Claremont, who are basically 50 percent 
African-American, 50 percent Hispanic, taking these materials 
and using them. So that we can show that yes, it's fun, but 
yes, you don't have to be white or Asian to be really doing 
well at this kind of stuff.
    So it's the combination of inspiration, interactive 
activities, and getting rapid feedback on what you're doing 
that will make these kinds of courses attractive to students 
all over the country.
    Senator Scott. Thank you very much.
    Dr. Tang.
    Dr. Tang. Tang.
    Senator Scott. Tang. Hot diggety dog. There seems to be a 
lot of discussion and efforts in the past and present to help 
bridge the gap between scientific research and product 
development. To make a real impact on our economy, I'd love to 
hear your thoughts on perhaps the weakest links in the process 
of technology transfer and economic development. Perhaps talk 
for a second or two or 26 seconds actually on the impediments 
perhaps.
    Dr. Tang. Certainly, Senator.
    Well, the pathway between basic research and 
commercialization is not a linear pathway by any means.
    Senator Scott. No doubt.
    Dr. Tang. It's a very tortuous pathway. Today I think the 
biggest gap is in the area referred to as proof-of-concept 
funding, which is to do enough validation that the concept in 
the laboratory can be successful in the marketplace. That's an 
area that's not getting enough investment from the venture 
capital world.
    As the Nation and the world have become more risk averse, 
they view that area as not investable because the returns are 
too speculative and the horizons for payback are too long and 
the exits are nonexistent.
    So we can't afford to have a pipeline of innovation that 
stalls because there's no proof-of-concept funding. And so 
therefore, that's become a domain of technology-based economic-
development organizations like the Science Center to jump into 
the breach, because we don't require those return on 
investments and we can look at the developments as a pipeline, 
if you will, for new jobs.
    So that to me is the biggest missing link today. We need 
more risk capital in the marketplace to be able to fund these 
ideas. And as a result, you know, we have to be very creative.
    Senator Scott. Thank you.
    Mr. Chairman, thank you, sir.
    The Chairman. Are you sure that's all?
    Senator Scott. I'm sure, that's all.
    The Chairman. OK.
    [Laughter.]
    The Chairman. Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you very much for being here and 
welcome to Washington.
    I see by the smiles on your faces----
    The Chairman. Yes, what a nasty thing to say.
    Senator Blumenthal. Well, I say that, I'm new here, too. 
And you know, a lot of the debate on this issue depends on how 
the question is phrased. If we regard the spending that's been 
described earlier and the deficits and the financial challenges 
that our Nation faces and we have to face them as being out-of-
control spending, that's one way of looking at the picture.
    What we're talking about here, I think, is an investment. 
An investment in research, in the skills that produce better 
research, the skills of young people. Rather than stealing from 
their futures, in fact, enhancing and enriching their futures.
    And so this Act, the America COMPETES Act of 2007, I think, 
is an enormous step forward. I can take no credit whatsoever 
for it. I give full credit to our chairman and other leaders 
who have really broadened our vision and had the courage to 
really stand up and speak out, as you do in your communities, 
meaning your intellectual communities, your university 
communities, and your professional communities. And I want to 
salute and thank you for doing so.
    I don't know whether Ronald Reagan has been quoted yet 
today, but he said, and I'm quoting, ``although basic research 
does not begin with a particular practical goal; when you look 
at the results over the years, it ends up being one of the most 
practical things government does.''
    And at an age where the capacity of government to get 
things done is in question and widely doubted, I think that is 
a truth that is undeniable about what government can and should 
do. Investing in basic research is one of those things. And yet 
my understanding is that the United States global advantage in 
research development is, in fact, receding in terms of our 
economic competition.
    The Federal Government funds 31 percent of all R&D in the 
United States, and we are behind other nations in terms of what 
we invest in R&D as a percentage of our gross domestic product. 
So focusing on one of the areas that concerns me greatly as a 
member of the Armed Services Committee, as well, as this 
committee, national security, particularly cyber.
    There is an area where the Federal Government has a 
distinct and undeniable responsibility, and I wonder if you 
could give us, I'm not going to ask any particular witness, but 
maybe if you could give us your assessments of where we are on 
basic research for our national security, in particular cyber.
    Dr. Klawe. Maybe I'll take that one. I would say that this 
is a critically important area. I think virtually every high-
tech company has been hacked into by the Chinese. And in many 
cases it was only with the help of Federal cybersecurity teams 
that companies actually found out that they'd been hacked into.
    My sense is that we currently still lead the world in terms 
of the kinds of areas of computer science that you need to do 
this, but that a lot more funding is needed and that China is 
investing huge sums in this area. And, you know, I think it's 
really important that it's funded both through NSF and through 
DARPA. I think it's of critical importance to the Nation. And 
it gets more important every day.
    Dr. Droegemeier. Yes, if I could respond just briefly. NSF 
is the primary funder of all computer science research in this 
country, I think about 80, 75, 80 percent; and it has a major 
initiative that is in line with the Federal initiative in 
cybersecurity; but also the networking information technology 
R&D program, which has been around for quite some time is a 
major flagship program, as well.
    So although NSF doesn't do classified research, fund 
classified research like places like DARPA, a lot of the very 
fundamental research in cryptography and the things that really 
lead to the systems that we depend on for our security today 
are really funded by NSF.
    And finally, NSF has a new cyber infrastructure framework 
for the 21st century. Infrastructure being very broadly 
defined; people, physical systems, technologies, and so on. And 
that is a big part of the CIF-21 framework, as well.
    Senator Blumenthal. Thank you. My time has expired, but I, 
again, I really want to thank you, each of you for your great 
work. And thank you for being here.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal. Senator 
Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Thank you very much to the panelists for offering your 
views. America COMPETES provided bold direction when it was 
first passed in 2007 and reauthorized in 2010 by addressing 
innovation, coordination, and STEM funding for research. The 
COMPETES report provides an assessment of where we stand.
    I want to first talk about some of the findings of the 
report, in particular STEM education. As you know the 
administration recently proposed a consolidation of STEM 
programs. And many Senators were concerned about the effect of 
consolidation on the blossoming programs in various 
communities. For example, in Hawaii, people are really learning 
science through culture and culture through science. And I've 
seen it with my own eyes with my own children and across the 
Department of Education in the State of Hawaii.
    And I and many other Senators objected to the 
administration's proposal because we were fearful that it would 
extinguish the great momentum that is occurring in lots of 
communities across the Nation. As a result as you know, no 
action was taken to implement the consolidation proposal in the 
Senate version of the bill. But this proposal from the 
administration is not without merit.
    The idea behind it was essentially efficiency, allowing all 
communities to compete for these funding resources where 
they're not necessarily available to every community, to every 
nonprofit, to every agency. And finally, sort of a QA piece, 
standards and an assurance that these STEM programs are meeting 
minimum standards. Many of them are excellent. But the 
consolidation piece would have actually helped us to make sure 
that all of them were meeting minimum standards.
    So this is a question for all of the panelists. Can you 
talk about the balance that needs to be struck between the 
administration's very reasonable goals of trying to get 
efficiency, accountability, and fairness, but also, you know, 
not stifling the innovation and the exciting thing that is 
happening?
    And one other aspect of STEM education that I think is so 
important from the standpoint of Hawaii, but really from all of 
our communities is that a lot of it is place based. A lot of it 
is grounded in the culture and the community in which it 
occurs. And that's a way to plug kids into science who might 
not otherwise be interested. But there's a tension there, and 
I'd like you to talk about it, maybe starting with Dr. Tang.
    Dr. Tang. Thank you, Senator.
    So I'll refer to your comments on learning through culture. 
At the Science Center, we are advocates of STEM education; 
science, technology, engineering, and math. But we are also 
advocates of STEAM education; that's science, technology, 
engineering, art, and math. What we found, the cliff that I 
think Dr. Klawe spoke about, girls studying science subjects, 
typically if they're not interested in the sciences as 
traditionally taught by the 8th grade, you lose them for the 
rest of their lives.
    So by introducing the arts into STEM education, it allows 
for right-brain/left-brain thinking in meeting their interests 
where they are. And so I think that's very important. The 
construct we have for science, technology, engineering, and 
math education today has sustained us very well to date, but I 
think we all are aware that other nations are overtaking us in 
those areas. And so we have to find a way of being appealing 
and accountable to the interests of our children to get them 
interested in these areas.
    Senator Schatz. Thank you.
    Dr. Klawe.
    Dr. Klawe. It turns out that one of our explore computer 
science projects for middle school students are going on in 
Hawaii. And we had something like 20 middle school teachers 
working with us this last summer. I'm a very big believer in 
allowing teachers to personalize what they're doing for their 
students. On the other hand, I'm a very strong supporter of the 
common-core standards because they're not in conflict with each 
other.
    If you set a set of objectives for what our students should 
learn, but then give the teachers the professional development 
and the freedom--and I have to tell you I think No Child Left 
Behind is awful legislation because it has resulted in so many 
of our teachers teaching to the test. You really want teachers 
teaching to the students, not to the test.
    So I support a blend of setting high rigorous standards and 
empowering teachers to really teach to the students they have 
to achieve those.
    Senator Schatz. Thank you.
    Dr. Perlmutter. I should preface some comments by just 
saying that this is not an area that I've looked at very 
closely myself, but I have been hearing the concerns from the 
science community that if you consolidate all of the science 
education in a place where the scientists don't live, then 
you'll, it's very easy to lose touch with the cutting-edge 
science world. And so the concern has been that, you know, the 
NIH scientists were actually getting quite involved in 
teaching, you know, their areas. And the NASA scientists were 
getting involved in teaching things that had to do with their 
areas. And that if this is all moved out of their orbit, you 
know, to some professional, you know, group that is not 
necessarily from the science side, that you can lose some of 
the whole point of science education.
    So this was just one extra concern that had a very similar 
flavor to the one you're describing in terms of the cultural, 
you know, engagement that you're describing.
    Senator Schatz. Thank you.
    Dr. Droegemeier. As you can imagine, Senator, NSF watched 
with great interest the consolidation of the programs where NSF 
was provided the undergraduate and the graduate programs. I can 
tell you right now the National Science Board is working with 
NSF leadership on a really kind of a deep dive into the 
education-research portfolio at NSF, which is about $830 
million, so it's one of the bigger directorates.
    And so it's something that's getting our attention right 
now. And in fact, we'll be meeting here in a couple of weeks to 
really do the next big dive to see really where that program 
can go. And so we're looking quite intensely at that very 
important problem.
    Senator Schatz. Great.
    Thank you, all.
    Thank you, Mr. Chairman.
    The Chairman. Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    Massachusetts, we are number one in math, verbal, and 
science at the----
    The Chairman. Oh, what a way to show off.
    Senator Markey.--4th, 8th, and 10th grades.
    [Laughter.]
    Senator Markey. And we have a high percentage of 
minorities. We're number one at 4th, 8th, and 10th; math, 
verbal, and science. If we were a country, we would be 6th in 
the world behind Finland, Singapore, but we'd be number 6. Our 
little 6.5 million people up there.
    We see it as part of a plan, a business plan actually. The 
higher the education level of these kids, the more likely 
they're going to get hired by the companies that have been 
looking for a workforce, that they are then going to be able to 
place their company where it is, that the kids who have the 
highest scores on math, verbal, and science at the 4th, 8th, 
and 10th grades are going to get hired. So we see that as a 
little business plan.
    And when it comes to research and building a strong base 
for America's high-tech economy, I am concerned about three 
things. Number one, is that we're starving America's innovation 
engine of funding through sequestration and mindless budgets 
cuts. We can't have an honest conversation about research 
without acknowledging that elephant in the room, sequestration.
    A high-tech economy like ours needs research investments to 
keep the innovation pipeline stocked, period. We need to stop 
playing budget games which undermine our Nation's long-term 
economic competitiveness. And that is the subject of our 
hearing today.
    Massachusetts is 2 percent of America's population. We have 
a business plan. You are the business plan. America is 4 
percent of the world's population. That has to be our business 
plan. We can't compete with these other countries in these 
other areas. If we don't have a business plan that involves 
what you all are talking about here today, then we're going to 
lose because the other countries are coming.
    You don't have to fear China, but you should respect them. 
They have a plan. The others have plans. We need a plan. And 
you have to understand the plan.
    Second, we must continue to support high-risk high-reward 
discovery. We must support science for the sake of science even 
if there is not necessarily a specific commercial application 
in sight. Doppa.net was not intended to create Google, eBay, 
Amazon, Hulu, and YouTube, but it did. Well, cracking the human 
genome was not intended to create companies all over America, 
but it did. There were other purposes that originally were just 
rooted in basic science and technology, but you get the payoff 
if your country is the one that is making the investment.
    And third, we need to look at public-private partnership 
models and help get innovation out of the lab and into the 
factory. We have some deeply entrenched industries that do not 
invest in innovation. That's the paradox of them. OK. They 
might be the world's leaders, but then they don't even invest 
in innovation of the future because they're happy with their 
monopoly or what they think is their monopoly until some young 
kid, you know, comes up with the idea; but we have to create 
the conditions whereby that kid is getting the education they 
need and access to the technologies they need to crack the 
monopoly, because we have to keep our lead competitively over 
the rest of the world, over their kids who are going to be 
thirsting to make these changes that are going to be made.
    You just can't hold on to a technological lead. You just 
have to keep moving. We have some basic history on this. We 
know it's all part of ensuring that there is an adaptation to 
new business models. We have to keep keeping the pressure on. 
In those sectors we need to look at ways of partnering with our 
innovators on proof-of-concept and demonstration projects so 
that more breakthroughs can bridge the valley of death and 
reach the market.
    And I know that's something that the chairman is interested 
in, that Mr. Thune is interested in, and I think we should be 
able to do something, you know, that reflects that in the 
legislation that we are considering.
    I actually have a bill that I plan to introduce soon that 
would address the issue that leads to, you know, kind of 
solving this valley-of-death problem. And I think we have to do 
it if we're going to be successful. And I'd like to work with 
you on that.
    Dr. Tang, do you agree that there is a legitimate 
government role here to partner with the private sector to 
prove out and demonstrate new technologies?
    Dr. Tang. Senator, absolutely. I think the--it's--let me go 
back to what you said about the plan. Unless we view the 
combination of STEM education, basic research, translational 
research, and commercialization as a continuum and all part of 
an economic development plan overall, I think that we'll miss 
key components that continue to make us successful.
    So part of what you mentioned in part--in public-private 
partnerships is that that, I think, has to be part of the plan, 
as well. There have to be incentives to perform and sustain 
programs that can help by combining the private sector, 
government, and nonprofits.
    Senator Markey. So, Dr. Tang, do you agree that supporting 
translational research and proof-of-concept activities increase 
competition in the market and help to overcome the types of 
corporate risk aversion that keep promising technologies 
bottled up?
    Dr. Tang. Absolutely. I--and I noted earlier, I think that 
is the key missing part of the plan right now, is there are 
promising developments in the laboratories, in our great 
academic institutions that don't see the light of day because 
there is not that risk capital to provide proof-of-concept 
funding and further that development.
    Senator Markey. You know, I've heard from many of 
scientists in Massachusetts that they first got interested in 
when they were taken over to the Boston Museum of Science when 
they were kids or----
    Dr. Tang. Yes.
    Senator Markey.--over to the Boston Aquarium when they were 
kids and they were kind of excited by the science that they saw 
there and a kind of light bulb went off and they said, let's 
think about that as a career.
    Can we help to increase the diversity of our future science 
and engineering workforce by having more education outside of 
the classroom? So that we're, you know, encouraging and 
inspiring kids.
    Dr. Klawe.
    Dr. Klawe. Absolutely. Informal science education, which is 
what goes on in museums and after-school clubs and all kinds of 
other things is an important component. However, it's most 
effective when it's actually tied, when it's combined with 
formal science education, as well. So it's a great thing when a 
teacher will actually take her class on a field trip to the 
Boston Science Center and then come back and actually teach 
material that ties into what they experienced there.
    Senator Markey. Yes. And you know, it's kind of part of the 
modern era that we're in that you have members of the Senate 
and the House just kind of mocking basic research, you know, 
like it's not special, you know. Why should we tease that out 
and just make sure that we keep that on the front burner, you 
know. Who cares if the National Institutes of Health get cut 7 
percent a year for 9 years in a row, you know.
    That--will that impact on finding the cure for Alzheimer's 
or heart disease or--no, no, the private sector will go and do 
it anyway even if there is no commercial likelihood that 
they're going to get a reward for doing it. So why do we do 
this? We do it so that, you know, we encourage the best and the 
brightest to go into these fields. You know, you have to create 
a draw so that they come over here because they can use the 
same 800s in their boards to write an algorithm for a hedge 
fund that doesn't contribute one iota to the overall 
productivity or well-being of the planet.
    And they're equally drawn as they're going through 
educational process over to this other early payoff financially 
set of companies that will draw them away. So you need to have 
the basic research if for no other reason than you're going to 
draw the kids over there.
    But let me give one other practical example. Last year in 
the United States we spent $131 billion on Alzheimer's 
patients. And the chairman and I, we've both had personal 
experiences with this disease. $131 billion. The entire defense 
budget in our country is $600 billion. So Medicare and Medicaid 
paid $131 billion to some of the 5 million families that now 
have an Alzheimer's patient.
    Well, the baby boomers, when they're all retired, there's 
going to be 15 million baby boomers with Alzheimer's. So 131 
times 3 is, you know, pretty much $400 billion, two-thirds of 
the defense budget of our country for one disease, unless we 
find the cure. Unless we draw the smartest kids in science and 
mathematics into these fields to find the cure.
    And you just can't say, well, we're going to cut the budget 
every year for 9 years in a row, because now you're dooming our 
country to making it impossible to have a balanced budget in 
the future because you're not investing in those programs that 
are going to pay the big dividend for those families that dread 
that that disease is going through their family, or Parkinsons 
or heart disease or diabetes or you name it.
    And you have to believe we can do it, but you have to 
invest in the basic science even though you don't know exactly 
where the payoff is. And that's why sequestration is the 
stupidest idea of all time. That it treats agriculture 
subsidies and finding the cure for Alzheimer's equally, that 
basic research is treated as though it's just another 
expendable, you know, a commodity that the government really 
shouldn't be in.
    As though the private sector is going to do the basic 
research, they are not. We've learned this. And so, Mr. 
Chairman, I'll just end by saying this, that each year for 
better or worse, you know, we have Americans that win Nobel 
Prizes in science. And I get invited with my wife, you know, to 
go to just the little reception. And I'm always in awe.
    And one year they asked one of the scientists, do you think 
we'll be able to compete against the Chinese and the Indians 30 
years from now for Nobel Prizes? And the scientist said, we are 
here today, the 6 of us because of an investment made 30 and 40 
years ago in us. We do know--we do not yet know the wisdom of 
this generation. That generation had the wisdom to invest.
    And so that's what's in the balance here, you know, despite 
of how wise we are, to make the investment in the kinds of 
science and technology that will continue to keep America 
cutting edge, but also make the changes that so profoundly 
effect American's families.
    We can't have a more important hearing than this, Mr. 
Chairman. I thank you for having it.
    The Chairman. No, I mean, you've just spoken nothing but 
one piece of wisdom after another, which is typical of you.
    [Laughter.]
    The Chairman. I want to add on precisely to that. Because 
I'm not going to do something that I'm meant to be doing, 
because I don't know of anything which is more important than 
this hearing or the implications of this hearing, whether this 
hearing has--changes any minds, has any impact or not.
    I started out talking about sequestration with some vigor, 
Senator Markey.
    And it's horrible and it's inexorable, but something else 
happened which struck me, we had a government shutdown. It was 
not a government shutdown that lasted, you know, for 6 months. 
It lasted a relatively short period of time, but during that 
time, I think, 99 percent of all the people at the National 
Science Foundation were furloughed.
    And in that it was an event which predictably would come to 
an end, because there was a political calculus that showed that 
it could only last so long without so much damage being done 
politically, much less to the country, that one could have 
said, well, we can work with this.
    But I think you, Dr. Klawe, I think you used the word body 
language at one point in an earlier part of your presentation.
    The body language of a shutdown haphazard, it just 
happened, wasn't planned, made for political purposes, shutoff 
by political purposes is precisely what Senator Markey is 
talking about. And that is, you commit yourself to something or 
you don't. Your students know it. You indicated that through 
the use of the word body language. I'm investing in you 
something which I perhaps am mistaken in, but you can tell a 
great deal from body language about that person's view of the 
present and of the future, whatever.
    I think it's true nationally. If we can do things like 
have, first of all, sequester, which I agree with Senator 
Markey, is it's so horrible. And what scares me is that I'm not 
sure the American people have any idea how it aggregates and 
destroys unless we can shut it off.
    But in this political world, one group feels that's the way 
you keep government small and keeping government small is an 
end in and of itself of celestial purpose. Not so from my point 
of view. What Senator Markey said, 30 years ago some people 
decided to invest in me and here I am today and I have a Nobel 
Prize; these things cannot happen haphazardly and have a good 
result.
    I think we in America, and I'm guilty of this myself, I 
look at some of these things that are happening, and I think, 
yes, OK, America is America; we always come back, we always get 
out, we always have the most innovative people, people are 
still coming to us, we always lead in technology and all the 
rest of it.
    And it's not that I'm beginning to doubt myself, but I'm 
beginning to doubt the underpinnings of the decisions that 
we're making and am therefore doubting myself.
    People have to believe that you mean it for real and that 
you're investing in it for real and come hell or high water we 
will not be detoured. It's a national priority. If it's not a 
national priority, then you have a government shutdown of small 
consequence in terms of time, but I don't think we have any 
idea yet of the alteration or the diminution of the curiosity 
of young people, of young teachers who are working in smaller 
institutions who want to get an EPSCoR grant and they're going 
to, and maybe they're women and they can break through the 
ceiling and maybe they're not and they can still break through 
the ceiling, but you don't have to go to Harvard, Yale, or 
Princeton or Stanford or Boston College. That's where he's 
from. OK.
    [Laughter.]
    The Chairman. And you don't have to do that. Wherever you 
are, if you are good, you will be found out about and we will 
help you succeed. We will secure your future by investing in 
you. And you can only do that with money. We don't teach; you 
teach, but we help with money.
    And so the concept of both the sequestration not being 
understood fully the American people or at all by the American 
people, not just understood fully by this Congress and not 
understood deliberately by parts of this Congress is 
terrifying. And then you add on the instance that come up, the 
shutdown, well, whatever it might be.
    And there's EPSCOT, there's EPSCoR, there are all kinds of 
things that are at risk. People clearly in line to do 
something, clearly have their minds set on something say, oops, 
I can't depend on that for certain. And what is the tipping 
point? Is the shutdown? Is it suddenly they understand 
sequestration?
    It doesn't matter. Whatever it is, if it doesn't work 
properly, they're out. And you not only lose all that you've 
put into them up until this point, but you lose all that you 
will get from them from this point.
    And I worry about that, Senator, and I'm sure you do, too.
    I mean, this is just such an incredibly serious business. 
It's discovery. It's innovation. The curiosity of minds. The 
curious mind feeling supported, that they're part of an elite, 
that they're valued by their country, they're supported by 
their country come hell or high water. And in simpler days 
that's the way it worked.
    Oh, but we'll conquer that; we're America. Maybe not so 
certain if, as Senator Markey said, the scientist said, I can 
just judge where I am today because 30 or 40 years ago people 
believed in me and invested in me.
    So that's what we in this committee have hearings like this 
for is to take people like Senator Markey and myself and others 
who are really worried about this and who really want to help 
it. He comes from whatever he described Massachusetts as. I 
come from West Virginia, which is just a bit different.
    [Laughter.]
    The Chairman. But I yield in no way, shape, or form. In 
fact, I remember facing down Erick Block, Dr. Erick Block. He 
was head of NSF. And I took to them the idea of EPSCoR, of 
giving money to not the top tier, but to others in other States 
so that you would have more of a collaborative we're-all-in-it-
together type of atmosphere. And it's worked absolutely 
wonderfully except now it's going to be grabbed by 
sequestration. And 99 percent of the NSF people were furloughed 
during those several weeks.
    We're such a great country. We have so much to be proud of. 
People that come to this country and stay. We have to protect 
it. I'm really trying hard not to make a speech here, but we 
have to protect it. We just absolutely have to do it.
    And you have to help us by involving your folks who fund 
you and who you have access to, to put pressure on the Congress 
to get rid of this ridiculous thing called sequestration. It 
will not go otherwise. Because there's a tool that those who 
want to keep cutting government have and it's locked into law 
and all they have to do is filibuster and we can't get 60 votes 
to overcome that filibuster and so sequestration goes on and on 
and you go down and down, which is what we do not want.
    So I guess I challenge all of us that we have to overcome 
this. And the tipping point may not be that far off. And I have 
every right to be nervous and a bit scared about it and with a 
vast desire to do something about it.
    And so I thank all of you very much for coming and for 
putting up with us. And this hearing is adjourned.
    [Whereupon, at 4:34 p.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                      to Dr. Kelvin K. Droegemeier
    Question 1. According to a recent survey of scientists performed by 
the American Society for Biochemistry and Molecular Biology, 53 percent 
of respondents have turned away promising researchers due to a lack of 
funding and 18 percent are considering moving their research outside of 
the United States. Last year, a CEO of a major U.S. corporation was 
quoted as saying that his company was expanding abroad due, in part, to 
the ``moribund interest in science in the U.S.''
    How would you describe the long-term effects of lower funding in 
terms of training the scientific workforce, attracting and keeping top 
talent, and supporting innovation and have you started to see these 
effects already?
    Answer. Since the end of World War II, the long-term, forward-
thinking commitment of Congress and multiple Presidential 
administrations to supporting transformative basic research and the 
education of our next generation of scientists and engineers has 
underpinned our national health, security, and economic prosperity. At 
the present time, the U.S. is the global leader in research output, 
producing the highest share of ``highly-cited'' research papers and 
``triadic'' patents, and also leading the world in the share of value-
added high-tech (HT) manufacturing and knowledge-intensive (KI) service 
industries.
    Although the U.S. research enterprise is strong, our status as the 
world's leader is, without question, in jeopardy. Other countries are 
gaining ground on the metrics noted above as they invest heavily in 
their own innovation capacity. Several foreign competitors have 
significantly increased their funding of higher education, bolstered 
their investment in R&D, and increased their output of research 
publications. These investments by other nations have, disturbingly, 
coincided with a slowing of U.S. Federal investments in R&D and an 
increasingly uncertain funding landscape for the U.S. scientific 
enterprise.
    Budgetary uncertainty, sequestration, and government shutdowns have 
deleterious effects on our scientific enterprise. Occurring in 
isolation, they are extremely significant. However, because they have 
occurred simultaneously, their combined effects are vastly more 
harmful. These include meritorious projects that are never undertaken, 
insufficient funding for existing projects that leads to a de-scoping 
and thus a diminution of output, inadequate training of the next 
generation of scientists and the loss of large numbers of individuals 
who might have pursued STEM as a career, and strains on facilities used 
for scientific research or the failure to construct facilities that 
could ensure a global leadership position for the U.S. (this is 
particularly true in high energy physics and nuclear science). The 
effects of sequestration are clearly evident already: the National 
Science Foundation (NSF, Foundation) awarded about 700 fewer grants in 
FY 2013 than in FY 2012. NIH Director, Francis Collins, announced that 
NIH would make 650 fewer new competitive awards in 2013. Fewer awards 
mean less research, less innovation, a smaller STEM workforce, and a 
decrease in national competitiveness. According to the survey you cite, 
about 54 percent of scientists reported they know a colleague who has 
lost a job.
    At my own institution, the University of Oklahoma, sequestration 
has led to the loss of $6.4 million in competitive funding, which is 
about 6 percent of the total amount awarded per year to my campus. 
Importantly, however, this 6 percent impacted three large projects, 
each of which was performing extraordinary and transformative research. 
Such projects take a disproportionately large amount of time and 
institutional investment to win and start, and thus their reduction or 
elimination has a proportionally greater negative impact on science and 
personnel. Ultimately, however, the impact is felt in the loss of high-
paying jobs and national capability, including, in the case of these 
projects, national security.
    Further, scientists are less inclined to recommend a career in 
science to their students because the life of a researcher is 
increasingly unattractive, unappreciated, and unable to compete with 
jobs in other fields in terms of lifelong earning potential. Lower 
grant funding rates mean more time is spent writing proposals, rather 
than performing research, with lower prospects of success. Declining 
state support for universities leads to less time and support for 
research. High tuition means students will face significant debt after 
graduate study, and uncertain funding for research means they might not 
secure jobs to repay that debt. Thus, the pool of outstanding students 
is decreasing, and competition for those in the pipeline is intense. 
Uncertainty or pessimism about future budgets makes anticipating 
improvement notably difficult, even for the eternal optimist. If we 
overtly and with unmistakably clear messaging discourage our best and 
brightest from a career in science, we might well never recover from 
the leadership gap we will create. Today's Nobel Laureates in the U.S. 
succeeded because they were attracted to science, and because the 
Nation invested in them twenty or thirty years ago. If no such 
investments occur today, the future is predictable, and the picture is 
bleak.
    Thus, the consequences of sequestration and stagnating Federal 
research budgets will reverberate well into the future. Lack of funding 
today means we will be without the new knowledge that seeds innovation 
and prepares our Nation to meet unexpected challenges. It also means 
diminished support for the training of our future scientists, 
engineers, innovators, and entrepreneurs. Finally, the lack of stable, 
strong research funding today will indelibly weaken the public and 
private institutions that rely on strong government support for 
civilian science. Universities and businesses will be less able attract 
and retain top domestic and foreign talent, U.S. businesses will be 
more inclined to make R&D investments abroad, and careers in STEM will 
be less appealing to our students.

    Question 2. Some have argued that the United States should focus 
its R&D efforts more on applied research and less on basic research, as 
some other countries have done.
    Dr. Droegemeier, if the United States chose not to invest heavily 
in basic research, could we simply import the knowledge and expertise 
from other countries?
    Answer. Innovation is often mischaracterized as a linear process 
proceeding through distinct stages: basic research in universities, 
followed by applied research and development at the boundary between 
academia and industry, and then innovation within the private sector. 
In reality, innovations emerge from a complex ecosystem consisting of 
the fluid interplay of knowledge, application, development, and 
commercialization, all undertaken by individuals and teams working in 
close coordination spanning the public and private sectors. Rather than 
proceeding in a linear fashion, innovation has numerous feedbacks and 
loops that occur at different points in the process, with these points 
differing for different types of research.
    The innovation ecosystem also includes research facilities and 
equipment, transportation, communication, and education systems, and is 
influenced by other factors, such as the business cycle, and tax, 
regulatory, and trade policies. Our Nation's ability to create new 
businesses and bolster our health and prosperity rests squarely on 
these interdependent components working together in mutually 
reinforcing ways to produce innovations. We must be careful to not 
oversimplify the portrayal of this complex interplay of organizations 
and cultures, as some try to do, for four key reasons.
    First, the ecosystem is only as strong as its weakest link, and in 
the United States, all components have been strong historically. Such 
is not the case today as all elements are being weakened dramatically, 
some faster than others. For example, U.S. research universities are 
among the best in the world and a vital part of this system. These 
institutions have benefited from long-standing Federal support of basic 
research in all disciplines, forming the bedrock of our Nation's 
capacity to innovate. Academic research produces a deep reservoir of 
knowledge upon which other researchers across disciplines and sectors 
can draw now and in the future. And knowledge produced by basic 
research is just as important as the expertise it builds among students 
and researchers in private companies and federally-funded laboratories.
    Second, the foundation for the ecosystem is basic research, the 
outcomes of which usually are neither predictable nor demonstrable in 
their tangible benefits for society. However, basic research is without 
question responsible for the technological, military, and economic 
leadership position of the U.S. in the world today. Foregoing basic 
research would undermine our innovation ecosystem by weakening the 
ability of our universities to produce the knowledge that seeds 
innovation and trains our current and future scientists and engineers.
    Additionally, U.S. universities, particularly public institutions, 
often perform research and produce human capital tailored to a state or 
region. Universities generate local ``spillover'' effects in the form 
of industry/university partnerships, local startup companies, and the 
production of talent for existing and new businesses.
    For example, the high tech corridors of Silicon Valley and Route 
128 were made possible because of the intense commitment to basic 
science research at Stanford and MIT, respectively. Universities and 
other institutions that perform basic research produce a reliable, on-
demand supply of knowledge and expertise, much of which could have 
national security implications. If basic research were no longer 
performed domestically, its availability would be uncertain and our 
innovation ecosystem would be wholly dependent on other countries to 
function effectively. That simply cannot be allowed to occur. As noted 
in my oral testimony, basic research allows the United States to 
control its own destiny.
    Thirdly, different parts of the ecosystem function on vastly 
different time scales. A diminution of basic research capability today 
may, in some areas of society, not be evident for several years or even 
two or three decades; however, when the impact occurs, it will be 
dramatic, and it will be hard to reverse. We as a Nation do not 
understand that point because in our rich but short history, we have 
never experienced it. Thus, we do not believe it will occur. 
Unfortunately, history shows otherwise.
    And finally, it is because of the strength of our national 
innovation ecosystem, and in particular, the preeminence of our 
research universities, that the U.S. already imports significant 
knowledge and expertise. In 2009, students on temporary visas earned 
about one-third of all S&E doctoral degrees, including over 50 percent 
of the doctoral degrees awarded in engineering, computer science, and 
physics. Likewise, foreign students who receive their degrees from U.S. 
universities tend to remain in the U.S. The proportion of foreign S&E 
doctoral degree recipients who report that they plan to remain in the 
U.S. rose from about 50 percent in the 1980s to 77 percent in the 2006-
2009 period. If we fail to continue investing aggressively in U.S. 
basic research, we will no longer be able to attract and retain top 
foreign talent, thus further eroding our Nation's ability to innovate.

    Question 3. Investments in the social, behavioral, and economic 
sciences can help to combat crime, protect people during disasters, 
limit the spread of disease, and improve cybersecurity. However, some 
policymakers have targeted the social sciences for budget cuts.
    Dr. Droegemeier, can you help me to understand how social, 
behavioral, and economic science research benefit U.S. security and 
economic interests and provide examples?
    Answer. Rigorous research in the social, behavioral, and economic 
(SBE) sciences is vital to understanding what drives the behavior, 
social interactions, and motivations of people in our Nation and the 
world. SBE research helps us understand the factors that support 
economic development and social stability, that drive the activities of 
rogue states and terrorists, and that promote the general welfare. This 
research helps us find ways to improve our health, educate our young 
people effectively, ensure public safety, and preserve the vitality of 
our democracy. Sound policymaking on matters, including national 
security and economic competitiveness, requires the insights of the SBE 
sciences.
    The Federal Government's modest investments in SBE research have 
reaped large rewards for the taxpayer. The recent joint NSF/SBE-
Department of Defense (DOD) Social and Behavioral Dimensions of 
National Security, Conflict and Cooperation initiative has deepened our 
knowledge of the social and behavioral dimensions of national security 
issues. Psychologists, anthropologists, economists, political 
scientists, and demographers are helping us understand the drivers of 
civil conflict and unstable states, the conditions that promote 
terrorism and other forms of extremism, and the effects of various 
responses to national security threats in both the traditional 
geopolitical and cybersecurity realms. NSF-funded SBE research has also 
resulted in new decision-making tools for shipping container screening, 
thereby enhancing the safety of our ports and shipping traffic. And 
NSF-funded SBE research is helping us to better understand non-verbal 
communications across cultures. This is vital knowledge for our troops 
who rely on body language cues with non-English speaking civilians 
overseas and for whom miscommunication can result in a dangerous 
escalation of an otherwise benign situation.
    SBE research has also been crucial to promoting our Nation's 
economic interest. In the private sector, such research has enabled 
companies to better understand their customers and to align their 
products and services accordingly. For example, social science research 
in the fields of network analysis, decision making and user behavior 
helps Google maintain its edge in an increasingly competitive global 
marketplace. In the public sector, NSF-supported SBE research on how to 
reapportion the Federal Communications Commission's airwave spectrum 
has resulted in over $60 billion in revenue for the Federal Government 
since 1994.
    SBE research is also critical to maximizing the return on our 
Nation's investments in other realms of medical and scientific 
research. SBE research into the barriers to the adoption of healthy 
behaviors is crucial if we are to capitalize on the insights of the 
biomedical sciences into the drivers of obesity and disease. Similarly, 
in my own field of meteorology, SBE research that helps us understand 
human responses to weather conditions and warnings provides an 
important complement to technological breakthroughs in forecasting, as 
noted in my written testimony. Both types of knowledge are essential if 
we are to minimize the loss of life amid storms. And the potential for 
additional cross disciplinary collaboration continues to grow as 
physical scientists and engineers recognize that they have hit ``brick 
walls'' by seeking purely technological solutions to problems driven by 
human behavior.
    For over 50 years, NSF has helped catalyze transformative SBE 
research and make the U.S. the world leader in these fields. Today, NSF 
awards 1,200 grants annually through its Directorate for Social, 
Behavior, and Economic Sciences, supporting the work of nearly 7,400 
social, behavioral, and economic scientists. Maintaining our Nation's 
leadership in SBE research is crucial to protect our country's economic 
and security interests, realize the full potential of our innovation 
ecosystem, and create public policy rooted in facts and science. The 
National Science Board (NSB, Board) vigorously supports Federal funding 
across all areas of research in its current portfolio and believes that 
targeted reductions in SBE programs will have profoundly negative 
consequences to all areas of science and engineering.

    Question 4. EPSCoR (Experimental Program to Stimulate Competitive 
Research) helps avoid unfair geographic concentration of Federal 
research funding in large states. West Virginia, South Dakota, and 
Oklahoma are just three of 31 EPSCoR jurisdictions.
    Dr. Droegemeier, you've been heavily involved in EPSCoR and have 
discussed its strategic direction. As we look forward to renewing 
America COMPETES, how do we ensure that students from every state and 
background have access to STEM education and research opportunities?
    Answer. Encouraging students to engage in the science and 
engineering enterprise and providing opportunities to do so are vital 
components of continuing our Nation's long-term success. To meet this 
challenge, NSF has several programs designed to recruit and retain 
students from every state and background. For example, NSF's Research 
Experiences for Undergraduates (REU) program funds dozens of sites 
annually where hundreds of students from all around the Nation, and 
across numerous disciplines, assemble for significant periods of time 
to participate in cutting-edge research. EPSCoR-state students are 
fully welcomed by REU sites, and the REU program has proven successful 
in developing student interest and persistence in science majors.
    Further, the vast majority of NSF research proposals include 
funding for undergraduate and/or graduate students, who participate as 
research assistants. Thus, whenever an EPSCoR project is funded, it is 
highly likely that students will be gaining access to exceptionally 
high quality, hands-on science education and research experiences. 
Additional targeted funding for students would be welcomed in the 
Reauthorization Act because there is no higher priority than investing 
in the next generation of STEM professionals as they help perform the 
research that will maintain our Nation's global S&T leadership.
    Finally, and of notable importance, NSF has been watching with 
interest the rapid growth of new technologies that enable on-line 
access to high quality education. The Foundation already has put in 
place several programs that fund research into making these 
technologies effective for STEM education and assessing their impacts. 
This work should be of special value in the long run for students in 
rural settings or in locales where fewer options exist for obtaining a 
high-quality, place-based STEM education.

    Question 5. I understand that you started a company, Weather 
Decision Technologies, based on research conducted from an EPSCoR 
award. Would you have been able to start this company without Federal 
support, and how can EPSCoR contribute to the overall economy?
    Answer. I absolutely would not have been able to start WDT without 
EPSCoR funding.
    More specifically, EPSCoR was instrumental in funding an NSF 
Science and Technology Center (the Center for Analysis and Prediction 
of Storms, or CAPS), one of the first 11 such centers created in 1989 
when the program was initiated. Centers such as CAPS were designed to 
tackle profoundly deep intellectual questions which, according to the 
state of the science at the time, were thought to be unlikely or even 
impossible to solve. In the case of CAPS, the challenge was using 
computer models to predict extreme weather such as thunderstorms and 
tornadoes--a capability thought to be fundamentally impossible given 
the chaotic and unpredictable nature of the atmosphere on fine scales. 
The research conducted at CAPS was foundational to starting WDT, Inc.
    Not only did CAPS achieve its goal, but the theories it developed, 
and the practical capabilities it demonstrated experimentally, are now 
being implemented in the National Weather Service as part of the 
Weather Ready Nation program. Further, an entirely new paradigm--
warning of extreme weather, such as tornadoes even before the parent 
storm exists (the so-called Warn on Forecast concept)--offers the hope 
of achieving the ultimate goal: zero deaths. However, to the point made 
above, that goal will be absolutely impossible to achieve without an 
integrative focus on social and behavioral science, because an 
increased warning lead time must be accompanied by an understanding of 
how humans behave in extreme situations when given substantially more 
time than is available to them today. All of this from a center that 
dared to tackle a problem that was viewed as impossible to solve, and 
from Federal funding--especially from EPSCoR--that allowed the Nation 
to take the risk. If we as a Nation focus only on ``safe science'' in 
which the outcomes are predictable, and if we focus only on the 
physical science and engineering disciplines under the mistaken notion 
that technology will solve all of our problems, then we will cede our 
world leadership position to nations that embrace a holistic view.
    The benefits of the EPSCoR investment in CAPS continue to this day 
in the private sector, where the company you mention, Weather Decision 
Technologies, has for more than a decade been developing and deploying 
life-saving technologies, garnering numerous awards and now employing 
more than 80 people in high-paying STEM jobs. Neither this company nor 
the promise of an hour or more of additional lead time for issuing 
tornado warnings would exist today, without EPSCoR funding. And this is 
not a unique success story but rather one of numerous examples in which 
Federal funding broadly, and EPSCoR funding more specifically, has 
created jobs in important small businesses, built wealth, improved 
safety and our quality of life, and spurred innovation unrivaled 
anywhere in the world.
    With regard to the overall impacts of EPSCoR to our economy, a 
state's capacity to influence competitiveness requires coordination, 
which an integral part of the EPSCoR program. For example, EPSCoR's 
Research Infrastructure Improvement program supports research based on 
a state's science and technology plan, often in alignment with national 
research priorities. Since the inception of EPSCoR in 1980, the 
research competitiveness of EPSCoR jurisdictions has increased by as 
much as 41 percent. Other NSF programs, such as Innovation Corps (I-
Corps) and Industry & University Cooperative Research Centers (I/UCRC), 
enable academic researchers to begin translation of fundamental 
research discoveries, encourage academia and industry to collaborate 
(especially regionally), and prepare students to be entrepreneurial 
leaders in innovation. In short, EPSCoR contributes to the overall 
economy by making sure that all 50 states are meaningful contributors 
to the Nation's innovation.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                       Dr. Kelvin K. Droegemeier
    Question 1. More than half of all basic research in the United 
States is funded by the Federal Government--American universities and 
colleges are responsible for 53 percent of this research. I believe 
that we should be doing more to commercialize federally funded 
research, where possible. However, there is a disparity between the 
amount of commercialization coming from top tier research schools 
versus lower performing schools. A recent report from the President's 
Council of Advisors on Science and Technology (PCAST) found that top 
tier schools tend to do very well in terms of funding, while lower 
performing schools are more constrained in their ability to 
commercialize their research.
    One problem I have noticed is that there are a series of closed 
markets in terms of who controls intellectual property (IP) within 
universities. Bob Litan, an innovation expert, was recently quoted in 
Forbes noting that ``one of the big disadvantages of the traditional 
TLO model is that the TLO exerts the entire control over which 
innovations reach the market, in what form, and how fast.''
    Another issue is that some schools have surpassed others in terms 
of the amount of technology they are able to commercialize. One example 
is the Massachusetts Institute of Technology's Deshpande Center, which 
has funded 100 projects totaling over $13 million. The Center has also 
seen the creation of 28 spinout companies that have raised over $400 
million in capital.
    I have worked with Senator Moran on a proposal to accelerate 
commercialization within underperforming university tech transfer 
offices as a part of the Startup Act.
    What is the most aggressive thing that we can do to spur more 
commercialization similar to what has been happening at schools like 
MIT?
    Additionally, do you think that crowdfunding has any role in tech 
transfer? I was interested to learn that the University of Utah has 
recently launched its ``Technology Commercialization Office'' which 
uses crowdfunding as an alternative to traditional university 
``technology licensing offices'' (TLOs). What do you think about this?
    Answer. To your first question about spurring commercialization, I 
do not believe that a single ``silver bullet'' exists, but rather, a 
combination of actions can be taken to dramatically improve the 
situation.
    First and foremost, in the context of innovation, it is important 
to give many ideas a chance and not to judge them by inappropriate or 
naive criteria. These are key precepts at the National Science 
Foundation (NSF, Foundation). The Foundation asks scientists to submit 
their best ideas then asks other scientists to open-mindedly assess 
their potential. NSF works hard to not pre-define the kinds of ideas it 
is willing to consider, and to be mindful that unconventional thinking 
can yield important and even transformative results. This is true not 
only for basic research, but also for an innovation ecosystem that 
allows the best ideas and entrepreneurs to flourish.
    In many respects, Congress significantly catalyzed university-based 
commercialization activities in 1980 with the passage of the Bayh-Dole 
Act. Bayh-Dole aligned university incentives with societal goals in a 
way that made possible the establishment of MIT's Technology Licensing 
Office and similar offices at other universities. Because of that bill, 
and other opportunities driven by leaders like you, there now exists an 
unprecedented number of new types of mechanisms available for 
technology transfer. Many states, agencies, and universities also see a 
critical need, resulting in intense interest in replicating successes 
and finding more effective and efficient methods for moving innovations 
from the lab to the marketplace.
    For example, NSF is aggressively seeking to accelerate 
commercialization and entrepreneurial education through the I-Corps 
program. By deploying a multi-scale network of nodes, sites, and teams, 
we hope to replicate some of the elements that underpin the success of 
the Deshpande Center and catalyze the development of the local and 
regional innovation clusters that are essential components of 
commercialization at places like MIT and Stanford University. NSF is 
also working to better connect the I-Corps program with existing SBIR 
and STTR programs, and other agencies are looking to implement their 
own versions of I-Corps.
    Many of my fellow ``Vice Presidents for Research'' have formally 
added ``and Economic Development'' to their titles as U.S. universities 
engage creatively with these new ideas and diversify the incentives and 
arrangements offered to their faculty in order to encourage greater 
social contribution. In this regard, I can recommend to you a 2013 
Department of Commerce report entitled ``The Innovative and 
Entrepreneurial University: Higher Education, Innovation and 
Entrepreneurship in Focus.'' That report is filled with examples of how 
universities are taking new approaches to spur both student and faculty 
entrepreneurship and technology transfer, including my own university's 
Growth Fund that helps scientists develop prototypes, among other 
things.
    I believe Congress can best help the commercialization process by 
continuing to incentivize a range of mechanisms and by supporting 
unfettered scientific inquiry. Specifically, you can help by working 
with agencies and stakeholders to eliminate regulatory obstacles to 
innovative partnerships (I elaborate on this point in one of your 
subsequent questions), by ensuring that the ability of researchers to 
pursue the best ideas is not restricted by ``one size fits all'' 
regulations, and by making sure that the creative freedom that 
underpins the government-university partnership is not undermined by 
politics or bureaucracy. Over the last 50 years, this partnership has 
thrived, performing over half of basic research in the United States, 
and creating the new knowledge that is the ``seed corn'' for our 
innovation economy.
    As Dr. Litan alludes, if university administrators are the sole 
judges of which ideas might reach the marketplace, we may miss 
important opportunities. Instead, we should encourage multiple, robust 
mechanisms to help scientists consider whether their ideas might have 
market value, and then ensure that incentives exist for those 
researchers to invest time and thought into application and 
commercialization.
    The University of Oklahoma (OU), in its Center for the Creation of 
Economic Wealth (CCEW) offers a wonderful example of this strategy. 
CCEW brings together students from all disciplines with a common thread 
of entrepreneurship courses taught in the business college--along with 
successful alumni businesspersons and innovative faculty counselors. 
CCEW has transformed the landscape of OU intellectual property 
commercialization and is becoming a force for regional economic 
development in Oklahoma.
    A second, and often overlooked issue with regard to academic-
corporate interactions, involves direct funding of university research 
by private companies. Although it is true that universities focus 
considerable attention on basic research, certain disciplines, such as 
those in engineering, also perform applied research as well as 
development. The amount of money coming to research universities from 
private companies has been essentially stagnant for the past two 
decades, which suggests that considerable unrealized potential exists 
in academic-corporate partnerships, as noted in the recent National 
Research Council (NRC) report chaired by Mr. Chad Holliday. In my 
personal view, Federal and state policies should be examined to 
identify barriers to such partnerships, especially with regard to the 
disposition of intellectual property.
    Universities have spent significant sums of money to create 
technology transfer organizations yet the amount of revenue coming to 
universities from such licenses is relatively small. The principal 
benefit to universities from linkages with the private sector is 
funding for research and development, support for equipment, and 
stipends for students and post-doctoral researchers. Moreover, contrary 
to popular belief, private companies are willing to support more 
fundamental ``basic'' research in the context of work having a more 
applied focus--because private companies realize they too must 
contribute to basic research. The Federal Government cannot do 
everything.
    If access to intellectual property by private companies that fund 
universities could be greatly streamlined, as is now being done by 
institutions such as the University of Illinois and University of 
Minnesota, the private sector could unlock enormous benefits from the 
public investment in basic research and thus dramatically and quickly 
transform the competitiveness of a state. Universities would reap 
substantially greater benefits from strategic corporate linkages than 
are possible today. In my personal view, a positive disruption to 
longstanding, burdensome practices regarding intellectual property and 
corporate-academic interactions could yield an impact on 
commercialization.
    To your second question, crowdfunding engines like the one you 
mention at Utah can be efficient and effective at matching ideas with 
investors who believe in their potential. This helps with a specific, 
sticky part of the innovation pipeline: the point at which a scientist 
or university has an outcome or idea but cannot conduct expensive 
market research to see if it really has potential. The NSF I-Corps 
program addresses this and a few other sticky parts of the innovation 
pipeline by actively teaching researchers to think entrepreneurially 
from the outset. It also educates such researchers about how to build 
an early-stage company.
    I also should mention that NSF funds scientific research that 
explores factors that enable innovation and diffusion of innovations. 
This is quite a vibrant social science topic. NSF-funded researchers 
have found, for example, that geographical concentrations of ``star'' 
researchers in a field are the best predictor that a given region will 
be an innovation ``hot spot'' in that field. That is, the stars 
themselves, rather than their disembodied discoveries or their firms, 
seem to be what matters most.
    Others have identified some of the important social factors that 
impede diffusion of new, unproven technologies. There is much more to 
learn, of course, and the new era of ``big data'' promises to be a 
great boon to those who study this sort of phenomenon. Consequently, we 
can look forward to continued progress in understanding how best to 
promote and support innovations for the Nation's greater well-being 
provided that adequate funding is directed toward the social, 
behavioral, and economic sciences.

    Question 2. According to a 2007 report by the National Academies, 
faculty working on Federally funded research spend 42 percent of their 
time on administrative duties, such as compliance with Federal 
regulations. Additionally, a November 2012 PCAST report states:

        ``Over the last two decades, the Government has added a steady 
        stream of new compliance and reporting requirements, many of 
        which vastly increase the flow of paper without causing any 
        improvements in actual performance. Sometimes these 
        requirements stand in the way of performance improvements.''

    Some solutions proposed include eliminating overly burdensome 
regulations, such as effort reporting, harmonizing regulation across 
agencies, focusing regulations on performance rather than process, as 
well as others.
    What actions should be taken to make University research 
regulations more efficient, while still maintaining a high level of 
accountability?
    Do you have any specific examples of burdensome regulations that 
should be reformed?
    Answer. I agree wholeheartedly with your concern and with the 
observations of the PCAST report. As a vice president for research at a 
tier-1 comprehensive research university, I can attest to the growing 
number of unfunded compliance and reporting requirements and their 
deleterious impact on research. I hasten to add that researchers and 
university research leaders understand and appreciate the importance of 
appropriate compliance rules and regulations. Indeed, the academic 
enterprise rests on the integrity of its participants. However, the 
important issue at hand is the extent to which aggregated regulations 
are appropriately structured, implemented, and evaluated with regard to 
their effectiveness and unintended or unnecessary consequences. It is 
also important to note that this is not just a Federal problem. States, 
accrediting organizations, and universities themselves all contribute 
to administrative burdens.
    Reports, such as the National Academies' (Federal Demonstration 
Partnership) report you cite, indicate that the costs in time and lost 
opportunity are significant. In my view, funding scientists to perform 
administrative tasks instead of research is a significant waste of 
taxpayer dollars.
    My NSB colleagues share these concerns. In December 2012, under the 
leadership of NSB Member, Dr. Arthur Bienenstock of Stanford University 
and former Associate Director for Science with the Office of Science 
and Technology Policy, the NSB created the Task Force on Administrative 
Burdens to examine this issue and offer recommendations. In March 2013, 
our task force issued an open Request for Information (RFI) to 
scientists with Federal research funding to identify those Federal and 
university requirements that contribute most to their administrative 
workload and to offer recommendations for reducing it--precisely the 
questions you raise. We also held a series of roundtable discussions 
across the Nation and have invited comment on our preliminary analyses 
from agencies, working groups, and organizations that can play a 
potential role in the current level of administrative burden and have 
the authority to reduce it.
    It is our expectation that our recommendations and findings, which 
are just now being finalized, will offer a detailed and comprehensive 
answer to your question. We would like to provide you our full report 
and any briefings or supporting materials that will be of help to you 
just as soon as our findings and recommendations have Board approval, 
which should be early 2014.
    Preliminarily, I can say that our findings confirm and extend many 
of those in the 2012 Faculty Workload Survey that you cite. Effort 
reporting, as you note, is often characterized as a particular source 
of burden. This is consistent with our preliminary findings. Our task 
force responded to the Office of Management and Budget Notice of 
Proposed Guidance Reform expressing support for effort reporting 
reforms and encouraging swift implementation.
    Beyond this, we see wide agreement in the RFI comments that adding 
regulations per se adds burden and that fear of audits can precipitate 
unintended, detrimental levels of risk aversion and reporting 
requirements. The proposed solutions you cite--harmonizing regulations 
across agencies and focusing regulations on performance rather than 
process--also have been recommended frequently in our RFI. My 
colleagues and I concur that identifying regulations and requirements 
that lead to undue burden and eliminating, modifying, or harmonizing 
them is essential to improving the research enterprise and fully 
capitalizing on Federal investments in scientific research.
    We are also highly supportive of the principle that scientific 
stakeholder communities need to be represented in any and all efforts 
to prioritize and streamline Federal regulations if we want to achieve 
productive reform. Scientific activities and the universities that 
house them have some unique, and sometimes fragile, core 
characteristics. If these are not considered as regulations are 
revised, reforms could be ineffective or even harmful.

    Question 3. I am very supportive of efforts to consolidate STEM 
programs and funding streams. President Obama's 2014 budget decreases 
the number of STEM programs by 50 percent, from 226 to 112. I know that 
some Members have expressed concerns about this consolidation, but I 
believe this a great way to reduce administrative overhead and to get 
more funding to students.
    In considering the reauthorization of COMPETES, do you have any 
recommendations for further consolidation of STEM programs?
    Answer. The National Science Board has followed the proposed 
consolidations with interest. We, too, are supportive of the goals, 
both the efficiency goal and, particularly, the goal of ensuring that 
the most effective STEM education practices are identified and diffused 
quickly and widely across all Federal STEM educational efforts. Ongoing 
coordination across agencies will be essential for diffusion of 
effective practice. The consolidations should be done in an evidence-
based way with engagement of stakeholders.
    As plans related to consolidation move forward, we encourage 
healthy stakeholder engagement and coordination processes centered 
around evidence of effective educational practices. NSF has a special 
role to play in this regard. The Foundation is only one of a few 
Federal agencies that funds basic research into learning and learning 
environments, including valid methods for evaluation of learning, which 
will underpin any evidence-based approach to improving STEM education 
practices. The Foundation is therefore positioned to identify evidence-
based research agendas that will enable the timely diffusion and 
coordination of effective STEM education practices in Federal agencies. 
This is a role that the Foundation is equipped to handle well.

    Question 4. I believe that America is lacking a long-term vision 
for economic growth and international competitiveness. There has not 
been enough of an effort to come together across government sectors and 
devise a strategy for going forward.
    I included an amendment in the 2010 COMPETES reauthorization that 
directed the Department of Commerce to create a National 
Competitiveness Strategy. However, I was disappointed by the way the 
process played out. I did not feel like the report did enough to 
concisely and effectively establish solutions for key issues like 
infrastructure investment, immigration policy, research and development 
funding, and others.
    In your opinion, what targeted investment in R&D would do the most 
to help America stay ahead of our global competition?
    What recent investments in R&D have had the most potential impact 
to American global competitiveness?
    Answer. America's ``innovation ecosystem'' has propelled our 
success, and my personal view is that a long-term vision and strategic 
plan would help ensure effective stewardship of available resources and 
strategic emphasis on areas of greatest strength and value. Ensuring 
that this ecosystem retains the ingredients that have allowed our 
Nation's researchers, engineers, and businesses to flourish is critical 
to retaining our competitive global edge. U.S. researchers benefit from 
unparalleled freedom to pursue their best ideas; as we think about the 
future, we need to ensure we do not lose this critical component of our 
R&D enterprise.
    In our increasingly interconnected, big data, high-tech world, 
strong, stable investment in R&D across all disciplines will need to 
continue. Fields of science and engineering are growing ever more 
interdependent in order to address large-scale and complex problems, 
ranging from natural resource scarcity to national security and health 
risks. The insights social sciences can provide us about human behavior 
weave throughout all these national challenges. Therefore, it is 
crucially important that we continue to fund all areas of science and 
technology, and that we erect no barriers between them. In fact, we 
need to maximize the ability for researchers in multiple fields to 
collaborative effectively.
    We need to continue building our STEM workforce, both by investing 
in the training of U.S. students as well as attracting and retaining 
foreign STEM students to contribute their ideas and skills to our 
workforce. One significant aspect of U.S. innovation success lies in 
the creativity of our students; we must make sure that the creative 
edge is not lost in an environment increasingly focused on passing 
standardized tests, and we must continue our Nation's long tradition of 
attracting and retaining the best and brightest foreign-born students
    We need to leverage our R&D investments with interagency 
collaborations that extend the reach and yield of our investments and 
encourage academic-industry partnerships. The Foundation's Industry/
University Cooperative Research Centers are a good model of such a 
partnership.
    Steady, predictable Federal funding will help colleges, 
universities, businesses, and others who perform or rely on federally-
funded basic research to make wise, forward-thinking decisions that 
yield maximal returns on taxpayers' investments. I cannot overstate the 
importance of this issue. Risk taking, which is a foundational notion 
of basic research, simply cannot be pursued in today's environment of 
fiscal uncertainty. Likewise, strong, consistent Federal support is 
crucial to recruiting and retaining future generations of scientists 
and engineers. America needs its young people to view S&T as a 
promising career path, and without question, the emerging generation of 
researchers is quite troubled by the lack support for S&T and many are 
choosing other careers. Slowly and surely this is eating away at our 
competitive advantage.
    Investments in R&D that figure prominently in our global 
competitiveness include both those geared toward generating ingenious 
new ideas and those focused on nurturing the next generation of 
innovators. As you know, due to the nature of basic research, its 
impact is not immediately felt. Likewise, the education and training of 
the next generation of scientists and engineers is a decades-long 
endeavor. These are both long-term investments where the payoffs come 
later.
    Thousands of fundamental scientific discoveries made across all 
disciplines can be used and re-used in an almost infinite number of 
ways now and decades into the future to produce outcomes that have 
extraordinary benefits for society. R&D investments that integrate 
elements from multiple disciplines and technologies also have great 
potential. Many of the Foundation's activities focus on areas of 
national priority and thus lie at the heart of national competitiveness 
and well-being. These include advanced manufacturing, robotics, and 
interdisciplinary research to enrich our understanding of the brain's 
neural networks, nanotechnology, STEM education, global change 
research, and cybersecurity R&D.
    Equally important is investment in the education and training of a 
scientifically literate, globally competitive U.S. workforce that 
includes scientists and engineers, who will advance our fundamental 
understanding of the world around us, and innovators and entrepreneurs, 
who will use that knowledge to create new products and new industries. 
STEM education initiatives, such as research into learning and pedagogy 
and opportunities for hands-on research experiences, are vital to 
developing our Nation's talent pool. Given the trajectory of 
demographics in the U.S., enhancing the diversity of the STEM workforce 
is not simply a good idea--it is essential if we are to continue as a 
leader in S&T research and businesses.
    Finally, a modern research infrastructure is critical to 
maintaining our Nation's competitiveness. Through its Major Research 
Equipment and Facilities Construction account, NSF provides U.S. 
scientists and engineers with the large, shared tools necessary to 
perform world-class research, such as supercomputing facilities, ships, 
airplanes, and large arrays of observing systems to gauge changes 
occurring on our planet.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                       Dr. Kelvin K. Droegemeier
    Question. How do your mission agency STEM education programs, such 
as the NOAA Sea Grant education program, contribute to the 
competitiveness of the United States?
    Answer. A STEM-literate workforce is absolutely essential for the 
U.S. to be competitive in our knowledge-and technology-intensive global 
economy. Consequently, the National Science Foundation (NSF) operates 
programs across its directorates and divisions to ensure a high-
quality, STEM-literate workforce and citizenry and to enable 
universities and other organizations to produce the best, most 
innovative research scientists and engineers in the world. In that 
context, although the National Science Board (NSB; Board) does not have 
purview over NOAA's Sea Grant program (and likewise the NASA Space 
Grant Consortium), such programs provide critical training and 
education in STEM fields and are a fundamental component of the mission 
of NOAA, NASA, and NSF.
    NSF currently makes investments in STEM education at every level: 
pre-K, K-12, undergraduate, graduate, and informal/public. Its major, 
focused education investments fall, for the most part, into four 
categories:

  <bullet> NSF Fellowships and Scholarships, such as the flagship 
        Graduate Research Fellowship (GRF), which attracts the best and 
        the brightest of our Nation's students to STEM careers and 
        helps enable them to complete their STEM educations. Numerous 
        individuals funded by the GRF over its 60-year history are now 
        members of the National Academies and some have won the Nobel 
        Prize.

  <bullet> Basic Education Research programs, such as Research on 
        Education and Learning, that addresses fundamental questions, 
        and produces valuable evaluative data, about how learning 
        (particularly in STEM fields) occurs and ways to improve 
        learning environments.

  <bullet> STEM Education Improvement programs, such as Improving 
        Undergraduate STEM Education, which translate scientific 
        evidence and research outcomes about STEM learning into 
        innovative materials and practices. It further assesses those 
        innovations and disseminates the most valuable ones for 
        implementation.

  <bullet> Research Experience Programs, such as REU Sites (Research 
        Experiences for Undergraduate Sites), which bring numbers of 
        students together with leading faculty to initiate and conduct 
        projects together. These sorts of learning opportunities can be 
        transformative for students and faculty alike.

    It is also important to note that a large majority of NSF-funded 
research projects, ranging from ``individual investigator'' awards to 
center activities to large, multi-user facilities, include funding for 
undergraduate students to participate as research assistants as they 
seek their B.S. degrees. Such hands-on engagement in cutting-edge 
science constitutes excellent STEM education in and of itself and has 
been shown to increase a student's likelihood of completing a STEM 
major and pursuing a career in science. Additionally, projects also 
frequently fund M.S. and Ph.D. students. In this sense, almost all NSF 
research investments are also investments in the future of the U.S. 
scientific workforce, and therefore, in U.S. competitiveness.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                       Dr. Kelvin K. Droegemeier
    Question 1. Oklahoma like Nebraska is an EPSCoR state, which means 
our states receive a limited amount of Federal research funding. Over 
the past three years (2010-2012), according to NSF, Oklahoma received 
0.46 percent of all NSF research funding and Nebraska received 0.38 
percent. At a time when technology, innovation, and research are so 
important to industry and job creation, how can states like ours become 
more competitive quickly?
    Answer. As noted in my oral and written testimony, states like 
Nebraska and Oklahoma possess exceptional capabilities in the quality 
of their research universities, in the organization and prioritization 
of their overall research capabilities in alignment with state and 
institutional assets and goals, and in their ability to leverage 
resources, partner with others in innovative ways, and respond quickly 
to opportunity. Such is the hallmark of EPSCoR states.
    Yet, as shown by the newly released National Research Council (NRC) 
report, although EPSCoR states have enhanced their competitiveness by 
traditional measures, so have non-EPSCoR states-thereby leaving the 
relative position of states like Nebraska and Oklahoma essentially 
unchanged. Your question, therefore, is extremely relevant: Even with 
EPSCoR, our states are not achieving their full potential and more must 
be done-as soon as possible-to help them contribute maximally to our 
Nation's competitiveness. Failing in this effort means that significant 
national potential will remain unrealized, which is not an acceptable 
outcome when our Nation faces continually increasing competition in 
science and engineering.
    Embracing the full potential of an economy that is increasingly 
reliant on knowledge and technology entails both near-term and long-
term strategies to maximize competitiveness. Although many factors 
influence competitiveness, a state's capacity to conduct leading-edge 
research, and to innovate within the private sector, are foremost among 
them. Building research and innovation capacity within a state requires 
coordinated and complementary state and Federal policies as well as 
forward-looking leadership.
    On relatively long time scales, at the state level, investments in 
formal and informal education at all levels that ensure a local 
concentration and retention of a scientifically literate workforce, and 
policies that attract and retain technology-oriented businesses (e.g., 
tax incentives, innovative partnerships, research campuses that house 
start-up companies and provide support for developing business plans 
and taking basic research across the valley of death, the provision of 
consulting support from university faculty to private companies) are 
crucial to success.
    To your specific question about enhancing competitiveness quickly, 
as one example, Oklahoma created in 2003 a program called EDGE 
(Economic Development Generating Excellence), which was a state-wide 
effort to prioritize our assets and identify areas where strategic 
investment in research could lead to rapid job creation and enhanced 
competitiveness. Based upon the EDGE plan, the legislature authorized 
the creation of a $1 billion endowment to support research and the 
transfer of technology to the private sector that would make Oklahoma 
the ``Research Capital of the Plains.'' Several funding competitions 
were held, leading to the creation of new companies and the rapid 
movement of research outcomes into innovative products and services, 
especially in the biomedical sector. Other states have enacted similar 
programs, and their ultimate success depends upon a close alignment of 
research university strengths with private sector capabilities and 
workforce availability and retention.
    At the Federal level, innovation capacity is fostered by investment 
in unfettered basic research across all disciplines including the 
social, behavioral, and economic sciences. Further, redundant and 
outdated regulations must be streamlined to ensure that much of every 
dollar invested in research actually goes toward research. Finally, 
barriers to academic-industry partnerships must be removed, and 
incentives and support provided, so that promising research results can 
be innovated quickly into products and services. This is especially 
important given that the time from discovery to innovation is now 
measured in months, rather than in years.
    To the point just made, an often overlooked issue with regard to 
academic-corporate interactions involves direct funding of university 
research by private companies. Although it is true that universities 
focus considerable attention on basic research, certain disciplines, 
such as those in engineering, also perform applied research as well as 
development. The amount of money coming to research universities from 
private companies has been essentially stagnant for the past two 
decades, which suggests that considerable unrealized potential exists 
in academic-corporate partnerships, as noted in the recent NRC report 
chaired by Chad Holliday. In my personal view, Federal and state 
policies should be examined to identify barriers to such partnerships, 
especially with regard to the disposition of intellectual property.
    Universities have spent significant sums of money to create 
technology transfer organizations yet the amount of revenue coming to 
universities from such licenses is relatively small. The principal 
benefit to universities from linkages with the private sector is 
funding for research and development, support for equipment, and 
stipends for students and post-doctoral researchers. Moreover, contrary 
to popular belief, private companies are willing to support more 
fundamental ``basic'' research in the context of work having a more 
applied focus--because private companies realize they too must 
contribute to basic research. The Federal Government cannot do 
everything.
    If access to intellectual property by private companies that fund 
universities could be greatly streamlined, as is now being done by 
institutions such as the University of Illinois and University of 
Minnesota, the private sector could unlock enormous benefits from the 
public investment in basic research and thus dramatically and quickly 
transform the competitiveness of a state. Universities would reap 
substantially greater benefits from strategic corporate linkages than 
are possible today. In my personal view, a positive disruption to 
longstanding, burdensome practices regarding intellectual property and 
corporate-academic interactions could yield an impact on 
commercialization.
    More specific to NSF, EPSCoR facilitates competitiveness not only 
through support for basic research and STEM education, but also through 
targeted programs that build research capacity within states, encourage 
public-private partnerships, and promote technology transfer. For 
example, EPSCoR provides funding based on competitively-reviewed 
proposals to states such as Nebraska that historically have received 
comparatively small percentages of NSF support. EPSCoR's Research 
Infrastructure Improvement program supports research based on a state's 
science and technology plans, usually in alignment with national 
research priorities. Since the program's inception in 1980, 
competitiveness of EPSCoR jurisdictions has increased by as much as 41 
percent. Other NSF programs, such as Innovation Corps (I-Corps) and 
Industry & University Cooperative Research Centers (I/UCRC), enable 
academic researchers to begin translation of fundamental research 
discoveries, encourage academia and industry to collaborate (especially 
regionally), and prepare students to be entrepreneurial leaders in 
innovation.
    Continued, stable support for basic research, STEM education 
programs, and activities like EPSCoR, Innovation Corps (I-Corps), and 
the Industry/University Cooperative Research Centers (I/UCRC) will 
strengthen Nebraska's colleges, universities, and industries in 
mutually beneficial ways.

    Question 2. Economic growth and job creation are critical to any 
state. I am quite proud of Nebraska's recent success in this area with 
one of the lowest unemployment rates in the country, many good jobs, 
and successful businesses. What do you see as the underpinnings for a 
vibrant economy and jobs in the future? How can this legislation 
contribute to that?
    Answer. Our nation's economic prosperity rests on complex, often 
interconnected factors: health care, energy and energy security, 
transportation and infrastructure, national security, and education, to 
name a few. The progress of science underpins all of these. As 
highlighted in the National Academies' Rising Above the Gathering Storm 
report, the majority of U.S. economic growth since World War II is 
attributable to advances in science and technology (S&T). The National 
Science Board believes this trend will continue provided that 
sustained, stable support exists for basic research. Although the cynic 
might expect such a statement from a board whose mission involves 
fostering exceptional research for the nation, the facts of more than 
60 years of investment attest to the pronouncement's veracity.
    The progress of S&T requires an unwavering commitment to pursuing 
transformative basic research and developing our Nation's human 
capital. As noted in my written testimony, basic research is the DNA 
from which new innovations and technologies arise to fuel our Nation's 
economic prosperity, health, and welfare. That DNA, composed of 
thousands of discoveries made across all disciplines, can be used and 
re-used in an almost infinite number of ways now and decades into the 
future to produce outcomes that have extraordinary benefits for 
society.
    Equally important is human capital development--the education and 
training of a scientifically literate, globally competitive U.S. 
workforce. This workforce includes scientists and engineers, who will 
advance our fundamental understanding of the world, and our innovators 
and entrepreneurs, who will use that knowledge to create new products 
and new industries. STEM education initiatives, such as research into 
learning and pedagogy and opportunities for hands-on research 
experiences are vital to developing our Nation's talent pool.
    Although continued support of basic research and increased STEM 
literacy are critical, as noted above, we also need investments in 
projects like the ''Nebraska Innovation Campus,'' where industry, 
entrepreneurs, and academic faculty work together in public-private 
partnerships to move discovery from the lab to the marketplace. The 
Nebraska Innovation Campus was created as a research campus that 
enhances opportunities for private business to access faculty to 
develop marketable innovations and the first building is scheduled to 
open in spring 2014.
    I can attest to the tremendous potential of the Nebraska Innovation 
Campus because I traveled to Lincoln a few years ago to meet with the 
President and Chancellor to share the experiences of my own institution 
and its counterpart--the University of Oklahoma Research Campus. On 
this campus, we built a million square feet, fully occupied in less 
than a decade, and the Research Campus was named the 2013 Research Park 
of the Year by the Association of University Research Parks. NU is 
heading in this same direction. Such tremendous assets are very quickly 
becoming magnets for both intellectual and economic vitality in states 
like Nebraska and Oklahoma, and I urge that careful attention be paid 
to ``research campuses and parks'' at the Federal level as a means for 
rapidly enhancing national competitiveness via the close integration of 
government, industry, and academia (often referred to as the triple 
helix).
    To your specific question, the Reauthorization Act can facilitate 
local, regional, and national economic prosperity by sustaining long-
standing Congressional support for the U.S. S&T enterprise. It can do 
this in three mutually reinforcing ways:

  <bullet> The Reauthorization Act can provide a vision for strong, 
        stable Federal funding for basic research in all areas of STEM, 
        including the social, behavioral and economic sciences. I 
        cannot overstate the importance of that point. Basic research 
        is a long-term investment, and providing steady, predictable 
        Federal funding will help colleges, universities, businesses, 
        and others who perform or rely on federally-funded basic 
        research make wise, forward-thinking decisions that yield 
        maximal returns on taxpayers' investments. Likewise, strong, 
        consistent Federal support is crucial for recruiting and 
        retaining future generations of scientists and engineers. These 
        young people must view S&T as a viable and attractive career, 
        and it is abundantly clear they will not do so unless they see, 
        and can have confidence in, more than a few feet down a pathway 
        of a thousand miles.

  <bullet> The Reauthorization Act can enhance investment in the 
        education and training of the next generation of scientists and 
        engineers. To remain globally competitive, the U.S. will need 
        an ``all-hands-on-deck'' approach, bringing all of its assets 
        to bear. This means not only strengthening investments in STEM 
        education, but also committing to efforts to ensure a diverse 
        workforce that harnesses and reflects the Nation's increasingly 
        diverse population. In this regard, funding for additional 
        graduate fellowships, undergraduate research programs, and 
        efforts that meaningfully enhance participation are essential. 
        To the latter point, EPSCoR states like Nebraska and Oklahoma 
        can play an especially vital role if they focus on their own 
        specific strengths (e.g., Native Americans in the case of 
        Oklahoma) and work toward a sustainable framework for bringing 
        underrepresented groups into STEM fields and helping them 
        succeed.

  <bullet> The Reauthorization Act can augment our ability to transform 
        basic research discoveries into future innovations by fostering 
        linkages between the public and private sectors and 
        streamlining the process for translating research into 
        marketable products and processes. NSF has several programs 
        that can serve as models for this legislation: the I/UCRC and 
        the I-Corps programs aim to stimulate academia-industry 
        partnerships (especially regionally), leverage industrial 
        support, accelerate technology transfer and commercialization, 
        and prepare students to be entrepreneurial leaders. In 
        addition, NSF's Small Business Innovation Research (SBIR) 
        program and its Small Business Technology Transfer (STTR) 
        program provide incentives and enable startups and small 
        business to undertake R&D. Finally, this legislation could call 
        for a study that seeks to understand and eliminate barriers to 
        academic-corporate partnerships, particularly with regard to 
        Federal tax policies that tend to tie research universities' 
        hands.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                         to Dr. Saul Perlmutter
    Question. According to a recent survey of scientists performed by 
the American Society for Biochemistry and Molecular Biology, 53 percent 
of respondents have turned away promising researchers due to a lack of 
funding and 18 percent are considering moving their research outside of 
the United States. Last year, a CEO of a major U.S. corporation was 
quoted as saying that his company was expanding abroad due, in part, to 
the ``moribund interest in science in the U.S.'' How would you describe 
the long-term effects of lower funding in terms of training the 
scientific workforce, attracting and keeping top talent, and supporting 
innovation and have you started to see these effects already?
    Answer. Researchers want to conduct research. I believe it is that 
simple. Without adequate opportunities to conduct science, young 
researchers will look elsewhere. Also, younger students in high school 
and college still planning their careers will be discouraged from 
joining scientific fields without obvious employment opportunities.
    My research group and many other groups around me have been forced 
to turn down the applications of promising researchers--the next 
generation of world leading scientists--as funding levels have dropped. 
As I stated in my testimony, for the first time in my career, I have 
seen examples of researchers choosing to join research groups abroad in 
fields in which the United States' investments have stagnated and our 
leadership is waning.
    That said, I am encouraged by legislation such as the America 
COMPETES Act that if passed would renew America's commitment to 
increasing funding for basic research, and help us to train a next 
generation of world leading scientists here at home.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                          Dr. Saul Perlmutter
    Question 1. More than half of all basic research in the United 
States is funded by the Federal Government--American universities and 
colleges are responsible for 53 percent of this research. I believe 
that we should be doing more to commercialize federally funded 
research, where possible. However, there is a disparity between the 
amount of commercialization coming from top tier research schools 
versus lower performing schools. A recent report from the President's 
Council of Advisors on Science and Technology (PCAST) found that top 
tier schools tend to do very well in terms of funding, while lower 
performing schools are more constrained in their ability to 
commercialize their research.
    One problem I have noticed is that there are a series of closed 
markets in terms of who controls intellectual property (IP) within 
universities. Bob Litan, an innovation expert, was recently quoted in 
Forbes noting that ``one of the big disadvantages of the traditional 
TLO model is that the TLO exerts the entire control over which 
innovations reach the market, in what form, and how fast.''
    Another issue is that some schools have surpassed others in terms 
of the amount of technology they are able to commercialize. One example 
is the Massachusetts Institute of Technology's Deshpande Center, which 
has funded 100 projects totaling over $13 million. The Center has also 
seen the creation of 28 spinout companies that have raised over $400 
million in capital.
    I have worked with Senator Moran on a proposal to accelerate 
commercialization within underperforming university tech transfer 
offices as a part of the Startup Act.

    Question 1a. What is the most aggressive thing that we can do to 
spur more commercialization similar to what has been happening at 
schools like MIT?

    Question 1b. Additionally, do you think that crowdfunding has any 
role in tech transfer? I was interested to learn that the University of 
Utah has recently launched its ``Technology Commercialization Office'' 
which uses crowdfunding as an alternative to traditional university 
``technology licensing offices'' (TLOs). What do you think about this?
    Answer. In answer to both a) and b) I am quiet interested in 
learning more about the efforts at MIT, Utah and other institutions to 
commercialize research, but without knowing more I hesitate to offer an 
opinion on this. However, I do believe that the most important first 
ingredient of technology development, especially for those that are 
breakthrough technologies, stems from basic science discoveries. That 
is the reason I strongly support healthy Federal investment in basic 
science and am pleased that the COMPETES Act would support increased 
funding for this research.

    Question 2. According to a 2007 report by the National Academies, 
faculty working on federally funded research spend 42 percent of their 
time on administrative duties, such as compliance with Federal 
regulations. Additionally, a November 2012 PCAST report states:

        ``Over the last two decades, the Government has added a steady 
        stream of new compliance and reporting requirements, many of 
        which vastly increase the flow of paper without causing any 
        improvements in actual performance. Sometimes these 
        requirements stand in the way of performance improvements.''

    Some solutions proposed include eliminating overly burdensome 
regulations, such as effort reporting, harmonizing regulation across 
agencies, focusing regulations on performance rather than process, as 
well as others.

    Question 2a. What actions should be taken to make University 
research regulations more efficient, while still maintaining a high 
level of accountability?

    Question 2b. Do you have any specific examples of burdensome 
regulations that should be reformed?
    Answer. In answer to both a) and b), I strongly agree with the 
PCAST report. Micromanagement and over regulation stifles the 
creativity and scientific productivity of the scientists. Although it 
may appear that fewer mistakes are being made, the truth is that the 
result is smaller scientific returns on the Federal investment. You 
cannot regulate your way to great science (this has been tried, 
unsuccessfully, by other countries). Although at the moment I do not 
have a list of suggestions for specific reform. However, I do believe 
that Congress could send a strong message to the agencies and 
scientific program managers by making it clear that they care more 
about researchers spending their productive time on science rather than 
on accounting processes and reporting.

    Question 3. I am very supportive of efforts to consolidate STEM 
programs and funding streams. President Obama's 2014 budget decreases 
the number of STEM programs by 50 percent, from 226 to 112. I know that 
some Members have expressed concerns about this consolidation, but I 
believe this a great way to reduce administrative overhead and to get 
more funding to students. In considering the reauthorization of 
COMPETES, do you have any recommendations for further consolidation of 
STEM programs?
    Answer. At this time I do not have an opinion on the proposed 
consolidation of STEM programs.

    Question 4. I believe that America is lacking a long-term vision 
for economic growth and international competitiveness. There has not 
been enough of an effort to come together across government sectors and 
devise a strategy for going forward.
    I included an amendment in the 2010 COMPETES reauthorization that 
directed the Department of Commerce to create a National 
Competitiveness Strategy. However, I was disappointed by the way the 
process played out. I did not feel like the report did enough to 
concisely and effectively establish solutions for key issues like 
infrastructure investment, immigration policy, research and development 
funding, and others.

    Question 4a. In your opinion, what targeted investment in R&D would 
do the most to help America stay ahead of our global competition?

    Question 4b. What recent investments in R&D have had the most 
potential impact to American global competitiveness?
    Answer. In answer to both a) and b), I believe that the most 
important and strategic investment that the Federal Government can make 
in research and development is in basic science funding--discovery 
science; science with no obvious commercial application. As articulated 
in the National Academies' Gathering Storm Report, and as reflected in 
the goals and objectives of the COMPETES Act, basic science drives not 
only real technological advancement, but also seeds progress in the 
development of solutions and speeds delivery of technologies to society 
across a broad range of industries and technical areas. Basic 
scientific discoveries, funded by Federal agencies, have led to 
commercial breakthroughs in the application of nanotechnology, biology 
for energy and environmental solutions, and Nobel Prizes. We don't know 
from where the next ``solution'' or ``technology'' may come. But, we do 
not that it will not come at all without basic science discoveries.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Deb Fischer to 
                          Dr. Saul Perlmutter
    Question. Economic growth and job creation are critical to any 
state. I am quite proud of Nebraska's recent success in this area with 
one of the lowest unemployment rates in the country, many good jobs, 
and successful businesses. What do you see as the underpinnings for a 
vibrant economy and jobs in the future? How can this legislation 
[America COMPETES] contribute to that?
    Answer. As my testimony indicated, it appears that the economic 
health of today stems from past investments in education and in 
research. Surprisingly enough, basic science has proven a crucial part 
of this mix--not just applied research that may appear the most obvious 
contributor. Therefore, legislation like the America COMPETES Act is 
vital to economic growth and for job creation throughout the United 
States. By authorizing increases in the levels of Federal investment in 
science, including basic research, the COMPETES Act would ensure that 
the United States remains a leader in scientific productivity and has a 
strong innovation and economic foundation. I am particularly pleased 
that the COMPETES Act contains increased funding authorization for the 
Department of Energy's Office of Science--a organization that is an 
important part of the Nation's innovation ecosystem.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Dr. Maria M. Klawe
    Question 1. According to a recent survey of scientists performed by 
the American Society for Biochemistry and Molecular Biology, 53 percent 
of respondents have turned away promising researchers due to a lack of 
funding and 18 percent are considering moving their research outside of 
the United States. Last year, a CEO of a major U.S. corporation was 
quoted as saying that his company was expanding abroad due, in part, to 
the ``moribund interest in science in the U.S.''
    How would you describe the long-term effects of lower funding in 
terms of training the scientific workforce, attracting and keeping top 
talent, and supporting innovation and have you started to see these 
effects already?
    Answer. When students, both undergraduate and graduate, and post-
docs see their faculty having serious difficulty in finding funding to 
support their research, it discourages them from pursuing academic and 
research careers in the United States. I am already seeing a decrease 
in top U.S. undergraduate students choosing to enter Ph.D. programs and 
an increase in top U.S. Ph.D. and post-docs looking for academic and 
research positions in other countries.

    Question 2. What changes to the education system might be necessary 
to ensure that U.S. companies can access a healthy, U.S.-based STEM 
workforce?
    Answer. The key changes that are needed are:

  <bullet> Improving recruitment and retention in STEM degree programs 
        especially for women and under-represented minorities in areas 
        like computer science and some areas of engineering where 
        participation and retention rates are particularly low. 
        Strategies that have been demonstrated to be highly effective 
        in doing this include:

    <ctr-circle> Making introductory courses relevant, interesting and 
            non-intimidating though inclusion of applications and 
            providing appropriate support for less well-prepared 
            students;

    <ctr-circle> Providing early (within the first two undergraduate 
            years) team-based hands-on experiences via projects or 
            research;

    <ctr-circle> Providing exposure to role-models from industry who 
            can demonstrate the career opportunities for graduates in 
            various disciplines;

    <ctr-circle> Hiring more diverse faculty (women, minorities, and 
            people with industry experience); and

    <ctr-circle> Placing equal emphasis on excellence in teaching as on 
            excellence in research for promotion, tenure and salary 
            increases.

  <bullet> Federal funding via NSF and other agencies can play a huge 
        role in driving these changes through:

    <ctr-circle> Funding for development and dissemination of more 
            effective introductory courses;

    <ctr-circle> Funding for early research experiences for 
            undergraduates as well as for more senior undergraduates;

    <ctr-circle> Funding for regional and national workshops and 
            conferences that bring students and faculty together with 
            industry professionals at all levels (e.g., the Grace 
            Hopper Celebration of Women in Computing, The Society of 
            Women Engineers (SWE), etc.);

    <ctr-circle> Programs that provide funding for salary and start-up 
            research costs for faculty that diversify a department; and

    <ctr-circle> Programs that provide significant funding for 
            curriculum development and research to assistant and 
            associate professors who are stars in both teaching and 
            research (like the NSF Career Awards but with more emphasis 
            on teaching).

    Question 3. Some have argued that the United States should focus 
its R&D efforts more on applied research and less on basic research, as 
some other countries have done.
    Dr. Klawe, what would a reduction in basic research funding mean 
for universities?
    Answer. Reducing funding for basic research in U.S. universities 
would significantly impact innovation in the U.S. economy. The U.S. 
leads the world in innovation, and, to a certain extent, other 
countries are able to draft behind us by focusing their research 
investments on applications resulting from our discoveries. By leading 
the world in basic research, we get a head start on commercializing 
applications from fundamental discoveries. This is why China is making 
significant investments in building basic research at their top 
universities.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                           Dr. Maria M. Klawe
    Question. Dr. Klawe, you spoke about computer programming languages 
and making them more accessible by helping students and the public 
understand programming and options for learning that may be useful to 
securing a career in computer science. I understand there are multiple 
programming languages--can you discuss these and how educators and 
industries can help make computer science studies more accessible and 
understood?
    Answer. Different programming languages have different purposes. 
Some are easier to learn and/or use, but either run more slowly or can 
only be used to create a limited range of kinds of software. For 
example there are visual programming languages like Scratch and Alice 
whose purpose is to make it easy for new learners, especially younger 
students, to build simple programs and understand their structure, but 
no one would try to build anything complicated with them. A visual 
language allows students to assemble virtual building blocks to make a 
program that accomplishes the desired task. Examples of this approach 
can be seen on the code.org website.
    Most languages used for serious software development are text-
based, where programmers type a list of instructions for the computer 
to execute. For example, Python is a language that is easy to learn and 
can be used to easily build almost anything, but it runs too slowly for 
some kinds of commercial applications. Languages like C, C++, and Java 
are general-purpose languages designed for building large software 
systems that run very efficiently but are harder to learn and use. In 
addition there are languages that are designed to make it easier to 
prove that a program runs correctly or to facilitate a particular 
approach to programming or to build a particular kind of software 
system like a database. Professional software developers will often 
build the first version of a new piece of software using a good 
prototyping language like Python, and then rewrite the pieces of code 
that need to run more quickly in a language like C++ or Java.
    Our understanding of how best to teach computer science has evolved 
quite a bit over the last three decades. As in some other disciplines 
there are differences of opinion on the best approach, but there is 
growing support for the following strategy. For elementary, middle 
school or early high school students, start by teaching some central 
concepts and have students understand them by solving puzzles using a 
visual language. For older students with more mathematics knowledge 
(high school juniors and seniors, college students), teach a broader 
set of core concepts by having students solve interesting applied 
problems using an easy to learn, text-based language such as Python. 
There are several reasons why Python is increasingly popular as an 
introductory text-based language for students to learn. First, it's 
easy. Second, because it's used by many professional software 
developers, knowledge of Python helps students to get a summer job. 
Last but not least, the transition from Python to languages like C++ or 
Java is much easier than from a visual language.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                           Dr. Maria M. Klawe
    Question 1. More than half of all basic research in the United 
States is funded by the Federal Government--American universities and 
colleges are responsible for 53 percent of this research. I believe 
that we should be doing more to commercialize federally funded 
research, where possible. However, there is a disparity between the 
amount of commercialization coming from top tier research schools 
versus lower performing schools. A recent report from the President's 
Council of Advisors on Science and Technology (PCAST) found that top 
tier schools tend to do very well in terms of funding, while lower 
performing schools are more constrained in their ability to 
commercialize their research.
    One problem I have noticed is that there are a series of closed 
markets in terms of who controls intellectual property (IP) within 
universities. Bob Litan, an innovation expert, was recently quoted in 
Forbes noting that ``one of the big disadvantages of the traditional 
TLO model is that the TLO exerts the entire control over which 
innovations reach the market, in what form, and how fast.''
    Another issue is that some schools have surpassed others in terms 
of the amount of technology they are able to commercialize. One example 
is the Massachusetts Institute of Technology's Deshpande Center, which 
has funded 100 projects totaling over $13 million. The Center has also 
seen the creation of 28 spinout companies that have raised over $400 
million in capital.
    I have worked with Senator Moran on a proposal to accelerate 
commercialization within underperforming university tech transfer 
offices as a part of the Startup Act.
    What is the most aggressive thing that we can do to spur more 
commercialization similar to what has been happening at schools like 
MIT?
    Additionally, do you think that crowdfunding has any role in tech 
transfer? I was interested to learn that the University of Utah has 
recently launched its ``Technology Commercialization Office'' which 
uses crowdfunding as an alternative to traditional university 
``technology licensing offices'' (TLOs). What do you think about this?
    Answer. In my experience the faculty and student culture around 
commercialization is as important as the TLO in achieving great 
commercialization outcomes. Institutions that support and reward 
faculty and students who commercialize their inventions end up with a 
lot more patents, licenses and spin-off companies than those that 
don't. Some factors that positively influence the culture include:

  <bullet> Facilitating leaves for faculty and students who are 
        creating spin-off companies;

  <bullet> Creating commercialization and entrepreneurship courses for 
        undergraduate and graduate students so they can learn the 
        process of getting patents, writing business plans, and getting 
        angel and VC funding;

  <bullet> Holding commercialization and business plan competitions to 
        get angel funding;

  <bullet> Giving faculty and students more control of the IP, 
        especially when the work results from research primarily funded 
        from non-institutional funds (e.g., NSF or other government 
        agencies).

    For smaller universities and colleges, approaches like the 
Philadelphia Science Center that provide TLO services for many 
institutions make a lot of sense. It's important to make sure that 
there are not barriers in access to funding programs for multi-
institutional TLO operations.
    Crowdfunding for tech transfer makes lots of sense. It's what many 
start-ups are doing these days in any case, and it should be possible 
to make the model work for tech transfer as well.

    Question 2. According to a 2007 report by the National Academies, 
faculty working on Federally funded research spend 42 percent of their 
time on administrative duties, such as compliance with Federal 
regulations. Additionally, a November 2012 PCAST report states:

        ``Over the last two decades, the Government has added a steady 
        stream of new compliance and reporting requirements, many of 
        which vastly increase the flow of paper without causing any 
        improvements in actual performance. Sometimes these 
        requirements stand in the way of performance improvements.''

    Some solutions proposed include eliminating overly burdensome 
regulations, such as effort reporting, harmonizing regulation across 
agencies, focusing regulations on performance rather than process, as 
well as others.
    What actions should be taken to make University research 
regulations more efficient, while still maintaining a high level of 
accountability?
    Do you have any specific examples of burdensome regulations that 
should be reformed?
    Answer. It should be possible to significantly streamline the 
reporting obligations without reducing accountability, but even as, or 
more, importantly, the amount of time that faculty spend in writing 
grant applications needs to be reduced. My experience is that faculty 
spend much more time working on grant applications than on reporting. 
This is partly due to the length and complexity of grant proposals and 
partly because of the low percentage of applications being funded.
    My recommendation is to focus on improving the grant application 
and awarding process.

    Question 3. I am very supportive of efforts to consolidate STEM 
programs and funding streams. President Obama's 2014 budget decreases 
the number of STEM programs by 50 percent, from 226 to 112. I know that 
some Members have expressed concerns about this consolidation, but I 
believe this a great way to reduce administrative overhead and to get 
more funding to students.
    In considering the reauthorization of COMPETES, do you have any 
recommendations for further consolidation of STEM programs?
    Answer. Unfortunately I don't know enough about this issue to make 
a responsible recommendation.

    Question 4. I believe that America is lacking a long-term vision 
for economic growth and international competitiveness. There has not 
been enough of an effort to come together across government sectors and 
devise a strategy for going forward.
    I included an amendment in the 2010 COMPETES reauthorization that 
directed the Department of Commerce to create a National 
Competitiveness Strategy. However, I was disappointed by the way the 
process played out. I did not feel like the report did enough to 
concisely and effectively establish solutions for key issues like 
infrastructure investment, immigration policy, research and development 
funding, and others.
    In your opinion, what targeted investment in R&D would do the most 
to help America stay ahead of our global competition?
    What recent investments in R&D have had the most potential impact 
to American global competitiveness?
    Answer. In my opinion, the biggest economic opportunities will come 
from increased investment at the interface between computer science and 
electrical engineering and other disciplines such as medicine (and 
healthcare), statistics, economics, education, environment, and 
entertainment. The impact of advances in data analysis, sensors, and 
other areas of software and hardware, on all sectors of the economy is 
just beginning. This interface is what is driving competitiveness 
around the world, and we need to be at the forefront.
    The most important investment in terms of actual impact over the 
last decade has been in information technology research, plus the 
networking infrastructure. The investment in genomics and proteomics 
also has great potential impact, as does the investment in 
nanotechnology.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Deb Fischer to 
                           Dr. Maria M. Klawe
    Question. Economic growth and job creation are critical to any 
state. I am quite proud of Nebraska's recent success in this area with 
one of the lowest unemployment rates in the country, many good jobs, 
and successful businesses. What do you see as the underpinnings for a 
vibrant economy and jobs in the future? How can this legislation 
contribute to that?
    Answer. Innovation and new technology underpin a vibrant economy, 
accompanied by a strong, well-educated, entrepreneurial STEM workforce.
    The foundation for innovation is basic scientific research, and 
government funding such as the COMPETES Act plays a central role in 
supporting this research. Government support keeps the U.S. in the lead 
in terms of innovation and its commercialization.
    Government funding also plays a vital role in educating the 
scientific workforce. COMPETES supports STEM education, especially 
efforts to improve STEM education and grow and diversify the STEM 
workforce--critical for meeting the needs of industry and spurring 
economic growth.
    Computing has become the universal underpinning of scientific 
advancement and economic activity; there is incredible economic 
opportunity at the interface between computer science and virtually 
every discipline, especially the life sciences and engineering, but 
nearly every field is starting to advance rapidly by incorporating 
computer science. The U.S. needs to lead in the R&D at this interface, 
and in its application and commercialization, to maintain a robust, 
competitive economy.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Dr. Stephen S. Tang
    Question 1. According to a recent survey of scientists performed by 
the American Society for Biochemistry and Molecular Biology, 53 percent 
of respondents have turned away promising researchers due to a lack of 
funding and 18 percent are considering moving their research outside of 
the United States. Last year, a CEO of a major U.S. corporation was 
quoted as saying that his company was expanding abroad due, in part, to 
the ``moribund interest in science in the U.S.''
    How would you describe the long-term effects of lower funding in 
terms of training the scientific workforce, attracting and keeping top 
talent, and supporting innovation and have you started to see these 
effects already?
    Answer. There is no doubt that in order to attract top talent and 
ensure that our country remains a leader in innovation, the Federal 
Government must prioritize investment in research activities. The 
economic downturn disrupted traditional financing channels for budding 
entrepreneurs. Since 2000, our country as a whole has seen a decline in 
commercialization of research. At a time when private capital is most 
limited, it is even more important that the government provide support 
for innovation and economic growth.
    At the Science Center, we have witnessed a greater need for Federal 
investment for basic and applied research. While we strongly believe in 
public-private partnerships, often the private sector funds only the 
least risky and most lucrative endeavors. Federal resources are 
necessary to ensure that innovators apply their knowledge and expertise 
widely and respond to market forces.

    Question 2. Dr. Tang, drawing on your corporate experience, how 
does the availability of quality STEM graduates and promising 
researchers affect corporate decisions about where to conduct research 
and where to manufacture goods?
    Answer. Corporate leaders understand the necessity of employing a 
skilled workforce to achieve success. Tech-based entrepreneurs and 
innovators depend on STEM talent to achieve their goals. While STEM is 
a growing field in this country, the demand for individuals 
specializing in science and math still outpaces the demand. Often in an 
attempt to capture these talents, corporate entities establish a 
presence within areas highly concentrated with STEM professionals.
    At the Science Center, we witnessed this in late 2010, when Eli 
Lilly acquired Avid Radiopharmaceuticals, a startup company located on 
our campus. The Greater Philadelphia region is home to a number of 
leading research institutions which have spun out a number of startup 
companies that have attracted interest from Lilly and other large 
firms. Business, industry and venture capital firms will relocate to 
areas where talent is dense and resources are rich. STEM professionals 
are the backbone to innovation and as a country we must encourage top 
talents to embrace this field.

    Question 3. Some have argued that the United States should focus 
its R&D efforts more on applied research and less on basic research, as 
some other countries have done.
    Dr. Tang, if the Federal Government significantly cut back its 
investment in basic research, could the Nation depend on the private 
sector to close the funding gap or is government-industry collaboration 
necessary?
    Answer. If the Federal Government significantly cut back its 
investment in basic research, I do not believe that the private sector 
would close the funding gap entirely on its own. As noted in the 
Department of Commerce's study of the Nation's economic competitiveness 
and innovation capacity, issued in January 2012 pursuant to the last 
reauthorization of America COMPETES, the Federal Government is the 
logical primary funder of basic research because the knowledge 
generated by basic research is considered to be a ``public good'':
    A public good has two main characteristics: (1) one person's 
consumption of that good does not reduce the amount available for 
others to consume and (2) it is difficult to exclude others from 
consuming the good . . .
    What this means, particularly for basic research, is that it may 
not be possible for those conducting the research to fully appreciate 
the benefits from research and innovation. In such cases, the social 
benefits (those that accrue to society as a whole) from these 
innovative activities likely exceed the private benefits (those that 
accrue just to the entity conducting the research). . . . Because 
individual researchers cannot recoup the full value of their work, the 
incentive to produce a socially optimal amount of innovative activity 
is lacking. This creates a potential role for government to fund 
innovative activity to raise this activity closer to the social 
optimum.
    The Competitiveness and Innovative Capacity of the United States, 
prepared by the U.S. Department of Commerce in consultation with the 
National Economic Council, January 2012, pp. 3-2--3-3. (I had the 
privilege of serving on the 15-member Innovation Advisory Board, 
appointed by the Secretary of Commerce, which provided advice with 
respect to the conduct of the study.)
    Accordingly, I believe it is critical that the Federal Government, 
at a minimum, maintain its level of investment in basic research so 
that the United States can maintain its position as a world leader in 
innovation. However, government-industry collaboration should continue 
to be encouraged, where feasible or appropriate, with respect to both 
basic and applied research. As noted in the Department of Commerce 
report, ``Federal funding, coupled with private industry funding, was 
critical for the development of the transistor by Bell Labs in the 
1950s, the growth of the semiconductor industry, and the birth of 
Silicon Valley in the 1980s.'' The Competitiveness and Innovative 
Capacity of the United States, p. 3-7. In addition, simplifying and 
extending the corporate R&D tax credit would encourage private industry 
to undertake the risks associated with R&D activity and spending.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                          Dr. Stephen S. Tang
    Question 1. More than half of all basic research in the United 
States is funded by the Federal Government--American universities and 
colleges are responsible for 53 percent of this research. I believe 
that we should be doing more to commercialize federally funded 
research, where possible. However, there is a disparity between the 
amount of commercialization coming from top tier research schools 
versus lower performing schools. A recent report from the President's 
Council of Advisors on Science and Technology (PCAST) found that top 
tier schools tend to do very well in terms of funding, while lower 
performing schools are more constrained in their ability to 
commercialize their research.
    One problem I have noticed is that there are a series of closed 
markets in terms of who controls intellectual property (IP) within 
universities. Bob Litan, an innovation expert, was recently quoted in 
Forbes noting that ``one of the big disadvantages of the traditional 
TLO model is that the TLO exerts the entire control over which 
innovations reach the market, in what form, and how fast.''
    Another issue is that some schools have surpassed others in terms 
of the amount of technology they are able to commercialize. One example 
is the Massachusetts Institute of Technology's Deshpande Center, which 
has funded 100 projects totaling over $13 million. The Center has also 
seen the creation of 28 spinout companies that have raised over $400 
million in capital.
    I have worked with Senator Moran on a proposal to accelerate 
commercialization within underperforming university tech transfer 
offices as a part of the Startup Act.
    What is the most aggressive thing that we can do to spur more 
commercialization similar to what has been happening at schools like 
MIT?
    Additionally, do you think that crowdfunding has any role in tech 
transfer? I was interested to learn that the University of Utah has 
recently launched its ``Technology Commercialization Office'' which 
uses crowdfunding as an alternative to traditional university 
``technology licensing offices'' (TLOs). What do you think about this?
    Answer. I am aware of the provision to which you are referring to 
in your legislation, the StartUp Act. We at the Science Center are 
highly supportive of this effort and applaud your attention to the need 
for a Federal commitment to commercialization.
    I believe that this specific provision could be further 
strengthened by allowing eligible non-profit venture development 
organizations (VDOs) to assist universities with commercialization 
activities. As you mention, some universities and research institutions 
are more adept at tech transfer than others. There are VDOs across the 
country, including research parks and other technology-based economic 
development organizations, which have extensive experience with 
evaluating commercialization potential and market viability. I urge you 
to allow universities the ability to contract with VDOs like the 
Science Center to provide proof-of-concept and other commercial 
research. Often these entities match resources and leverage additional 
funding, to enable a TLO to be able to do more than it could on its 
own.
    An example of this is the Science Center's QED Proof-of-Concept 
Program. While QED was modeled after MIT's Deshpande Center, our 
program is unique in that it is multi-institutional, and currently 
counts 21 colleges, universities, hospitals and research institutions 
in the Greater Philadelphia area as participants. All of these 
institutions have agreed to common terms and conditions of 
participation.
    When we started QED, our premise was that given access to 
appropriate funding, business advice and other resources, participating 
institutions that have not previously taken a lead in commercialization 
would have marketable technologies. After five years of running the 
program, we have found this premise to be true. While many of the 
winners do come from institutions like the University of Pennsylvania 
and Drexel University, we have also funded projects from Philadelphia 
University, the University of Delaware, Lehigh University and Rutgers 
University. The QED program has resulted in six licenses and $9 million 
in follow on capital to date. We strongly believe this multi-
institutional model could be replicated across the country, in 
virtually any R&D domain.
    Crowdfunding could be an important tool in the toolbox of 
entrepreneurs interested in commercialization of technology. As has 
been mentioned, the private markets only invest in low-risk, high-yield 
projects. Crowdfunding could provide access to capital for technologies 
or therapies with market potential.
    That said, it is imperative that safeguards be put in place to 
ensure that individuals who can participate in crowdfunding 
arrangements meet certain criteria and agree to specific terms of 
return on investment. Fraud prevention measure must also be put into 
place by the Federal Government to protect investors.

    Question 2. According to a 2007 report by the National Academies, 
faculty working on Federally funded research spend 42 percent of their 
time on administrative duties, such as compliance with Federal 
regulations. Additionally, a November 2012 PCAST report states:
    ``Over the last two decades, the Government has added a steady 
stream of new compliance and reporting requirements, many of which 
vastly increase the flow of paper without causing any improvements in 
actual performance. Sometimes these requirements stand in the way of 
performance improvements.''
    Some solutions proposed include eliminating overly burdensome 
regulations, such as effort reporting, harmonizing regulation across 
agencies, focusing regulations on performance rather than process, as 
well as others.
    What actions should be taken to make University research 
regulations more efficient, while still maintaining a high level of 
accountability?
    Do you have any specific examples of burdensome regulations that 
should be reformed?
    Answer. Redundant and overly burdensome regulations impact not only 
universities but the productivity of their researchers. Some of our 
university partners have mentioned that regulations related to conflict 
of interest can often discourage research faculty from working with 
industry. We at the Science Center believe that university/industry 
partnership can spur commercialization and job creation, and therefore 
would support efforts to modify the regulations so as to encourage 
faculty to work with industry.
    The corporate tax rate of 35 percent in this country provides a 
competitive advantage for other countries to house our talent and 
capital. We lose American educated researchers abroad due to antiquated 
immigration laws as well as uncompetitive tax policy. I would support 
repatriation incentives for U.S. companies to move operations back 
onshore in an effort to retain both talent and economic growth.

    Question 3. I am very supportive of efforts to consolidate STEM 
programs and funding streams. President Obama's 2014 budget decreases 
the number of STEM programs by 50 percent, from 226 to 112. I know that 
some Members have expressed concerns about this consolidation, but I 
believe this a great way to reduce administrative overhead and to get 
more funding to students.
    In considering the reauthorization of COMPETES, do you have any 
recommendations for further consolidation of STEM programs?
    Answer. In general I am supportive of coordinating programs with 
similar or dual missions to maximize resources and reduce redundancy. I 
understand that when programs are consolidated there are always 
concerns that the specific focus of each program will diminish. As long 
as we continue to prioritize STEM education, I support providing one 
entity (the NSF) with resources to improve inter-agency collaboration 
and promote a nationwide STEM agenda.

    Question 4. I believe that America is lacking a long-term vision 
for economic growth and international competitiveness. There has not 
been enough of an effort to come together across government sectors and 
devise a strategy for going forward.
    I included an amendment in the 2010 COMPETES reauthorization that 
directed the Department of Commerce to create a National 
Competitiveness Strategy. However, I was disappointed by the way the 
process played out. I did not feel like the report did enough to 
concisely and effectively establish solutions for key issues like 
infrastructure investment, immigration policy, research and development 
funding, and others.
    In your opinion, what targeted investment in R&D would do the most 
to help America stay ahead of our global competition?
    What recent investments in R&D have had the most potential impact 
to American global competitiveness?
    Answer. As a member of the Innovation Advisory Board that drafted 
the report on U.S. competitiveness and innovative capacity, I also had 
hoped for a more comprehensive document.
    Related to your question about R&D priorities, I strongly believe 
the Federal Government must invest more in applied research, as a 
complement to the Nation's continued support of basic research. To be 
clear, I do not advocate for commercialization at the expense of basic 
research; however, we must empower researchers to study proof-of-
concept and think about market viability. In large part, a shift in 
culture at many universities must occur to create environments that 
support commercialization activities, and a commitment from the Federal 
Government could help spur this change.
    I would argue that Federal investment in human capital through STEM 
education is the most significant in terms of potential for American 
global competitiveness. There is no one technology or therapy that 
makes America competitive alone; rather, it is our talented researchers 
that are continually investigating, finding new products and creating 
new companies. Significant and important technologies have been 
developed with the assistance of Federal funds in the fields of life 
sciences, national defense, and space exploration, all of which make 
our country competitive among nations. Without a talented and education 
workforce these developments would never come about.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Deb Fischer to 
                          Dr. Stephen S. Tang
    Question. Economic growth and job creation are critical to any 
state. I am quite proud of Nebraska's recent success in this area with 
one of the lowest unemployment rates in the country, many good jobs, 
and successful businesses. What do you see as the underpinnings for a 
vibrant economy and jobs in the future? How can this legislation 
contribute to that?
    Answer. Regional economies must recognize their strengths and build 
an environment where all necessary economic components can work 
together and collaborate. In Philadelphia we are fortunate to have a 
large concentration of life sciences resources, leading research 
institutions and industry, in close proximity. For regional economies 
to prosper, essential components--such as investors, inventors and 
entrepreneurs--should be given the space, opportunity and incentive to 
collaborate on a regular basis.
    In particular, I am a strong proponent of ``scalable innovation,'' 
in which regional economies assess their innovation capacity in 
conjunction with their particular assets and strengths, and then scale 
in accordance with local market forces. While Southeastern 
Pennsylvania, for example, is focused on an innovation economy that 
highlights the life sciences, other areas could ``scale'' innovation in 
manufacturing, energy or other industries in which they have strength.
    The Federal government should support local, regional and state 
efforts to create innovative and vibrant economies. The America 
COMPETES Act is an important tool that reinforces this commitment. At 
the Science Center, and at other technology-based economic development 
entities across the nation, we work to commercialize federally funded 
research; that is, to transform the significant investment the 
government has made in basic research into marketable technologies and 
companies. America COMPETES's creation of the Office of Innovation and 
Entrepreneurship at the Department of Commerce has spurred a focus on 
and investment in translational research and commercialization. The 
Regional Innovation Program will assist local economies in scaling to 
their innovation potential. Finally, the reauthorization of America 
COMPETES provides us with the opportunity to further capitalize on 
promising research and allow for a focus on job creation. With 
additional tools, such as the ability to compete directly for a larger 
number of National Science Foundation grants, non-profit economic 
development entities across the Nation could significantly boost their 
efforts to assist academic researchers and start-up entrepreneurs, 
thereby leading to more economic development and job creation.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
